<html>
<title> - SOCIAL SECURITY DISABILITY BACKLOGS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                  SOCIAL SECURITY DISABILITY BACKLOGS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 14, 2007

                               __________

                           Serial No. 110-13

                               __________

         Printed for the use of the Committee on Ways and Means



                  U.S. GOVERNMENT PRINTING OFFICE
47-004                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f295829db2918781869a979e82dc919d9fdc">[email&#160;protected]</a>  


                      COMMITTEE ON WAYS AND MEANS

                 CHARLES B. RANGEL, New York, Chairman

FORTNEY PETE STARK, California       JIM MCCRERY, Louisiana
SANDER M. LEVIN, Michigan            WALLY HERGER, California
JIM MCDERMOTT, Washington            DAVE CAMP, Michigan
JOHN LEWIS, Georgia                  JIM RAMSTAD, Minnesota
RICHARD E. NEAL, Massachusetts       SAM JOHNSON, Texas
MICHAEL R. MCNULTY, New York         PHIL ENGLISH, Pennsylvania
JOHN S. TANNER, Tennessee            JERRY WELLER, Illinois
XAVIER BECERRA, California           KENNY HULSHOF, Missouri
LLOYD DOGGETT, Texas                 RON LEWIS, Kentucky
EARL POMEROY, North Dakota           KEVIN BRADY, Texas
STEPHANIE TUBBS JONES, Ohio          THOMAS M. REYNOLDS, New York
MIKE THOMPSON, California            PAUL RYAN, Wisconsin
JOHN B. LARSON, Connecticut          ERIC CANTOR, Virginia
RAHM EMANUEL, Illinois               JOHN LINDER, Georgia
EARL BLUMENAUER, Oregon              DEVIN NUNES, California
RON KIND, Wisconsin                  PAT TIBERI, Ohio
BILL PASCRELL, JR., New Jersey       JON PORTER, Nevada
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
CHRIS VAN HOLLEN, Maryland
KENDRICK MEEK, Florida
ALLYSON Y. SCHWARTZ, Pennsylvania
ARTUR DAVIS, Alabama

             Janice Mays, Chief Counsel and Staff Director

                  Brett Loper, Minority Staff Director

                                 ______

                    SUBCOMMITTEE ON SOCIAL SECURITY

                 MICHAEL R. MCNULTY, New York, Chairman

SANDER M. LEVIN, Michigan            SAM JOHNSON, Texas
EARL POMEROY, North Dakota           RON LEWIS, Kentucky
ALLYSON Y. SCHWARTZ, Pennsylvania    KEVIN BRADY, Texas
ARTUR DAVIS, Alabama                 PAUL RYAN, Wisconsin
XAVIER BECERRA, California           DEVIN NUNES, California
LLOYD DOGGETT, Texas
STEPHANIE TUBBS JONES, Ohio

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also, published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of February 7, 2007, announcing the hearing.............     2

                               WITNESSES

The Honorable Michael J. Astrue, Commissioner, Social Security 
  Administration.................................................     6

                                 ______

Sylvester J. Schieber, Chairman, Social Security Advisory Board..    27
Nancy Shor, Executive Director, National Organization of Social 
  Security Claimants' Representatives, Englewood Cliffs, New 
  Jersey.........................................................    33
Rick Warsinskey, President, National Council of Social Security 
  Management Associations, Inc., Cleveland, Ohio.................    43
James Fell, President, Federal Managers Association 
  Chapter 275, Alexandria, Virginia..............................    48

                       SUBMISSIONS FOR THE RECORD

Allsup, James F., Belleville, IL, statement......................    85
Association of Administrative Law Judges, statement..............    87
National Association of Disability Examiners, Oklahoma City, OK, 
  statement......................................................    90
National Council on Disability, statement........................    92
Social Security Disability Coalition, Rochester, NY, statement...    98
Steinberg, Michael A., Tampa, FL, statement......................   110
Walkenhorst, Walter, Jenkintown, PA, statement...................   111


                  SOCIAL SECURITY DISABILITY BACKLOGS

                              ----------                              


                      WEDNESDAY, FEBRUARY 14, 2007

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:01 p.m., in 
room B-318, Rayburn House Office Building, the Honorable 
Michael McNulty (Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                                CONTACT: (202) 225-9263
FOR IMMEDIATE RELEASE
February 07, 2007
SS-1

                    Subcommittee on Social Security

                Chairman McNulty Announces a Hearing on

                  Social Security Disability Backlogs

    Congressman Michael R. McNulty (D-NY), Chairman, Subcommittee on 
Social Security of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on the Social Security 
Administration (SSA) disability claims backlogs. The hearing will take 
place on Wednesday, February 14, 2007, in room B-318 Rayburn House 
Office Building, beginning at 2:00 p.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Subcommittee and 
for inclusion in the printed record of the hearing.
      

FOCUS OF THE HEARING:

      
    The workload of SSA has grown significantly in recent years due to 
the aging of the population and new workloads such as those resulting 
from the Medicare Modernization Act (P.L. 108-173) and the Intelligence 
Reform and Terrorism Prevention Act (P.L. 108-458). However, due to 
funding constraints affecting SSA's administrative budget, these 
increasing workloads are not being effectively addressed. The agency 
has done much to employ scarce resources efficiently, re-engineering 
work processes and increasing overall productivity by more than 13 
percent from 2001 to 2006. Even with these improvements, however, there 
is a growing concern about the effect of staffing declines and other 
resource shortages on service delivery to the American public.
      
    Nowhere is the situation more grave than in the processing of 
applications for disability benefits. Due to large and increasing 
backlogs, severely disabled individuals can wait years to get the 
benefits they need for basic economic survival. At the end of fiscal 
year 2006, about 1.3 million people were awaiting a decision on their 
initial claim or appeal for Social Security or Supplemental Security 
Income (SSI) disability benefits.
      
    The President's FY 2008 budget request would provide a modest 
funding increase. However, given rising fixed costs and other factors, 
this would not be sufficient to maintain current staffing levels, which 
had already declined by 8 percent from FY 2006 to FY 2007. Thus, the 
disability backlog is projected to increase under the President's FY 
2008 budget to almost 1.4 million cases.
      
    This hearing will focus on the disability claims backlog, including 
how the delays impact individuals who have applied for disability 
benefits; the effect on other critical agency workloads, including 
program integrity activities; steps SSA has taken to date to resolve 
the backlogs; and options for addressing the problem.
       <greek-l> *** FORCED TO PREVENT BAD BREAK ***  deg.
    In announcing the hearing, Chairman McNulty said, ``The current 
delays in receiving disability benefits are completely unacceptable. 
Americans who have worked hard and paid into the system should not have 
to wait for years to get benefits they have earned and desperately 
need. SSA must have sufficient resources to give the American people 
the service they deserve.''
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``110th Congress'' from the menu entitled, ``Committee Hearings'' 
(http://waysandmeans.house.gov/Hearings.asp?congress=18). Select the 
hearing for which you would like to submit, and click on the link 
entitled, ``Click here to provide a submission for the record.'' Once 
you have followed the online instructions, completing all informational 
forms and clicking ``submit'' on the final page, an email will be sent 
to the address which you supply confirming your interest in providing a 
submission for the record. You MUST REPLY to the email and ATTACH your 
submission as a Word or WordPerfect document, in compliance with the 
formatting requirements listed below, by close of business Wednesday, 
February 28, 2007. Finally, please note that due to the change in House 
mail policy, the U.S. Capitol Police will refuse sealed-package 
deliveries to all House Office Buildings. For questions, or if you 
encounter technical problems, please call (202) 225-1721.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone and fax numbers of each witness.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman MCNULTY. Our hearing today focuses on one of the 
most critical challenges facing the Social Security 
Administration (SSA), the huge backlogs and waiting times for 
individuals who have applied for disability benefits.
    I chose to hold our first hearing on this issue, because I 
see it as a situation we urgently need to address. It is 
frankly unacceptable that people who are seriously disabled 
must often wait two, three, sometimes as many as 4 years to get 
the benefits to which they are entitled and that they were 
promised when they paid into the system. It is the number one 
problem I hear about from my constituents, and I believe most 
Members of Congress could say the same.
    Currently, more than a million people are awaiting a 
decision on their disability claim. The SSA has made attempts 
to address this problem through re-engineering efforts, 
including the new Disability Service Improvement (DSI) Process 
and the electronic disability folder. The Agency has also made 
significant strides in overall productivity, and is staffed 
with hard-working employees who do their best to provide good 
service to the public, and I commend them for their dedication.
    However, SSA's overall workloads have significantly 
increased in recent years due to the aging of the population 
and new workloads resulting from Medicare and Homeland Security 
legislation. Funding for SSA's administrative budget has not 
been sufficient to address these increased workloads. For the 
last several years, the SSA's appropriation has been less than 
the amount requested by the President. Staffing at the Agency 
is declining, and the disability claims backlogs have only 
gotten worse.
    This hearing will focus on the size of the backlogs, how 
the delays affect disability claimants, the impact on other 
critical Agency workloads, including program integrity 
activities such as continuing disability reviews (CDRs), and, 
of course, options for addressing the problem.
    I am very happy that we have today with us the new 
Commissioner of Social Security, the Honorable Michael Astrue, 
who took office just 2 days ago. I have already thanked the 
commissioner. He took his oath of office on Monday. We have him 
at a hearing on Wednesday, but we're grateful, Commissioner, 
that you came yourself, and we're deeply appreciative of that. 
I thank you for taking on the task of administering this 
Agency, whose operations are so critically important to the 
American people.
    I was particularly pleased to hear you say at your 
confirmation hearing that addressing the problem of disability 
backlog was one of your main interests in returning to SSA. You 
promised Senator Baucus that you would report back to him on 
this issue in April, and we would be very interested in hearing 
your findings as well.
    Finally, I'd like to acknowledge the outstanding work of 
your predecessor, Commissioner Jo Anne Barnhart, who left 
office last month. The Committee had a strong working 
relationship with Commissioner Barnhart, and I hope that we 
will have an equally productive relationship with you, 
Commissioner Astrue, as we work to address the disability 
claims backlog and other challenges facing the Agency.
    I would now like to turn the microphone over to one of my 
heroes in Congress and in life, the Ranking Member, the 
Honorable Sam Johnson.
    Mr. JOHNSON. Thank you. I appreciate that. I thank you for 
holding this hearing. I want to tell you it's an honor to work 
with you as well.
    This hearing is not about numbers. It's about real people 
in need of help and answers. Over the last 12 years, this 
Subcommittee has held many hearings on the challenges facing 
Social Security's disability. The good news is that changes, 
I'm told, are being made to help reduce processing time and 
ensure the right decision is being made as early as possible. 
These include the implementation of electronic claims folder 
and the disability determination process, changes that are now 
being made in the Boston area.
    Unfortunately, these changes aren't going to be fully 
implemented for five years. That's kind of long. Those that are 
waiting years to receive a decision on their claim need help 
now. I hope this testimony that you give us today will address 
that issue.
    Finding adequate resources to fund the Agency is not going 
to be easy. The fiscal challenges facing our Nation are 
daunting. Without reform--I repeat that--without reform, the 
growing cost of Social Security, Medicare, and Medicaid will 
consume the budget in coming decades.
    Our new Commissioner of Social Security is going to need to 
justify every dollar appropriated for Social Security is going 
to be spent wisely. Beyond resources, we must also find ways to 
make the Social Security programs easier to administer.
    Members of this Subcommittee have repeatedly asked Agency 
witnesses to send us legislation that you need to improve 
Agency operations and reduce unnecessary complexities, yet none 
has been received. Repeat that. None. We can help you if you'll 
let us.
    With the disability program in deficit, this area is in 
need of serious review by Social Security and this 
Subcommittee. Finding answers to these complex issues is not 
going to be easy, but it will be done, and must be.
    To that end, I look forward to working with Chairman 
McNulty and the Subcommittee colleagues, and along with 
Commissioner Astrue. Welcome, Mr. Commissioner, on your third 
day of work, I believe. I yield back.
    Chairman MCNULTY. I thank the Ranking Member for his 
comments and for his leadership. Any other Members who wish to 
submit opening statements in writing may do so, and they will 
be included as a part of the record.
    With that, we'll get right down to business. I want to 
introduce the newly confirmed Commissioner of the SSA, the 
Honorable Michael Astrue. Again, thank you, Commissioner, for 
coming here on your third day. I know that it would have been 
entirely possible and understandable for you to send someone 
else, and we do appreciate the fact that you came yourself.
    You may proceed. I know you know the routine here. Your 
entire statement will appear in the record. We ask that you try 
to keep your comments to about 5 minutes or so. I'm not going 
to enforce any tight time limit on you, because we do want to 
hear what you have to say. Then that gives a little bit more 
time for the Members to ask questions. So, you may proceed.

 STATEMENT OF MICHAEL J. ASTRUE, COMMISSIONER, SOCIAL SECURITY 
                         ADMINISTRATION

    Mr. POMEROY. Commissioner, I think your microphone isn't 
on.
    Mr. ASTRUE. Okay. Thank you. Let me start again.
    I'm very pleased to be here today to discuss the impact of 
last year's budget allocations on Social Security 
beneficiaries. Let me say at the outset that we appreciate your 
unflagging support for SSA, and I'm looking forward to working 
with the Subcommittee during my term.
    As I said at my confirmation hearing, my goal is to be a 
good steward of the program for both current and future 
beneficiaries. For current beneficiaries, this role means 
setting high standards for management, performance, service, 
and program integrity, and committing to meeting those 
standards. It also means being painstaking in making sure that 
the Agency adheres to the law and best-demonstrated practices 
of accounting, efficiency, and compassion.
    For future beneficiaries, good stewardship means engaging 
with others in the Agency and the Executive branch, with 
Members of the Subcommittee and other Members of Congress, as 
well as outside groups and experts, to provide unbiased data 
about all the options for safeguarding the financial stability 
of the program. It is part of our obligation to the American 
public that we must continue the best possible support for 
older Americans, people with disabilities, and their families 
in the coming decades.
    SSA's mission is to deliver high-quality service to every 
claimant, beneficiary, and the American taxpayer. In my written 
statement, I detailed the magnitude of that workload. Our 
traditional workloads are to make Social Security and 
Supplemental Security Income (SSI) payments, process benefit 
claims, and conduct hearings on appeals of SSA decisions. We 
also issue new and replacement Social Security cards, process 
earnings records, issue Social Security statements, and handle 
transactions through the 800 number service centers.
    At the same time, as the Chairman pointed out, other 
workloads are growing not only due to demographics, but also 
because many pieces of new legislation requiring SSA to 
undertake additional work.
    For example, the new Medicare prescription drug program 
required that, among other responsibilities, SSA take 
applications and make eligibility determinations for 
individuals with limited income and resources who might qualify 
for ``extra help'' with prescription drug coverage.
    In the last 5 years, reductions to the President's budget 
requests have totaled $720 million, equivalent to approximately 
8,000 workyears. These numbers are not just statistics. They 
represent a diminished level of service.
    I share your concern about the impact this reduction has 
had on applicants who file for disability benefits. If I could 
briefly address Mr. Johnson's comments.
    I've already said internally and externally that the roll-
out plan for DSI is too slow, and that what we're going to do 
is treat it as a demonstration project, look at it intensely, 
try to figure out what makes sense to roll out nationally, what 
doesn't make sense to roll out nationally, what makes sense to 
modify, and try to do that as quickly as possible. I am 
mindful, as the Chairman mentioned, that I have a pending 
deadline with Chairman Baucus on the Senate Finance Committee 
for an update on my thinking on those matters.
    One of the things that is difficult is that the 
Commissioner of Social Security has very little discretion 
relating to most of the Agency's expenditures. Almost 
everything that the Agency does is mandated by Congress. So, 
unlike a regulatory Agency that can prioritize enforcement, or 
a grant-making Agency that can impose a percentage cut across 
the board, the Commissioner does not have that flexibility.
    For example, in recent years, SSA has concentrated 
resources on handling initial claims. Consequently, the number 
of hearings pending, as well as processing times at the 
hearings level, have continued to increase since Fiscal Year 
2001.
    The outlook for Fiscal Year 2007 will be even more 
challenging. It appears that funding for SSA's administrative 
expenses in Fiscal Year 2007 will be $200 million below the 
President's budget request. For a time, it appeared that the 
shortfall would be greater, and we appreciate the significant 
increase from Fiscal Year 2006 levels that was included in 
House Joint Resolution 20 as it was approved by the House. We 
are also greatly relieved that we will not have to resort to 
employee furloughs.
    However, reductions from the President's budget for the 
coming year will have a direct effect on SSA's ability to 
process key workloads. If we had received the President's 
budget each year from Fiscal Year 2002 through Fiscal Year 
2006, SSA would be in a better position, not only in initial 
disability claims and hearing backlogs, but also in program 
integrity work. Funding shortfalls have meant substantial 
reductions in scheduled program integrity activities, which 
include reviewing whether recipients of disability insurance 
benefits continue to be eligible, and whether SSI recipients 
continue to meet income and resource criteria for program 
eligibility.
    We have faced some increasingly difficult decisions. Over 
time, as we worked to keep pace with initial claims and 
hearings, we reduced spending for program integrity work, and 
that is a very disturbing trend. This work is tremendously 
important for safeguarding the trust funds, as well as the 
Treasury's general revenue funds. Social Security CDRs save $10 
for every $1 invested, and SSI redeterminations save $7 for 
every $1 spent.
    Accordingly, the President's budget for Fiscal Year 2008 
includes $213 million for increased program integrity work, and 
proposes a comparable adjustment to the discretionary spending 
caps. My written statement details the numbers of CDRs and 
redeterminations we estimate this funding will allow.
    In conclusion, Mr. Chairman, let me express my gratitude to 
my predecessor, Commissioner Barnhart, for her excellent work 
throughout her tenure. I will do everything I can to live up to 
her record and be another good steward for the SSA. I know that 
our employees have a deep commitment to finding better ways to 
be responsive to those who depend on our service and fiscal 
stewardship.
    Thank you. I'll be happy to answer any questions you may 
have.
    [The prepared statement of Mr. Astrue follows:]

 Prepared Statement of The Honorable Michael J. Astrue, Commissioner, 
                     Social Security Administration
Mr. Chairman and Members of the Subcommittee:

    I am pleased to be here today to discuss the impact of past years' 
budget allocations on Social Security beneficiaries, and on applicants 
for disability benefits in particular. I want to thank you for holding 
this hearing and giving us the opportunity to tell you of our 
accomplishments and our challenges in this era of constrained resources 
and growth in SSA's workloads. This is my first appearance before the 
Subcommittee, and I appreciate your unflagging support for the Social 
Security Administration (SSA) and the programs entrusted to our Agency. 
The Members of this Subcommittee know well the importance of these 
programs to virtually every American family.
    I am honored to serve as Commissioner of Social Security. SSA has a 
proud history of excellent service to the public, and I promise to do 
everything in my power to continue that tradition. I also am looking 
forward to working with this Subcommittee during my term.
    As I said at my confirmation hearing, my goal is to be a good 
steward of the program for both current and future beneficiaries. For 
current beneficiaries, this role means setting high standards for 
management, performance, public service, and program integrity, and 
committing to meeting those standards. It also means being scrupulous 
and painstaking to make sure the Agency adheres to the law and employs 
best-demonstrated practices of accounting, efficiency, and compassion.
    For future beneficiaries, good stewardship means engaging with 
others in the Agency and the Executive branch, with Members of the 
Subcommittee and other Members of Congress and outside groups and 
experts to provide unbiased data about all the options for safeguarding 
the financial stability of the program. It is part of our obligation to 
the American public that we must strive to continue the best possible 
support for older Americans and people with disabilities and their 
families in the coming decades.
Core Workloads
    SSA's priority is to deliver high-quality, citizen-centered service 
to every claimant, beneficiary, and the American taxpayer. In FY 2006, 
SSA maintained individual payment records for more than 53 million 
people who received Social Security benefits or Supplemental Security 
Income (SSI) each month. During this time those payments exceeded $586 
billion. Social Security employees processed nearly 3.8 million 
Retirement and Survivors Insurance benefits claims; 2.5 million 
disability claims; over 2.5 million SSI claims, and conducted 559,000 
hearings. To conduct these and other workloads, SSA served 
approximately 42 million visitors to its nearly 1,300 field offices in 
communities across America.
    These are SSA's core workloads, but we do much more than pay cash 
benefits. Among other things, in FY 2006, SSA issued over 17 million 
original and replacement Social Security cards; processed 265 million 
earnings items to maintain workers' lifelong earnings records; handled 
nearly 60 million transactions through SSA's 800-number; issued over 
145 million Social Security Statements; and participated in over 84 
million SSN verifications for employers.
    In addition, other workloads are also growing because of new 
legislation requiring SSA to undertake additional work. The Social 
Security Protection Act of 2004, the Intelligence Reform and Terrorism 
Prevention Act of 2004, the Deficit Reduction Act of 2005, and the 
Medicare Prescription Drug, Improvement, and Modernization Act of 2003, 
or MMA, have all added new and non-traditional workloads.
    For example, the MMA, enacted in December 2003, established the new 
Medicare prescription drug benefit. The new Medicare prescription drug 
coverage was designed to allow all people with Medicare an opportunity 
to voluntarily enroll in prescription drug coverage. MMA also provided 
for an additional level of assistance, ``extra help,'' for people with 
Medicare prescription drug coverage who have limited incomes and 
resources. SSA, along with State Medicaid programs, was given the 
responsibility to take applications and to make eligibility 
determinations for this ``extra help.''
    In addition, Congress is considering several immigration related 
bills that could have a significant impact on SSA workloads. For 
example, there are several bills that would require employers to verify 
the employment eligibility of all new hires. Depending on the details 
of these proposals, the impact on SSA workloads could be significant.
    Since 2001, SSA has improved productivity on average by 2.5 percent 
per year for a cumulative improvement of 13.1 percent. These increases 
have been possible through the efforts of an outstanding workforce 
aided by technology, and despite appropriations that each year were 
significantly below that proposed in the President's budget. Since the 
President's budget requests for SSA have assumed the Agency would 
achieve a 2-percent productivity gain each year, even these impressive 
gains cannot compensate for the funding reductions the Agency has faced 
over this period.
    We are moving forward with additional electronic enhancements. We 
offer safe and convenient online systems for individuals to file 
claims, submit changes of address or direct deposit information, 
request replacement Medicare cards, and verify benefits. In FY 2006, 
335,000 people applied for benefits online, up 27 percent from the 
previous fiscal year. In addition, 75 percent of 265 million wage 
reports in FY 2006 were filed electronically online, compared to only 
27 percent in FY 2001. We are also continuing to implement the 
electronic disability system, known as eDib, to move from a paper to an 
electronic case process. We believe this will significantly reduce 
processing times and improve the quality of the disability 
determination process.
    Despite budget constraints, SSA has still been able to handle more 
work in a shorter period of time. We have seen a reduction in 
processing time for initial disability claims, from 106 days in FY 2001 
to 88 days in FY 2006. We have seen a significant reduction in 
processing time for appeals of hearing decisions, from 447 days in FY 
2001 to 203 days in FY 2006, and in FY 2006 we processed over 365,000 
more initial disability claims, conducted approximately 163,000 
additional SSA hearings, and nearly 700,000 more retirement and 
survivors claims than in FY 2001.
    We are also taking steps to improve the overall disability claims 
process. As a result of a review conducted under former Commissioner 
Barnhart, we developed a disability approach that focuses on making the 
right decision as early in the process as possible. The new initiative 
will be gradually implemented so that we can carefully monitor the 
effects of the changes on the entire disability process.
    These achievements are especially noteworthy in light of the fact 
that our administrative expenses are less than 2 percent of total 
outlays administered by SSA.
Agency Efforts to Balance Workloads and Resources
    Despite this record, we are keenly aware of how much more we could 
have accomplished had we received the President's budget requests in 
past years. In the last five years, reductions to the President's 
budget request have totaled $720 million, equivalent to approximately 
8,000 work years. These numbers are not just statistics, and I share 
your concern about the impact this has on applicants who file for 
disability benefits. These numbers represent real effects on the 
service that people receive from our Agency, and place increasing 
pressure on our ability to maintain our physical and electronic 
infrastructure.
    And the outlook for FY 2007 is even more challenging. It appears 
that funding for SSA's administrative expenses in FY 2007 will be $200 
million below the President's budget request. For a time, it appeared 
that the shortfall would be much greater and we appreciate the 
significant increase from FY 2006 levels that was included in H.J. Res. 
20 as it was approved by the House. And we are greatly relieved that we 
will not have to resort to employee furloughs.
    But I must tell you that we expect the level of service we are able 
to provide the American people to diminish during FY 2007. It is no 
secret that our backlogs are growing. As of December 2006, we have 
nearly 718,000 hearings pending, over 568,000 initial disability claims 
pending, as well as millions of post-entitlement actions to be 
processed. The number of initial disability claims and hearing requests 
received has remained above FY 2001 levels.
    Since FY 2002, Congress has reduced SSA's budget from that 
requested by the President, and our funding needs have not been met. As 
a result, we have had to concentrate our resources on handling initial 
claims. Consequently, the number of hearings pending as well as 
processing times at the hearings level has continued to increase since 
FY 2001.
    Even if we had received the President's budget request for FY 2007, 
we would still have to deal with staffing shortages. With funding at 
the requested level, we would have been able to fill only one out of 
three vacancies in our offices. With the expected funding level, we 
likely will have limited hiring flexibility during the remainder of the 
year to replace the estimated 4,000 SSA and Disability Determination 
Service employees who will be retiring or resigning. Since vacancies 
rarely are distributed evenly across offices, some places will be 
harder hit than others. And the overtime hours that we traditionally 
rely on to accomplish a number of important workloads will be cut by at 
least half.
FY 2008 and Program Integrity
    And so we face some increasingly difficult decisions. Over time, as 
we worked to keep pace with initial claims and hearings, we reduced 
spending for program integrity work, such as continuing disability 
reviews, or CDRs, which determine whether an individual may still be 
considered disabled, and SSI redeterminations, which review non-
disability eligibility criteria. SSA's actuaries estimate that CDRs 
save $10 in program benefits for every dollar spent in conducting the 
review; SSI redeterminations an estimated $7 in savings.
    Accordingly, the President's budget for FY 2008 includes $213 
million for increased program integrity work and proposes a comparable 
adjustment to the discretionary spending caps. This would enable SSA to 
increase the number of full medical CDRs from 198,000 in FY 2007 to 
398,000 in FY 2008, and the number of SSI non-medical eligibility 
redeterminations from 1,026,000 in FY 2007 to 1,526,000 in FY 2008.
    SSA's progress towards accomplishing its mission is directly linked 
to the level of resources it receives. If we had received the 
President's budget each year from FY 2002 through FY 2006, SSA would 
have been able to reduce the backlogs for initial disability claims and 
hearings. Funding at the President's budget level would also have 
allowed the Agency to fund program integrity activities at a more 
appropriate level. These activities permit SSA to ensure that 
recipients of disability insurance benefits continue to be eligible and 
that SSI recipients continue to meet income and resource criteria for 
program eligibility.
Conclusion
    Finally, Mr. Chairman, I assure you that SSA will do the best it 
can to provide the American people with the service they need, and I 
know firsthand how important the program can be to a family facing 
catastrophic illness or the loss of a family member. It is clear that 
we are stretching our ability to balance funding realities with the 
quality service the American people have come to expect from our 
Agency, but I know that our employees have a deep commitment to finding 
better ways to be more responsive to those who depend on our service 
and fiscal stewardship.
    Thank you and I will be happy to answer any questions you may have.

                                 <F-dash>

    Chairman MCNULTY. Thank you very much, Commissioner. I 
would just remind the Members who have come since we started 
that we're operating under the Gibbons Rule, and also, that we 
expressed our gratitude to the Commissioner, because he was 
just sworn in on Monday. We were expecting just to have a 
representative of the Agency today, but he chose to come 
himself. For that, we're deeply grateful.
    Commissioner, in your confirmation hearing, you told 
Senator Baucus that you would report back to him in mid-April. 
I mentioned that in my opening remarks regarding how we're 
addressing the backlog problem. I just want to get it on the 
record that you will also share that information with us as 
soon as possible.
    Mr. ASTRUE. Absolutely. This is a job where if we're going 
to be successful, we have to reach out, work closely with the 
Congress, work closely with the constituency groups. I have 
every intention of doing that.
    Chairman MCNULTY. I understand that several years ago, your 
predecessor developed an estimate for how long it would take a 
claimant to go through the entire Agency appeals process, and 
that estimate was 1,153 days.
    Mr. ASTRUE. Yes.
    Chairman MCNULTY. Can you tell us where we are on that now?
    Mr. ASTRUE. If anything, it's probably getting a little 
worse right now. Of course, part of the problem is the resource 
problem, but part of the problem is the complexity of the 
system itself.
    Commissioner Barnhart was also, I believe, famous for a 25-
foot flow chart outlining the entire disability process. As you 
and I were talking before the hearing, I don't believe that you 
solve problems of complexity with more complexity.
    So, one of the things I'm stressing as we do a top-to-
bottom review of the process and decide what we're going to try 
to push forward as quickly as possible is--I'm putting a lot of 
emphasis on trying to keep the system simple, so that it will 
be faster and easier to understand.
    Chairman MCNULTY. Commissioner, could you talk a little bit 
more about the resources and how that impacts employment at the 
Agency? Since I know both Ranking Member Johnson and I, and 
really all the Members of the Committee, want to be able to try 
to help you with this. How are you dealing with it now? Are you 
using overtime more, or----
    Mr. ASTRUE. Actually not. What I've inherited here is a 
situation where I think Commissioner Barnhart had very little 
discretion in what to do. So, there has been a hiring freeze in 
place since we understood what the appropriation was for this 
year. We are going to be down, I believe, about 2,000 employees 
from where we were a year ago. This is an effect--that as I've 
met a number of Members of Congress--that you've noticed in 
your district offices, it doesn't fall equally among district 
offices, because you can't control the timing of attrition and 
that type of thing, but particularly in some offices, made it 
very difficult to live up to the standards that we want to live 
up to.
    There are restrictions on overtime, so we can't compensate 
for a lot of the lost employees with more overtime. It's very 
restrictive on overtime as well.
    So, it has been difficult, and it's been difficult for the 
morale of the Agency.
    Chairman MCNULTY. In a report issued last fall, the Social 
Security Advisory Board stated that from 1999 to 2005, the 
number of hearings pending nationwide more than doubled from 
about 311,000 to more than 700,000, while the number of 
administrative law judges (ALJs) on duty remained about the 
same at roughly 1,100. Do you agree with these figures? If so, 
how do you believe we should address that?
    Mr. ASTRUE. Yes, those figures are, in fact, accurate. I 
think there are three things at issue here, and I do want to 
take advantage of the three-day period to not be very specific 
at this point, but the way that I look at this is that there 
are really three areas that need to be addressed.
    The first and most important one tends to get overlooked, 
which is are we deciding the right cases with the right rules 
in the right way? I think that there is a real argument that we 
need to adjust how we handle this increasingly large workload 
that assumptions and standards that were built-in 20 to 30 
years ago just aren't working very well today. I think that we 
need to revisit exactly which cases are going through which 
stages of the process, and whether we can afford to have as 
much process as we have, and whether we need to move to a 
somewhat more streamlined system. So, I think that's my first 
starting point.
    For a shorter term perspective, there are two categories of 
personnel issues here that we need to be concerned about. We 
leverage our ALJs with a significant amount of support staff, 
both people that move the paperwork around and make sure that 
the files, which are complicated, get in the right place at the 
right time for the ALJs to make the right decision, and then we 
also have essentially the equivalent of law clerks who do 
initial drafting and that type of thing.
    A few years ago, we were, I believe, at a 5.2 full-time 
employees per ALJ ratio. I may not have this exactly right, but 
I believe it's down to about 4.2 now. So, the efficiency of 
individual ALJs has been reduced by the staffing cutbacks that 
have occurred at the Office of Disability Adjudication Review 
(ODAR).
    We've likewise had a problem in that we do have a need for 
additional ALJs. As I know you're well aware, there hasn't been 
a list coming out of the Office of Personnel Management (OPM) 
for almost a decade. There's also been--in fairness to OPM, 
there's been litigation that held that up for a long time as 
well.
    The good news, as I understand it, is that the final 
regulation coming out of OPM seems to be making pretty good 
progress. We have realistic hope that that will move along, 
that there will be a list later this year, and that we can 
start to address some of those issues by hiring additional 
ALJs. I'm not in a position, obviously, because it's not under 
my control. I can't give you a set timeframe on that.
    Certainly, when we look at what we think we can afford, one 
of the priorities is going to be at least some additional ALJs. 
My guess is that, given the appropriations, there will not be 
enough to address the backlog as much as I would ideally like, 
but I think it will be a step in the right direction.
    Chairman MCNULTY. Well, again, Commissioner, I want to 
thank you for taking on this task.
    Mr. ASTRUE. Thank you.
    Chairman MCNULTY. It's absolutely enormous. We're going to 
try to help give you the resources you need to get the job 
done.
    Mr. ASTRUE. Thank you.
    Chairman MCNULTY. The Ranking Member, Mr. Johnson, may 
inquire.
    Mr. JOHNSON. Thank you, Mr. Chairman. I'd like to talk 
about your ALJs. Since you have a legal background and have 
worked in that area, let me ask you a straight question. How 
many hours a day do they work?
    Mr. ASTRUE. I honestly don't know, Mr. Johnson. What I do 
know, and one thing that disturbs me, but I don't think I have 
many tools for dealing with it, is that the efficiency of the 
individual ALJs in the individual offices varies widely. There 
are----
    Mr. JOHNSON. You don't have control over it, do you?
    Mr. ASTRUE. It's difficult. Congress has made some 
decisions that it was wise to move away from the original ALJ 
model where the people making the decisions were called hearing 
examiners, and they were really viewed as, at that point, 
representatives of the Secretary of Health, Education & Welfare 
at that point in time, and the move to more of imitating an 
Article 3 model, where the judges are ``independent.''
    I think that there are many advantages to that. I'm not 
criticizing that, but there are costs to that that sometimes 
people don't appreciate. One of the things that that means is 
my ability and the ability of the Deputy Commissioner for ODAR 
to tell the judges what to do and to create incentives or 
penalties if they're not very productive is very, very limited. 
We're very hamstrung on that.
    Mr. JOHNSON. Well, why don't you let us know what you need 
in the way of legislation to help you gain control of that 
problem, and I'm pretty sure that we would be willing to look 
at it.
    What performance standards do they have? Do they have any?
    Mr. ASTRUE. I'm going to have to pass on that. I think 
there's relatively little in terms of performance standards and 
standards of conduct.
    Mr. JOHNSON. It's----
    Mr. ASTRUE. Yes--I was actually disappointed in--when I was 
General Counsel of the Department of Health and Human Services, 
we had a couple examples of highly inappropriate conduct by 
ALJs. The Agency came to the conclusion that it couldn't even 
discipline in cases of conduct that I considered absolutely 
outrageous and insensitive.
    Mr. JOHNSON. Let me ask you another question on a little 
different subject. If you need dollars--you've got a decreasing 
workforce. I think you're going to lose a lot of people for 
retirement in the next few years. Do you actually need the same 
number of people if you're going into an electronic 
environment?
    Mr. ASTRUE. I think the answer is that we do with at least 
some of the current assumptions of the system, because the 
workloads do increase more than the rate of inflation because 
of the demographics and because of the additional 
responsibilities.
    Right now, we operate, I believe, on the assumption that 
all 1,272 field offices need to stay in place. I know there 
have been suggestions from time to time that those can be 
reduced somewhat by telecommunications and things like that, 
but I don't think that we're there yet, and I'm not prepared to 
recommend that.
    Mr. JOHNSON. Can you analyze it for future reference?
    Mr. ASTRUE. We certainly can--one of the things we're going 
to try to do is look at where we can take reductions. It has 
been my observation in the past, and current understanding, 
that there are always large amounts of highly repetitive 
workloads that are not often very popular with the staff 
anyway. Certainly, if you're trying to look for efficiencies as 
quickly as possible, trying to find some ways to do that. Even 
things as simple as taking a look at what the repeat questions 
are in the field offices and the telephone service centers, and 
then lining up your Web site to try to make sure and see 
whether the information that people keep asking you about, 
whether you're communicating it clearly enough to the American 
people. I've already raised that with senior staff.
    So we're going to be trying to look at some of these issues 
not just in an incremental way, but try to step back a little 
bit and look at them strategically. It's hard when you're under 
budget crunches to do that, but to the extent that we can, 
we're going to try to do that.
    Mr. JOHNSON. Thank you. Thank you, Mr. Chairman.
    Ms. SCHWARTZ. Thank you, Mr. Chairman. I'm very new at this 
Committee, so we're on--I think you have a little more 
experience than I do on this, so you're a step ahead, but I 
thought I'd be further in the rankings here, but maybe it helps 
to be somewhat new at this. I can ask just a couple questions, 
if I may.
    Mr. ASTRUE. Absolutely.
    Ms. SCHWARTZ. First of all, congratulations and good luck.
    Mr. ASTRUE. Thank you.
    Ms. SCHWARTZ. I think this was referred to already, but are 
there standards--what do you expect to be the right--do you 
have a performance standard that you are aiming for? Do you 
feel like there's a--what is the percentage of cases that 
should be pending at any one time? What's the right number of 
days in which to move through each of the steps in the process?
    You've identified one of the jams, in terms of the ALJs, 
but different offices seem to do better or worse, and you 
identified that that may just have to do with personnel levels, 
but it may have to do with other things as well.
    So, again, have you--and I know you're new at this, but 
have you actually set out that this is the right complement? 
This is where the backlog is? This is how long it should take 
in every step of the process so people have something to 
measure against?
    Mr. ASTRUE. I think the answer to that question, and I hate 
to answer in this structure, but yes and no. There are parts of 
the process where there are set standards. Sometimes they're 
not adhered to, but there are set standards. For instance, the 
amount of time that the States have to make disability 
determinations at the first level of the process.
    Ms. SCHWARTZ. So, they meet those. You're saying because 
they're standards, they do meet them?
    Mr. ASTRUE. Yes. Generally, my understanding is that they 
do meet them. One of the things that you have to discuss is, if 
the timeframes at the first level lead to not enough 
documentation and analysis for the subsequent levels, are you 
really saving time by that initial standard? Then later on in 
the process, there's very little in the way of time 
restrictions, and that's why the numbers get up into four 
digits.
    So, I think that I don't want to deal with this 
simplistically and say, ``Well, we want to make it faster and 
better, so we're going to make the States make their initial 
determinations 50 percent faster.'' That may actually be 
counter-productive, because it may mean that you have more 
disputed claims. They're not as well-documented. The decisions 
may not be as good.
    I do think that you need to go through every step of the 
process and have, whether it's formalized in regulations or 
guidelines, or just part of your management expectations, to 
have a sense of what you're shooting for in terms of time.
    I don't, for the disability, have a--right now, I look at 
what I consider an unacceptable length of time by a significant 
order of magnitude. I just--I would love to give you a number, 
but can't, particularly being just back after a long absence.
    I've thought about this a lot over the years. The magnitude 
of the difficulties hit you all over again when you're actually 
responsible for it again. I think it would be imprudent right 
now to guess what might be realistic to do.
    Ms. SCHWARTZ. Let me just ask one other question. My staff 
gave me interesting--I'm pleased to see that the Philadelphia 
office ranks sixth in doing well in moving hearings. The 
hearing office actually is ranked sixth in the Nation for its 
efficiency, which is actually 354 days. That's part of region 
three, which actually, by and large, does pretty well.
    Again, are they doing something right in Philadelphia that 
they're not doing--I hate to pick on my own State--but not 
doing as well in Pittsburgh? It's just----
    Mr. ASTRUE. I think when you're talking about hearing 
offices, I think that the answer to that question is 
undoubtedly yes. There are some that are extremely well-run and 
productive, and then there are others that are just not. Those 
statistics are well known. We've had issues in the past in 
Cleveland and Chicago and Milwaukee.
    Ms. SCHWARTZ. Is it leadership? Is it training? What is it 
that you think would make a difference in that?
    Mr. ASTRUE. Well, I think it's a mix of all those things, 
and it's a mix of the quality of the people that you select. 
Again, there's a lot of things that go into it.
    My frustration on that particular part of the process is 
that I think that not only me but the management team several 
layers down have relatively limited tools for dealing with 
that, because we have embraced the concept of the independence 
of the ALJs. A lot of things that would be standard management 
techniques in other operations are viewed as impairing the 
independence of the ALJs.
    So, that's a tradeoff that the Congress has made in the 
past. I'm not being critical of that. I'm just observing that 
that's part of how that situation comes to be, and that in that 
area, your expectations of us may be a little bit lower than 
they are in other areas where we really do have some control 
and discretion.
    Ms. SCHWARTZ. Well, my Chairman has been very indulgent, 
but I hope that someone else will get to some of the issues 
around technology, and where you could use technology 
potentially to improve productivity.
    Let me just say on behalf of my office, I know my staff 
spends a considerable amount of time talking to constituents, 
and then talking to your staff in the regional offices. They've 
been responsive. Let me say I think that we've actually had a 
by and large good experience. I'm not sure it should be 
necessary to go to your Member of Congress's office in order to 
move the process forward.
    So, while I think on some level it works when we do get 
involved, for all those thousands and thousands of people who 
never think to call our offices, it shouldn't have to work that 
way.
    Mr. ASTRUE. One of the things that makes me just very proud 
of SSA is its great workforce. You actually go out and talk to 
particularly the people that work in the field offices and deal 
directly with the beneficiaries and recipients. They're just 
wonderful people. They self-select for that. You don't choose 
this career unless you really want to try to help people.
    So, it's one of the things that's a real plus and an asset, 
and it's painful to know that they're struggling right now.
    Chairman MCNULTY. Mr. Lewis may inquire.
    Mr. LEWIS. Thank you, Mr. Chairman. Welcome, Commissioner.
    Mr. ASTRUE. Thank you.
    Mr. LEWIS. Given the Agency's focus on increasing the use 
of telephone and online services, is the current field office 
structure, both in terms of staffing and office location, ready 
or positioned to meet the services of the 21st century?
    Mr. ASTRUE. Well, I'm just going to be brutally candid with 
you. I think that the level of the staff in the field offices 
has been something the Congress has felt very strongly about 
and feels that the current level is the way it ought to be. In 
terms of everything I have to do, I'm not particularly 
interested right now in challenging that, because I don't think 
it's going to be productive, and I've got better ways to do 
things.
    What I am interested in is I do think that the field 
offices, as great as they are, don't work as well for some 
constituencies, particularly in rural areas, because of the 
distance to the field offices. So there have been some 
innovative attempts at using new technology, video conferencing 
and things like that, that I think are going over well from a 
service point of view.
    My main concern about this right now is that the cost of 
the technology is very high, and so the cost of implementing 
that on a fair nationwide basis is very high. I am cautiously 
optimistic, as it is with many technological innovations, that 
the cost of the technology may come down, and it may make it 
much more practical to bring some service improvements to rural 
areas that right now might not be possible for fiscal reasons.
    Mr. LEWIS. As you know, since August, changes to the 
disability determination process are being implemented in the 
Boston region. Do you have an update? Can you provide us any 
information on that implementation?
    Mr. ASTRUE. I can't. I'm tentatively scheduled to visit on 
March 5th, and I've had some internal discussions about it 
already. Although conceptually, I think of it like a 
demonstration project. It was not, I believe, really set up as 
that, so I'm still uncertain as to exactly what kind of data 
I'm going to have available in order to evaluate each part of 
the innovation. I think that it's probably likely that I'm 
going to have to rely more on softer input for some of this 
than what you would have with a traditional demonstration.
    I think it's a very important part of the process, and 
something that, as I said to the Ranking Member, I think that I 
have to decide with some real urgency whether those ideas are 
good ideas, in-between ideas, or bad ideas, and make some cut 
and run judgments as quickly as possible.
    So, I'm trying to avoid a lot of specific promises, but one 
of the things I can tell you is we're not going to assume that 
this is a package and roll it out one or two regions a year for 
the next five to 7 years. We're not going to do that.
    Mr. LEWIS. Thank you.
    Chairman MCNULTY. Mr. Davis may inquire.
    Mr. DAVIS. Thank you, Mr. Chairman. Let me ask you about 
another important part of this process, and that's the 
attorneys who end up representing a lot of the people with 
disability claims.
    What I sometimes hear from my district staff and from 
people who call our office about these kinds of complaints is a 
little bit predictable. A lot of the lawyers who do this work, 
particularly in the rural areas, are frankly sometimes people 
who are trying to figure out something that walks in the door 
that may yield a fee at some point.
    Your really good plaintiffs' firms tend to not do this kind 
of work. Your gold-plated civil defense firms tend to not do 
this kind of work.
    Without casting any aspersions on the good lawyers who are 
out there, can you talk for a moment about the quality of the 
lawyers who tend to work on disability claims?
    Mr. ASTRUE. On our side or on the other side?
    Mr. DAVIS. Well, on the--I'm sure they are spectacular and 
superb on your side.
    Mr. ASTRUE. My hands-on information on this is pretty 
dated. When I was a Federal law clerk, the judge divided up the 
workload between the two. So, I did all the Social Security 
disability cases, so I saw things that came in over the 
transom. I think that----
    Mr. DAVIS. You lost the same lottery I did when I was a law 
clerk.
    Mr. ASTRUE. Yes, that's right. Yes. My friend got all the 
prisoners' cases, and I got all the Social Security cases was 
the deal.
    I think at that time, my assessment was that it was 
somewhat uneven, that there were some people that were very 
dedicated and very, very good, and then there were some that 
were not very good and some claimants were not very well-
represented. It was sometimes frustrating when you were trying 
to decide the right thing to do.
    My sense is that the bar has become much more 
institutionalized since '83/'84, and it is much higher quality 
now, but I'm really not in a position to make a general 
qualitative judgment.
    Mr. DAVIS. One of the things I would ask--and I think it 
would be helpful if you tried to find this out just for your 
benefit and for the benefit of the Committee--I'm interested in 
knowing what's the average years of experience of lawyers who 
do this kind of work. What percentage of malpractice claims do 
you tend to get?
    I'm curious about all that, because frankly, most people 
don't know if they can call the Congressional office. What Ms. 
Schwartz says, I don't quite get why they should have to call 
the Congressional office, but the reality is that seems to 
help. Most people don't know they can call. We estimate in our 
office probably only about 25 percent of the people who really 
have issues with disability end up calling us, so most of them 
are dependent on some lawyer that they sometimes find in the 
phone book. It seems like an interesting question.
    Second of all, I'd be interested in how we can improve the 
quality of lawyering in this area. Are there practical 
incentives that local bar associations can offer to get more 
experienced lawyers to take on this kind of work pro bono? That 
strikes me as something we ought to think about.
    I'm told, for example, that Legal Aid doesn't handle a lot 
of this work. That's not a service that they provide.
    Mr. ASTRUE. I actually think that may not be right, 
Congressman. I spent a year actually working for a support 
center, a legal services corporation. At least in that time--
again, dated information--but they were actually doing a fair 
amount of Social Security work. It may have been tilted a 
little bit more to--``impact'' cases as to doing the routine 
cases.
    My sense, as I said, generally, as with most things in 
life, as the bar has become more specialized, they've got a 
pretty good network, that I think the quality of that bar has 
gone up very substantially. They're very active on the 
Internet, I know. As a general matter, my belief right now is 
that someone represented by someone who specializes in the area 
gets pretty good representation.
    [The information follows:]

    Because experience is not a requirement for representing 
disability claimants, SSA does not track the years of 
experience of attorneys who represent them.
    During fiscal years (FY) 2004 though 2006, SSA received a 
total of 206 complaints about attorneys who represent 
disability claimants. The breakdown of these years is as 
follows:

    FY 2004--68
    FY 2005--63
    FY 2006--75

    SSA does not track the percentage of malpractice claims 
filed against claimants' attorneys.
    Because each bar association had different rules, SSA is 
not in a position to offer specific suggestions of how a bar 
association could encourage more experienced lawyers to 
represent disability claimants pro bono.

    I do share your concern that I think----
    Mr. DAVIS. Let me ask you one question, since time is 
running low. One of my colleagues was making a helpful 
observation that is it true that in a lot of areas, you don't 
even have to be a licensed lawyer to really process these 
disability claims? Well, not to process, but to represent 
people in these disability claims?
    Mr. ASTRUE. Yes, that's right. There is a group of lay 
advocates that specialize in----
    Mr. DAVIS. Who qualifies them or determines that they know 
what they're doing?
    Mr. ASTRUE. I'm going to have to get back to you on the 
record--I'm not up to date as to what the credentialing is for 
that group of people. I'm sorry. I just don't know, but we'll 
supply that for the record.
    [The information follows:]

    A claimant may appoint as his or her representative any 
attorney in good standing who has the right to practice law 
before the court of the State, Territory, District, or island 
possession of the United States, or before the Supreme Court or 
a lower Federal Court of the United States providing that he or 
she is not disqualified or suspended from acting as a 
representative in dealings before SSA and not prohibited by any 
law from acting as a representative.
    A claimant may also appoint a person other than an attorney 
if he or she is generally known to have a good character and 
reputation, capable of giving valuable help to the claimant in 
connection with his or her claim, not disqualified or suspended 
from acting as a representative in dealings with SSA, and not 
prohibited by law from acting as a representative.

    Mr. DAVIS. Thank you, Mr. Chairman.
    Chairman MCNULTY. Mr. Becerra may inquire.
    Mr. BECERRA. Thank you, Mr. Chairman. Mr. Commissioner, 
thank you very much for being here, and congratulations to you.
    Mr. ASTRUE. Thank you.
    Mr. BECERRA. Good luck. Condolences will come second after 
that.
    I think every one of us here really wants to work with you. 
You do have big shoes to fill. I think most of us believe that 
Commissioner Barnhart made every effort to try to work with 
this Committee, and probably our counterparts in the Senate as 
well. Given your background, I think you have certainly the 
credentials to do this work. I think we're going to be able to 
work with you very well also.
    Mr. ASTRUE. Thank you.
    Mr. BECERRA. That doesn't mean we're not going to ask you 
the tough questions.
    Mr. ASTRUE. No. That's part of the job.
    Mr. BECERRA. So, let me start.
    Mr. ASTRUE. Okay.
    Mr. BECERRA. By the way, I want to mention as well that in 
Los Angeles, you have excellent personnel. Whenever my district 
office representatives have to deal with the SSA district field 
office, we have tremendous relationships. We get great results. 
I want to thank them, because I know how much work they do in 
Los Angeles.
    Mr. ASTRUE. That's great to hear. Thank you.
    Mr. BECERRA. Keep them coming.
    You have a backlog of 1.3 million Americans waiting to be 
processed, whether it's their initial claim or at an appeals 
hearing, correct?
    Mr. ASTRUE. The precise number at the moment, I don't have 
at my fingers, but it's a lot.
    Mr. BECERRA. Yes. Probably more than 1.3 million, but about 
1,300,000 Americans are waiting to have their claim or their 
appeal processed and completed. The average wait time is 
something in the order of 88 days for that initial claim to be 
heard, 524 days for a hearing decision to be rendered. I'm 
shocked to see this, but in the Dallas district office, there 
are people, Americans waiting 890 days to have their appeal 
decision rendered.
    You have a situation where, while productivity of your 
workforce within the SSA has gone up over 13 percent over the 
last five or so years, the size of the workforce you have to 
deal with all these claims has gone down by 8 percent from 2006 
to 2007.
    On top of that--and let me know when I'm saying something 
that's not accurate. On top of that, beginning next year, the 
cohort of Americans we call the baby boom generation begins to 
retire.
    Mr. ASTRUE. Right.
    Mr. BECERRA. That big swell in the sea of people becoming 
retirees and filing for these different kinds of claims, 
disability and otherwise, start to enter into the process, 
which means what we have now in backlog will just swell unless 
we're able to get rid of that backlog that currently exists.
    On top of that, you now have responsibility for processing 
all the seniors who are receiving Medicare Part D prescription 
drug benefit services as well, so you now have to process all 
those seniors who have to get that service provided.
    On top of that, because of Homeland Security and the work 
that we're doing to better identify Americans to make sure the 
people who are here belong in this country, you have to help 
make sure that that paperwork is processed correctly, and the 
people who say they have authorization to work under Social 
Security and so forth, that that's accurate, and you're getting 
back to employers.
    So, all that work is on top of what you're currently doing.
    Then we hear that you made a request in the budget that you 
submitted to the President for--let me see if I have this 
correct--$10.54 billion to manage all of those things for the 
tens of millions of Americans who use SSA one way or the other. 
The President's budget for '08 provides you with $824 million 
less than what you requested.
    Okay. Explain to me how--and I apologize. This is only your 
second or third day. Explain to me how you can even reduce the 
current backlog, let alone deal with all the new folks coming 
in because of the baby boom generation, all the work because of 
the Medicare prescription Part D program, all the work because 
of the anti-terrorism work that you have to do. How can we 
expect that when you come back in a year with the resources 
that the President says you should have, you're going to 
actually allow a disabled American who qualifies for a benefit 
under Social Security to receive that benefit in a timely 
manner?
    Mr. ASTRUE. I want to be responsive. I think there are 
multiple questions there, so let me try to get as many of them 
as I can.
    Mr. BECERRA. I don't have a lot of time, so----
    Mr. ASTRUE. I don't have any quantitative data yet, but 
generally, the second time around on the Medicare Part D, there 
seems to have been a lot less of a problem.
    Mr. BECERRA. Well, Commissioner, let me stop you. Okay. So, 
let's say you get better at dealing with this new Medicare Part 
D. It's new work.
    Mr. ASTRUE. Yes.
    Mr. BECERRA. On top of the fact that you don't have enough 
money to process the backlog, this is new work.
    Mr. ASTRUE. Right.
    Mr. BECERRA. So, what I'm asking is if you don't have 
enough resources and personnel, if you're shrinking in 
personnel to begin with today, and you're getting less money 
than you requested from the President in the President's budget 
today, and you're getting more work on top of what you can't 
already manage today, how can you try to reduce the backlogs, 
and by the way, go into the programs which I understand 
actually save us money, like the CDR Program or the SSI 
Redeterminations Program, which save us $7 to $10 for every 
dollar that we spend doing those reviews and programs?
    I'm trying to help you.
    Mr. ASTRUE. It sounds like you're trying to talk me out of 
the job.
    Mr. BECERRA. I know you're somewhat limited in what you can 
say, but this has to change. You cannot come here to this 
Committee and be able to tell us with a straight face that 
you're going to be able to accomplish these things, as much as 
you might want to, and as much as I know most of the people 
that work for SSA want to, without the resources. You can only 
extract so much blood from a turnip, and I think you got 
everything you could.
    Maybe we could save some--maybe there are some ALJs that 
aren't doing all their work, but the reality is the basic 
workforce of SSA is doing everything it can. It's unfair for 
the leadership of this country to not provide you with the 
resources you need to do the work for the Americans who worked 
so hard for so many years to pay into the system.
    So, I don't know if there's an answer there, but----
    Mr. ASTRUE. I think two things have to change. I do think 
that Congress needs to be more supportive of the Agency.
    Mr. BECERRA [continuing]. The President.
    Mr. ASTRUE. Again, the Committees of jurisdiction, I think, 
haven't been the problem. I think generally, my experience has 
been that the Committees of jurisdiction understand the issue, 
but I think in the Congress, more broadly, I think that 
sometimes they view the Agency as a black box, and don't 
understand the burdens and how we can't absorb all the costs 
that we've been expected to absorb. Part of my job is to try to 
make that clear and try to make that point as clear as 
possible. The internal--where I disagree with you slightly, 
that we can't do it if we continue with business as usual, 
because that just goes out into time, and it is just not going 
to work.
    So, I think that we have to go back internally, and say 
that while there are things that we have taken as important, 
that we just have to do business differently. We can't afford a 
25-foot flow chart on disability. We are going to have to throw 
certain things overboard, think about it differently, and try 
to be more efficient and effective.
    Mr. BECERRA. So long as you don't throw the folks 
overboard.
    Mr. ASTRUE. No, that is not my intention. My main goal in 
coming back was to try to take this on--there are a lot of 
other things I could have done, but this is an area that's near 
and dear to my heart.
    This is the main reason why I came back, and I am going to 
give it my best, but I know enough about it to know that the 
funding is uncertain; not everything is under my control. If I 
make specific promises to you right now about results, I am not 
like--there is a serious risk that I can't deliver, so all I 
can say is: I am going to give it the old college try, do as 
best as I can, and continue to work with you to try to do 
better.
    Mr. BECERRA. Thank you, Mr. Chairman.
    Chairman MCNULTY. Next, I would like to introduce the 
senior Member of Congress who is serving on this Subcommittee, 
the former Chair of this Subcommittee, who is currently the 
Chair of the Subcommittee on Trade, Mr. Levin of Michigan.
    Mr. LEVIN. Thank you. The former Ranking Member is here, I 
wish I had the Chair. I love your spirit, Mr. Chairman, and I 
am glad to be able to call you that. Welcome, you follow people 
who were in your position who are dedicated and committed, and 
we always appreciated that. I think what Mr. Becerra is saying 
is, and I assume the Chairman has said the same, I got here a 
bit late, we know the constraints, you cannot challenge the 
budget but it would be helpful to the extent you can to tell us 
where you think you might be inadequate? There may be an 
inconsistency there but if you cannot be as candid as possible 
about the constraints, it is going to be hard for us to be 
helpful.
    Mr. ASTRUE. Right.
    Mr. LEVIN. So walk that line as well as you can because we 
have these concerns over these long waits. So, let me give you 
or your staff or a memo and the Agency is now working with our 
office to correct this and they are being very helpful, and if 
necessary there will be an emergency payment, I think, but let 
me give you this memo. I took out the name of my constituent 
because this may be part of a general problem so here is 
basically what it says, the onset date was April 2006, the 
approval date for benefits was 2006, October, after the waiting 
period. The payment did not come and so in early February we 
contacted the office and was told that the retroactive benefits 
would be released as soon as possible. So, I have been told 
that there may be a major shortfall in personnel or in 
procedures that would cause somebody to have an approval date 
of 2006 and there be no payment by early February of the next 
year. There is something wrong. Then what made it more 
difficult was that our office was told, our office in Michigan, 
that they would expedite payment on October 8th--February 8th, 
this is after initial contact on February 2nd. When it did not 
come, we called again and they said that the direct deposit 
information had been entered and this person would personally 
take care of submitting the payment directly to the bank 
account and that it would be there by Saturday. So, that is 4 
or 5 days later. Well, on the 13th it had not arrived and this 
person was facing foreclosure on their house. I think we have 
to remember this well, how many people rely on these payments 
for the majority of their income. Now we have been told that 
the action was taken on the 14th of February, that is today. 
So, I will give this to you and if you could give it to the 
appropriate person.
    Mr. ASTRUE. Absolutely, and we will look at it.
    Mr. LEVIN. Find out if there is some structural problem 
here, maybe this is very atypical but our concern is that it 
may not be.
    Mr. ASTRUE. Okay, we will definitely look at that both as 
an individual matter and systemic.
    [The information follows:]

    A review of this constituent's record did not reveal a 
systemic issue.

    Mr. LEVIN. I think the individual matter is being taken 
care, I do not want to bother you with that. Let me bother you 
with what may or may not be a systemic issue.
    Mr. ASTRUE. Okay, we will get on it.
    Mr. LEVIN. Okay, good luck.
    Mr. ASTRUE. Thank you.
    Chairman MCNULTY. Ms. Tubbs Jones may inquire.
    Ms. TUBBS JONES. Thank you, Mr. Chairman. Welcome, 
Commissioner. I want to say for the record I think Jo Anne 
Barnhart was one of the finest Commissioners of Social 
Security, and I regret she is not here to answer some of the 
questions we have. I know you are new to this, and I hope you 
do a great job but tell me who is the person who is in charge 
of disability, administrative judges, under you, sir? Who is 
that person?
    Mr. ASTRUE. That would be Lisa DeSoto.
    Ms. TUBBS JONES. Ms. DeSoto, is she here?
    Mr. ASTRUE. I do not believe that she is.
    Ms. TUBBS JONES. Did you think that since this was the 
subject matter--do you want to turn around and look again? 
Don't you think that since the subject matter of this hearing 
was the disability hearings and the backlog that it would have 
been a good idea to bring her along so that she might have been 
able to answer some of the questions that you cannot answer 
since you have only been in the job 2 days?
    Mr. ASTRUE. Well, I have actually brought along some staff 
including Linda McMahon, Deputy Commissioner of Operations. The 
scope of the request was sufficiently broad that there are 
probably seven or eight people with substantial responsibility 
in those areas.
    Ms. TUBBS JONES. No, no, no, let me go back. The scope of 
this hearing was to look at the disability backlog, right?
    Mr. ASTRUE. Yes, that is part of it. My understanding is 
that it was a little bit broader than that. Certainly, we 
prepared more broadly than that.
    Ms. TUBBS JONES. Well, let's focus on--and nobody has been 
asking about anything but disability backlogs, sir, have they? 
So, my point is who is the person best prepared to answer some 
questions about disability backlogs who you brought with you?
    Mr. ASTRUE. Well, why don't you start with me, and I will 
do the best I can.
    Ms. TUBBS JONES. I have already listened to your answers to 
six my colleagues' questions, and I don't want ask the same 
questions so you can give me the same answer. I am asking is 
there anybody else better prepared than you to answer those 
questions?
    Mr. ASTRUE. I do not believe there is anyone else prepared 
for today.
    Ms. TUBBS JONES, but there is somebody else with you that 
has been doing this job longer than 2 days, correct?
    Mr. ASTRUE. Yes, I have Deputy Commissioner McMahon with 
me, yes.
    Ms. TUBBS JONES. Who is that? Do you mind if I ask her a 
few questions, sir?
    Mr. ASTRUE. Be my guest.
    Ms. TUBBS JONES. Deputy Commissioner McMahon, the last time 
we had this discussion about disability backlog, which was 
probably maybe over the last term, this is the 110th Congress, 
I think we addressed that issue in the 109th Congress, one of 
the issues was a lack of a sufficient number of administrative 
judges to hear these cases, fair?
    Ms. MCMAHON. Yes.
    Ms. TUBBS JONES. In the course of that, the discussion you 
got from the Chair, who is now the Ranking Member or Member of 
the Committee, and the former majority Chair was the desire on 
the part of this Committee, this Subcommittee that the SSA 
obtain more administrative judges to address the backlog.
    Ms. MCMAHON. Well, unfortunately----
    Chairman MCNULTY. Ms. McMahon, you just need to hit that 
bottom to turn your microphone on.
    Ms. MCMAHON. Thank you.
    Chairman MCNULTY. Thank you.
    Ms. MCMAHON. I think maybe you were not here for the 
opening statement, and I think it actually was addressed in 
some earlier questions but there are several issues.
    Ms. TUBBS JONES. I absolutely was not here.
    Ms. MCMAHON. Okay.
    Ms. TUBBS JONES. I had another Committee meeting but go 
ahead.
    Ms. MCMAHON. I understand, there are several issues. One 
issue is that there has not been an updated register from which 
to select ALJs for nearly a decade. There was a lawsuit at OPM, 
OPM has been dealing with that issue.
    Ms. TUBBS JONES. Wait a minute. When Commissioner Barnhart 
came to Cleveland, Ohio for a hearing in my congressional 
district, we had more than 300 people there who had disability 
claims and it was probably five degrees below zero outside and 
10 below because the heat was not working in the church where 
we were, and at that juncture she made a commitment to bring in 
more administrative judges and she did in fact bring in more 
administrative judges. So, you are telling me something about a 
10 year issue that would not allow you to hire administrative 
judges.
    Ms. MCMAHON. She actually got a waiver from OPM to do that 
but because so much time has passed----
    Ms. TUBBS JONES. Since she got that waiver?
    Ms. MCMAHON. Both since she got that waiver and the list 
that was even used at that point, that there are really very 
few new people on that list.
    Ms. TUBBS JONES. So, what are you doing about the list then 
if that is the issue?
    Ms. MCMAHON. Well, it is OPM that has to do it.
    Ms. TUBBS JONES. Okay.
    Ms. MCMAHON. They are writing a regulation, as the 
Commissioner just explained, they are actually working on the 
regulation, which we hope will actually be done soon.
    Ms. TUBBS JONES. The people out in America across the 
country, and this is not directed personally to you or to you, 
Commissioner, they do not want to hear some crap about some 
regulation is keeping the administrative judges from being 
hired when I have people calling my office constantly who have 
gone bankrupt, whose families have gone bankrupt trying to take 
care of them because of a disability claim. I apologize for my 
outrage but I am expressing the outrage of the people in the 
City of Cleveland. In 2004, we had the largest backlog in the 
sixteenth region, the fifth highest initial denial rate across 
the country. We are the fourth largest backlog behind Tampa, 
Birmingham, Buffalo, and Indianapolis. So, my outrage is not 
personal, it is on behalf of the people across the country who 
are saying, ``You all get a life and get something going on in 
Social Security.'' So, all I am saying to you and you, 
Commissioner, we are ready to go to work. Whatever it is that 
is impeding your ability to provide disability support for the 
people across America, tell us what it is and let us fix it. Do 
not come here and be nice with us, let's fix it on behalf of 
the Democrats and the Republicans because the people who need 
disability, they are not just whites, they are not blacks and 
brown, they are not Republicans, they are not Democrats, they 
are Americans who deserve to have income to take care of their 
families. For the outrage, I apologize, but I am tired of it. 
It is not your fault but it is something we must fix. I am not 
looking for an answer. Thank you.
    Chairman MCNULTY. Thank you very much. Mr. Pomeroy may 
inquire.
    Mr. POMEROY. I want to follow up on the ALJ issue that my 
colleague was just speaking about. Mr. Chairman, I am going to 
suggest that we have a hearing, and I want to have OPM at that 
table and I want the Commissioner to come back and I want the 
former Commissioner, whom I have the highest regard for, to be 
here as well. I want to get to the bottom of this because I 
believe that I have been lied to, and I am absolutely furious. 
For two years, I have been talking to the Commissioner in this 
hearing room about this business of the frozen ALJ list and the 
problems that we have had bringing more on line. It was my 
absolute understanding that things were starting to move, that 
more ALJs were being added and that steps were taken where the 
list would be opened up. I am absolutely astounded, I am 
shocked to find out that that list has not been opened up yet. 
I am going to ask our staff to trace the things that have been 
said in this hearing.
    Ms. MCMAHON. Well, the list that exists has been opened up, 
the problem is it is so old that there is hardly anybody on 
there who is still interested or capable.
    Mr. POMEROY. I have got two problems with that. First, I 
thought the list was going to be refreshed, and I thought that 
steps had been taken, SSA working with OPM, to have that opened 
up, to have the appropriate tests administered last year. I 
believe that we were told that.
    Ms. MCMAHON. Well, and that may be what we were told but 
what we have learned just this week is that we are hopeful that 
OPM's regulation, which is required before the tests can be 
renewed and therefore a new list can be made, that that 
regulation is close to being done but it is not done.
    Mr. POMEROY. I cannot believe that. That is the most 
incompetent, insubordinate handling of a matter that has been 
worrying this Committee that I have ever seen under the 
Executive Branch. For 2 years at minimum, I have been asking 
about the ALJ backlog, the inability to get enough people into 
place to make determinations on these disability claims. 
Clearly, the Agency heard me. If OPM has such scant regard for 
the concerns of Congress relative to whether SSA can get its 
work done or not, well, I think they need to come here and tell 
us that directly. I believe that OPM has completely, 
arrogantly, incompetently, foolishly, stupidly, irresponsibly 
handled this matter and as a result there will be people dead 
flat broke that cannot work, that cannot get their claim 
adjudicated, trying to figure out how they are going to pay for 
supper. This is an outrage. I am really frosted. I look forward 
to that hearing, Mr. Chairman, that I hope you will call so 
that we can get to the bottom of it. It is absolutely 
outrageous.
    Now, I have got another matter I wanted to talk to the 
Commissioner about, I will take a deep breath and get on to it.
    Mr. ASTRUE. I think I am going to take a deep breath too.
    Mr. POMEROY. It relates to a very useful technology that is 
available for the taking of claims for disability in a remote 
location. It is basically capturing technology that are 
otherwise--it is called video claims taking. It is a pilot that 
has been administered in the State of North Dakota. It has had 
particular application to Indian reservations, it has been run 
in facilities, Indian health service facilities. The early 
experience I believe is quite good, and I look forward to 
talking with you about that and specifically--you have got so 
much to get your hands around, but I do believe this is a 
promising technology.
    Mr. ASTRUE. I have actually discussed that just initially 
with the staff and the feedback that I have gotten on the 
demonstration is positive. I think I mentioned before you 
arrived that I think the only real concern is the cost; and 
with everything else that we have to pay for, if we were going 
to roll that out in an equal way around the country, what else 
would we not be able to do? So, I think, at least it is my 
understanding, that the initial assessment is very positive and 
that they feel that applicants on reservations sometimes tend 
to schedule appointments and then not show under the more 
traditional system. They are right there getting a health 
evaluation and they go in and they are more likely to follow 
through. I think people are very pleased by that outcome and 
feel that it serves the purposes of the program.
    Mr. POMEROY. Yes, especially as we deal with rural reaches 
of the country where basically we have been rationing access to 
the disability program in part by distance and ability of some 
people to just get through this.
    Mr. ASTRUE. Right, and I know that there is also some 
experimentation with that at the hearings and appeals level, 
although I am a little bit less fluent with that right now.
    Mr. POMEROY. When you are seasoned, I would very much like 
to get you to North Dakota and show you this site personally.
    Mr. ASTRUE. Sure.
    Mr. POMEROY. Either that or a representative. I thank you. 
I am really beside myself about this. The reality is that the 
hardships that some are bearing out there because of utter 
bureaucratic nonsense, it is infuriating to say the least. I 
yield back.
    Chairman MCNULTY. I thank the gentleman for his advocacy 
and his passion on the issue, and we will certainly take a 
suggestion under advisement for further action. I would ask, 
Commissioner, that when you report back in that report you are 
going to do on the backlog to me and Senator Baucus and the 
others in April, that you would pay particular attention to the 
ALJ issue so that we can get some more information on that.
    Mr. ASTRUE. I would be delighted to do that.
    Chairman MCNULTY. There may be some Members of the 
Committee who could not make it for one reason or another 
today, would you be willing to respond to their questions in 
writing if we supply them to you?
    Mr. ASTRUE. Absolutely, and it does not even have to be in 
connection with the hearing, any time.
    Chairman MCNULTY. I understand. I just again wanted to 
thank Commissioner McMahon and you for being here. We do deeply 
appreciate the fact that you took your oath of office on Monday 
and you came here on Wednesday, and both Sam and I are deeply 
appreciative.
    Mr. ASTRUE. Thank you very much.
    Chairman MCNULTY. Thank you very much. The next panel may 
be seated and while they are coming forward, I will introduce 
three of them, and I would like to ask my colleague, Stephanie 
Tubbs Jones, to introduce the fourth. We have on this panel 
Sylvester J. Schieber, who is the Chairman of the Social 
Security Advisory Board. We have Nancy Shor, who is executive 
director of National Organization of Social Security Claimants' 
Representatives; and Jim Fell, who president of the Federal 
Managers Association Chapter 275. The fourth panelist, I would 
like to ask Stephanie Tubbs Jones to introduce her constituent.
    Ms. TUBBS JONES. Thank you very much, Mr. Chairman. I am 
just so happy to have Mr. Warsinskey back here once again on 
behalf of the National Council of Social Security Management 
Association. Know that the rage coming from me and my colleague 
is earnest in the process. Now that we are the majority, I have 
more Committees than I had before so that causes me to run out, 
but I wanted to welcome you and your colleagues here. Please, 
Rick, let's get together back in Cleveland.
    Mr. WARSINSKEY. Let's get it together in Cleveland?
    Ms. TUBBS JONES. Let's get together back in Cleveland.
    Mr. WARSINSKEY. I am sorry, okay.
    Ms. TUBBS JONES. Okay?
    Mr. WARSINSKEY. All right.
    Ms. TUBBS JONES. Thank you very much all of you for coming 
up. Mr. Chairman, I appreciate your giving me this opportunity.
    Chairman MCNULTY. We all appreciate the fact that you came 
here today, are willing to give testimony today of all days 
because we know it was not the easiest of circumstances to get 
here, but thank you for your commitment, for your advocacy. We 
will of course submit all of your testimony for the record. We 
do ask you to summarize it to an extent and try to keep to 
within about 5 minutes, and we will just hear from all you and 
then we will go to questions. So, we will start with Mr. 
Schieber.

 STATEMENT OF SYLVESTER J. SCHIEBER, CHAIRMAN, SOCIAL SECURITY 
                         ADVISORY BOARD

    Mr. SCHIEBER. Thank you, Mr. Chairman. Mr. Chairman, Mr. 
Johnson, Members of the Subcommittee, I am pleased to have this 
opportunity to discuss backlogs with disability programs. I 
have been on the Social Security Advisory Board for 9 years. 
This has been one of the primary focuses of the Advisory Board 
over that whole period. I can speak at the end if you want 
about the ALJ issue, or answer questions about it. We have been 
looking into it. There are definitely some issues here that 
need to be addressed. I think a hearing is probably 
appropriate. It may take some legislation to fix things so they 
work to make Social Security more effective.
    Let me begin by talking about the current situation. Social 
Security disability claimants, as you know, often face lengthy 
delays in the processing of their claims. The situation may 
actually be worse than the numbers indicate. Average times mask 
the fact that complex or poorly documented claims can require a 
processing time well in excess of the average. Moreover, 
hundreds of thousands of claimants each year get benefits only 
after additional months in the reconsideration process, and an 
additional year or more in the hearings process. The huge 
backlogs create pressures that distort the numbers. In 2006, 
initial claims pending declined but there was a 38 percent 
increase in claims pending over a half year. There was more 
than a 115-percent increase in claims sitting at the 
reconsideration level for six months or longer.
    With inadequate resources, managers face decisions where 
both choices are bad. Fairness says concentrate on the oldest 
claims but failing to act quickly on easy claims turns them 
into difficult ones that consume more resources down the road. 
Inadequate resources also push managers to divert funds from 
stewardship activities to claims processing. This is the 
ultimate example of being penny wise and pound foolish. We have 
heard here today about $10.00 savings from preventing improper 
benefits being paid, so an additional dollar of administrative 
could save the program $10.00. The problem is that the $10.00 
does not come back and allow the administration to actually use 
some of those saved dollars to do more of these kinds of 
services. They go back into the trust funds and you do not get 
any credit for those dollars in the budgeting process.
    How did we get here? In 2002 and each subsequent year, 
enacted administrative funding was well below the amount 
requested. The shortfall totaled $1.4 billion compared to the 
official budget and over $5 billion compared to the service 
delivery budget. The service delivery budget was developed by 
former Commissioner JoAnne Barnhart to indicate the annual 
budget necessary each year in order for Social Security to 
fulfill the range of its mission on a timely basis.
    Despite the budget shortfalls, the workload demands 
continue to grow. Annual disability insurance applications rose 
60 percent since 2000, an increase of 800,000 applicants a 
year. Over the next decade, we expect the total caseload 
receiving Social Security benefits to go from around 50 million 
to about 70 million people. I just did a rough back of the 
envelope, truly back of the envelope calculation, that is an 
estimated growth of about 4 percent per year. You will need to 
check my numbers with a calculator but 2 percent productivity 
growth in a stable workforce is not going to satisfy that kind 
of a growth rate.
    Social Security employees rightly take pride in their can-
do attitude but attitude can only take you so far. At some 
point, can-do takes on the proverbial straw that breaks the 
camel's back.
    What can be done? Former Commissioner Barnhart initiated 
important changes that may eventually help ameliorate the 
backlog, such as the Electronic Disability Folder and the DSI 
Initiative. The ultimate success of these promising changes 
depend on adequate resources to provide the technological 
development and other support needed to make them work. Year 
after year, the Advisory Board has called attention to the need 
for more adequate resources. I can reiterate those 
pronouncements, but I am mindful of the adage that insanity 
lies in repeating the same failed action over and over and 
expecting improved results. So, I would like to suggest a few 
avenues you might explore to facilitate the process of matching 
the program's requirements and its administrative funding.
    Since 1994, the Social Security Act required the submission 
of a workforce plan budget. Unfortunately, only the single 
bottom line number for that budget is made public. Making the 
underlying detail available could enhance the ability of 
Congress to understand and evaluate the Agency's needs. In the 
past, special budget procedures have been adopted for certain 
high priority activities, such as investment in modern 
technology and accomplishment of disability reviews. There is 
of course always concern about overly constraining the 
flexibility of the people that have to run the program but 
there have been precedents for providing funding mechanisms 
directed at high-priority objectives. A third suggestion would 
be a thoroughgoing evaluation of Social Security programs with 
a view to finding policy improvements that could make the 
program easier to administer. The Board's first report in 1997 
stressed the importance of careful research and analysis of the 
Agency's administrative operations to find ways to improve its 
service to the public. The Agency collects enormous amounts of 
data about its programs and operations but it still is 
deficient in both tools and personnel to capture and use that 
data for program evaluation.
    Mr. Chairman, I hope these comments are helpful to the 
Subcommittee as it examines backlogs to Social Security 
disability programs. I will be happy to answer any questions. I 
have more extended comments that are submitted to the record.
    Thank you.
    [The prepared statement of Mr. Schieber follows:]

        Prepared Statement of Sylvester J. Schieber, Chairman, 
                     Social Security Advisory Board

    Chairman McNulty, Mr. Johnson, Members of the Subcommittee. I am 
pleased to have this opportunity to appear on behalf of the Social 
Security Advisory Board to discuss the backlogs in the Social Security 
disability programs. I would like to give you the Board's perspectives 
on what the situation is, how we got there, and--most importantly--what 
can be done about it.
What the situation is
    As you pointed out in the press release announcing this hearing, 
Social Security disability claimants often face lengthy and sometimes 
unconscionable delays in the processing of their claims. I think that 
situation is well known. I am, if anything, a bit surprised that it 
does not get more attention than it has. The only thing I would add to 
your assessment of the current situation is that it may be even worse 
than some of the numbers indicate.
    Average processing times mask the fact that many claims lower the 
average because they are simple, obviously severe (or obviously not), 
and are well documented. Others may require more complex evaluation 
that can require processing time well in excess of the average. 
Moreover, a very large number of those who get disability benefits are 
required to pursue their claims beyond the initial stage. For example, 
a little more than one million of those who applied for benefits in the 
year 2000 were ultimately found eligible. About 300 thousand of them 
got their benefit awards only after going through the reconsideration 
and/or hearing stages. So, while the average processing time for 
initial claims is about 3 months, it is not at all unusual to wait 
additional months in the reconsideration process, and much more in the 
hearings process where average processing times have risen to about a 
year and a half and many appeals take much longer.
    Moreover, the very existence of long average processing times and 
of huge backlogs in high visibility areas such as initial pending 
workloads creates pressures that distort the process. Trying to control 
those metrics can put too much emphasis on moving easier cases or those 
that contribute most to the backlog count at the expense of older cases 
and at the expense of cases in categories such as reconsideration which 
are not widely reported. In fiscal year 2006, for example, the number 
of initial claims pending actually declined slightly from 560 thousand 
to 555 thousand. Given the tight budget, this looks like a major 
achievement. But the number of initial claims pending longer than 4 
months grew by over 7000 and there was a 38 percent increase in claims 
pending over half a year. The situation was even more pronounced for 
those waiting a decision at the less visible reconsideration level. 
Even though the State Disability Determination Services received 
substantially fewer reconsideration requests in 2006, the size of the 
backlog grew by more than 30,000 claims and there was a more than 115% 
increase in the percentage of claims that had been waiting a decision 
at the reconsideration stage for more than 6 months.
    The number of hearings pending at the end of fiscal year 2006 
showed an increase over the prior year from 708 thousand to 716 
thousand, but that was far smaller than the 756 thousand projected at 
the start of the year. However, this was not because the agency 
processed more claims than it had expected to but rather because there 
were fewer appeals than expected. That sounds like good news, but at 
least part of the reduction in the number of new hearings cases is a 
reflection of the growing number of cases remaining undecided at the 
earlier, reconsideration stage. And within the hearings stage, as 
within the earlier stages, such progress as was made seems to have come 
at the expense of those claimants who have been waiting longest for a 
decision. While overall pending levels rose by less than 10,000, 
hearings cases pending more than 9 months rose by 32,000 including an 
increase of 16% in cases pending over a year.
    In pointing out these distortions, I do not intend to be critical 
of the Social Security Administration's employees or management, but 
rather to make sure that you are not confused by some seeming good news 
that really masks a very serious and worsening situation caused by 
inadequate resources. The fact is that the Social Security programs, 
especially the disability programs, are complex, production operations 
that demand adequate resources. In the absence of those resources, 
program managers are faced with making decisions where both choices are 
bad. On the one hand, fairness would seem to dictate concentrating 
resources on those claims that have been waiting longest. On the other 
hand, failing to act quickly on easy claims will likely turn them into 
difficult ones that consume even more resources to update evidence and 
to evaluate the additional and worsening conditions that claimants 
experience during, and to some extent because of, the delays in 
processing their applications.
    One of the bad choices that managers have to make when 
administrative funding is inadequate is whether or not they should 
divert funds from activities which have a long-run payoff in lower 
costs in order to meet the immediate pressures of rising claims 
backlogs. In that sort of competition, the needs of the disabled 
claimant obviously and correctly win out. But funding at a level that 
forces that choice is the ultimate in penny-wise and pound foolish 
behavior.
    Careful actuarial studies show that stewardship activities return 
benefit savings that are many times their administrative costs--up to 
$10 saved for each $1 spent for some kinds of reviews. Yet, the agency 
has been largely abandoning these stewardship activities in order to 
move claims along. I realize that there is a budgetary distinction 
between administrative and benefit spending, but that distinction is an 
artificial procedural construct. Failing to achieve easily attainable 
reductions in improper benefit payments is not only wasteful, but it 
will worsen the future year total deficits that are, in the last 
analysis, what constrains discretionary spending. It also makes a 
mockery of the legislative and regulatory rules that define eligibility 
for benefits in the first place.
    And no one should think that this is a problem that will just go 
away with the passage of time. Quite the contrary. Over the coming 
decade and a half, the projected rate of growth in the number on the 
benefit rolls will be roughly double what it was over the past quarter 
century. That is, the size of the Social Security programs will 
increase from about 50 million beneficiaries to over 70 million. At the 
same time, the agency faces a retirement wave of experienced staff, a 
tighter labor force that will make it more difficult and expensive to 
hire replacements, and a likely continuation of budgetary constraints.
How did we get here?
    The Social Security Advisory Board has attempted over the years of 
its existence to point out the need for increased resources. Just last 
month, we wrote to the leadership of the Appropriations Committees that 
inadequate funding has prevented the Social Security Administration 
from providing the level of service to the public and program 
stewardship that American taxpayers have a right to expect. Last year, 
my predecessor as Chairman submitted testimony to the Finance 
Committee, noting that the agency has been provided resources that are 
inadequate to enable it to keep up with its workloads. The Advisory 
Board issued its first report on the disability programs in August of 
1998. In that report, the Board made several references to the need for 
more adequate resources. Every year since then, the Board has issued 
one or more reports or other statements pointing out the need for more 
adequate resources. A quick count by our staff revealed that during my 
tenure on the Board since 1998 we have issued some 21 different Board 
reports and statements along those lines.
    The Congress, in setting up the Social Security Administration as 
an independent agency, directed it to develop annual budgets based on 
comprehensive workforce plans. In each of the past several years, the 
official budget request for the agency's administrative operations has 
been lower than the amount in these ``workforce plan'' budgets. As 
shown in the table below, the actual amounts enacted in each year of 
this 21st Century have been below the SSA workforce budget and also 
below the Administration's formal budget request. The shortfall 
relative to the official administration budget has totaled $1 billion 
over these seven years including nearly half a billion in just the last 
2 years. The difference between the enacted budgets and the agency 
workforce plan budgets over the period totals over $4 billion.
    So what we have are several consecutive years of providing 
resources well below the levels recommended by the professional program 
managers. During that same period, the demands on the program grew 
rapidly. In the Disability Insurance program for example, there were 
1.3 million new benefit applications in the year 2000. By 2005, that 
number had grown to 2.1 million--an increase of 60 percent over the 
period.


----------------------------------------------------------------------------------------------------------------
                                Social Security Administrative Funding (millions)
-----------------------------------------------------------------------------------------------------------------
                                                                                    President's        Final
                           Fiscal Year                             SSA  Request   Budget Request   Appropriation
----------------------------------------------------------------------------------------------------------------
2000                                                                 $6,907.0        $6,741.0        $6,607.0
----------------------------------------------------------------------------------------------------------------
2001                                                                 $7,390.0        $7,134.0        $7,124.0
----------------------------------------------------------------------------------------------------------------
2002                                                                 $7,982.0        $7,581.5        $7,569.6
----------------------------------------------------------------------------------------------------------------
2003                                                                 $7,974.0        $7,937.0        $7,885.1
----------------------------------------------------------------------------------------------------------------
2004                                                                 $8,894.5        $8,530.0        $8,313.2
----------------------------------------------------------------------------------------------------------------
2005                                                                 $9,310.0        $8,878.0        $8,732.5
----------------------------------------------------------------------------------------------------------------
2006                                                                $10,106.0        $9,403.0        $9,146.6
----------------------------------------------------------------------------------------------------------------
2007                                                                $10,230.0        $9,496.0        $9,297.6
----------------------------------------------------------------------------------------------------------------
  Total                                                             $68,793.5       $65,700.5       $64,675.6
----------------------------------------------------------------------------------------------------------------


    As you indicated in announcing this hearing, Congress has also 
added new workloads for the Social Security Administration during this 
period including significant responsibilities outside its core mission, 
for example, in support of the new Medicare prescription drug program 
and to assist with verifications of immigration status.
    The Social Security Administration and its management and employees 
have always taken pride in their ``can do'' attitude even in the face 
of growing workloads, new workloads, and inadequate resources. But 
attitude can take you only so far. At some point ``can do'' takes on 
the proverbial straw that breaks the camel's back.
    We can talk about Social Security as America's premier social 
program. We can talk about our commitment to providing ``world class'' 
service to the American public. We can talk about our concern to 
promptly address the needs of the most vulnerable among us, including 
those disabled persons who turn to the program for the benefits it 
promises. The reality is this. Thousands of cases of disability 
applications languish for years as the committed workers at the agency 
work through crushing backlogs, rapidly growing application rates, and 
steadily declining numbers of workers to process the workloads. If we 
want to achieve the publicly stated goals of this program, we have to 
pay for doing so, and at this point we are not.
What can be done?
    Former Commissioner JoAnne Barnhart, who recently completed her 
term of office, initiated some important changes that, in the long-run, 
may significantly help to meet the challenges of the growing caseloads 
the agency will see in the future. In particular, she accelerated the 
development of an electronic disability case folder that is already 
paying dividends in terms of reduced storage and postage costs, quicker 
shipment of case folders from one place to the next, and greater 
ability for collaboration. She also initiated major changes in the 
handling of disability claims including restructuring of the appeals 
process and commitment to a much improved quality management system 
that can have significant payoff in efficiency, timeliness, and 
consistency. This is important and promising, and the Social Security 
Advisory Board was and remains very supportive of these initiatives. 
But they are not magic bullets.
    Many aspects of these changes are very much in the beginning 
stages. The new disability system is to be rolled out over the 
remainder of this year in the smallest, and in many ways, easiest 
region and expanded to the rest of the country over a period of years. 
The new quality management system is, at this point, a plan rather than 
an accomplishment. And the successes of all these initiatives are very 
much dependent upon the provision of adequate resources to complete 
them and to provide the technological development and other support 
needed to make them work properly. How quickly and how well those 
successes are achieved will be affected by whether or not they become 
lesser priorities in the face of the competing demands of huge backlogs 
of current claims and appeals.
    I recently met with a group of state disability determination 
directors who are excited that this quality control system will help 
them dramatically improve the quality of their determination processes. 
They are also gravely concerned that the quality management system will 
not be rolled out on a timely basis because there are not resources 
available to do so.
    In these times of constrained budgets, it is indeed a daunting 
challenge to find resources adequate both to deal with the large 
current caseloads and to undertake the changes in technology and 
process that will be needed to prepare for the even larger caseloads 
that are on the way. As I mentioned earlier, the Advisory Board has 
repeatedly, over the years since you created it, called attention to 
the need for more adequate administrative resources. I could simply 
reiterate those earlier pronouncements, but I am mindful of the adage 
that insanity lies in repeating the same failed actions over and over 
but expecting improved results. So I would like to suggest a few 
avenues you might explore to facilitate the process of matching the 
program's requirements and its administrative funding. I should tell 
you that, because of the limited advance notice of this hearing, I have 
not had the opportunity to have my colleagues on the Advisory Board 
review these suggestions, but I believe they are generally consistent 
with the views the Board has expressed in the past.
    As I mentioned earlier, you enacted legislation in 1994 that made 
the Social Security Administration an independent agency and directed 
the Commissioner to develop and transmit to the Congress a budget based 
on a workforce plan. Former Commissioner Barnhart built upon this 
provision by developing what she called a ``service-delivery'' budget--
a multi-year funding and workforce plan that showed a path to reducing 
the current huge backlogs to appropriate levels over a period of years. 
The objective of this Commissioner's budget is very well described in 
the President's budget document for fiscal 2008. It says:


------------------------------------------------------------------------

-------------------------------------------------------------------------
  The Commissioner developed a multi-year Service Delivery Budget
through 2012 to provide a context for making decisions on needed
improvements in service delivery and fiscal stewardship, and the
requisite staffing to accomplish both.
------------------------------------------------------------------------


    The Social Security Act requires this budget to be transmitted to 
Congress without change along with the President's own budget. In 
developing his budget, the President obviously has to consider all 
National needs. It is neither surprising nor inappropriate that his 
judgment as to the appropriate administrative budget for the Social 
Security Administration may differ from that of the Commissioner. But 
the workforce-plan budget required by statute can, as the words of the 
President's budget indicate, provide a context for decision-making.
    Unfortunately, all that is included in the budget submission is the 
single, bottom-line number from the Commissioner's budget and none of 
the detail about how that number was derived. A single number does not 
provide a ``context for decision-making''; it is simply a number. As 
far as I know, that number appears at the end of the Social Security 
section in the budget appendix and is used for nothing. The process of 
deriving it may be helpful to decision makers within SSA, but it does 
not help the Advisory Board or the Congress understand the workforce 
needs of the agency. As far as I can tell, it is printed and ignored.
    The justification materials presented to and considered by the 
Appropriations Committees are entirely based on the official budget 
numbers without benefit of the context that could be available if the 
background of the workforce-plan or service-delivery budget were 
included. I believe this additional transparency in budgeting could 
help Congress better understand what is needed to fund the 
administrative costs adequately, but knowing and doing are different.
    In its past reports concerning the Social Security Administration's 
resources, the Advisory Board has on a number of occasions urged that 
the agency's administrative funding should not be subject to 
discretionary caps in the budget process. Beyond this, I would point 
out that Congress has in the past employed special budgetary procedures 
aimed at meeting identified needs in the operation of the Social 
Security program. For example, over a period of years, there were 
special amounts of funding set aside to enable the agency to upgrade 
its technology and to carry out continuing disability reviews. There 
is, of course, always a concern about overly constraining the 
flexibility of the Commissioner to move resources around as 
circumstances change, but Congress has occasionally found funding 
mechanisms directed at certain high priority objectives to be useful 
and effective.
    A third suggestion I would make is for a thoroughgoing evaluation 
of the Social Security programs with a view to finding policy 
improvements that might suggest ways to make the program easier to 
administer. In the Board's library we have a copy of the original 
Social Security Act. It is somewhere between a sixteenth and an eighth 
of an inch thick. The current compilation of the Act is about 3 inches 
thick. I realize that much of that relates to Medicare, but the Social 
Security and SSI programs also have been amended many times over, 
usually with the result of adding complexity. As we move into a future 
with larger workloads and continuing budgetary limits, it would be 
useful to evaluate existing procedures and rules to see if they can be 
made more objective and easier to administer.
    In 1997, the very first report the Advisory Board issued called 
upon the agency to enhance its policy research and evaluation capacity. 
A year later, the Board again called for improved capacity to evaluate 
SSA programs: ``It is critically important,'' we said ``for SSA to 
conduct, on a continuing basis, careful research and analysis of its 
administrative operations. . . . The agency must be able to know what 
works and what does not and be looking continually for ways to improve 
its service to the public.'' The agency collects enormous amounts of 
data about its programs and operations, but it still is deficient in 
both tools and personnel to capture and use that data for program 
evaluation.
    Mr. Chairman. I hope these comments are helpful to the Subcommittee 
as it examines the backlogs in the Social Security disability programs. 
Those programs have been one of the major concerns of the Social 
Security Advisory Board since it first began operations in 1996. The 
Board expects to continue its careful review of them. It would be happy 
to provide any additional assistance you may want, and I would be happy 
to answer any questions you may have.

                                 <F-dash>

    Chairman MCNULTY. Thank you, Mr. Schieber.
    Ms. Shor.

     STATEMENT OF NANCY SHOR, EXECUTIVE DIRECTOR, NATIONAL 
  ORGANIZATION OF SOCIAL SECURITY CLAIMANTS' REPRESENTATIVES, 
                  ENGLEWOOD CLIFFS, NEW JERSEY

    Ms. SHOR. Thank you. Thank you for inviting me to testify 
today. I am the executive director of the National Organization 
of Social Security Claimants' Representatives (NOSSCR), a 
membership organization of nearly 3,900 attorneys and other 
advocates who represent individuals seeking Social Security 
disability and SSI disability benefits.
    Social Security and SSI cash benefits and the related 
medical coverage they provide are the means of survival for 
millions of people with severe disabilities. They rely on SSA 
to promptly and fairly adjudicate their claims for disability 
benefits. However, delays and backlogs have reached intolerable 
levels. If a case goes to the hearing level, it can easily take 
more than 3 years to get a decision after filing the 
application.
    We believe SSA is generally doing a good job with limited 
resources and some of its technological advances, such as the 
Electronic Disability Folder, should eventually help to 
alleviate the problem with backlogs. However, we believe the 
primary reason for the increase in disability claims backlogs 
is that SSA has not received adequate funding to do the job. 
The current situation is dire and without adequate 
appropriations for the future, the deleterious impact on 
claimants will only grow. We must remember that each claim 
filed represents a person with severe disabilities whose life 
may be unraveling while waiting for his or her claim to be 
properly decided. Families are falling apart, homes are lost, 
medical conditions deteriorate, some claimants die while 
waiting for a decision and one's stable economic security 
crumbles.
    Our written statement graphically describes the desperate 
circumstances of just a handful of the clients of NOSSCR 
members. I would like to present just one case briefly. ``Ms. 
C,'' we will call her, is a 49 year old single mother who lives 
in Troy, New York. She applied for disability benefits in May 
2005 and was denied in February 2006, 9 months later. Ms. C 
requested a hearing in April 2006 and is still waiting for a 
hearing date. She previously worked for 10 years as a keyboard 
operator for the State of New York but has not worked since 
December 2003 due to her mental and physical impairments. Since 
filing for benefits in May 2005, her life has dramatically 
changed. She and her children were evicted from their 
apartment. Unable to provide a home for her children, she lost 
custody and the children now reside with their father. For 4 
months she lived in a homeless shelter in Troy and was finally 
able to leave just last week. She was recently hospitalized for 
depression because of the multiple stressors in her life. She 
is now in treatment for depression. To speed up her case, her 
attorney asked to have this case decided ``on the record,'' 
that is without a hearing but the request was denied. Her 
attorney reports that there was at least an 18 month wait for a 
hearing in the Albany, New York hearing office, which brings us 
to November 2007 for Ms. C. Her attorney has been told that the 
wait for a hearing could be even longer because four ALJs have 
left and only one has been replaced in that office.
    How does SSA's budget situation affect individuals like Ms. 
C? First, as noted earlier today, processing times have 
increased dramatically. According to SSA, the average 
processing time for cases at the hearings level this year will 
be 17.5 months and 18 months next year, nearly twice as long as 
in 2000. This is just an average. In fact, many people will 
wait even longer. While the hearing level processing times are 
the most striking, it is important to keep in mind that 
increases in processing times at any level, such as the 
reconsideration slow down last summer, will add to the overall 
processing time. SSA's statistics show that the processing 
times in many hearing offices are much longer than the 524 
targeted for this year. Data from January 2007 show average 
processing times in each of the 142 hearing offices from the 
date the request for hearing is filed until the hearing is 
held. About 40 percent of the hearing offices are above the 16 
month average with many approaching the 2 year mark or longer 
just to hold a hearing. The Atlanta, Georgia office is 
averaging 28.5 months just to get a hearing. This does not 
include the time for the actual decision to be issued after the 
hearing or for the individual to start receiving benefits if 
approved.
    Second, the number of pending cases continues to increase 
dramatically. According to SSA statistics, the number of 
pending cases at the hearing level has increased almost 250 
percent since 1999.
    Third, staffing levels have decreased, which leads to a 
decrease in service. Our members have noted the loss of ALJs 
and their support staff in hearing offices across the country. 
The hearing freeze and lower replacement rates have had their 
impact, especially since many of those SSA employees retiring 
are those with the most experience. Because of cuts in budget 
requests over the last few years, fewer ALJs have been hired 
than planned. This comes despite the fact that almost the same 
number of ALJs are now expected to handle more than twice as 
many cases in 1999. Even more of a problem may be the inability 
to hire their support staff.
    Finally, a decrease in service is provided now by the SSA 
district offices and State agencies. While the delays in 
backlogs at the hearing level are the most dramatic, the 
current budget situation has left all SSA offices and State 
Agency offices without adequate resources to meet all the 
current responsibilities. Under the President's Fiscal Year 
2008 budget request, SSA will need to reduce its staff. This 
does not take into account reductions in 2006 and 2007.
    My written statement provides more details, and specific 
examples of the impact on the people with disabilities. As 
evidenced from the case examples, I want to stress that NOSSCR 
members are dismayed by the plight of their clients as they 
wait for hearing and decisions in their claims for disability 
benefits. Our members do and will continue to do all they can 
to move cases more expeditiously. While the over-arching 
problems with the backlogs will only be resolved when SSA has 
adequate funding, we stand ready to help in any way that we 
can.
    We thank you for the opportunity to testify today. We will 
be pleased to answer any questions you may have.
    [The prepared statement of Ms. Shor follows:]

              Prepared Statement of Nancy Shor, Executive 
     Director, National Organization of Social Security Claimants'
             Representatives, Englewood Cliffs, New Jersey

    Chairman McNulty, Representative Johnson, and Members of the Social 
Security Subcommittee, thank you for inviting NOSSCR to testify at 
today's hearing on the Social Security Administration (SSA) disability 
claims backlogs.
    I am the Executive Director of the National Organization of Social 
Security Claimants' Representatives (NOSSCR). Founded in 1979, NOSSCR 
is a professional association of attorneys and other advocates who 
represent individuals seeking Social Security disability and 
Supplemental Security Income (SSI) disability benefits. NOSSCR members 
represent these individuals with disabilities in proceedings at all SSA 
administrative levels, but primarily at the hearing level, and also in 
federal court. NOSSCR is a national organization with a current 
membership of nearly 3,900 members from the private and public sectors 
and is committed to the highest quality legal representation for 
claimants.
    The focus of this hearing is extremely important to people with 
disabilities. Title II and SSI cash benefits, along with the related 
Medicaid and Medicare benefits, are the means of survival for millions 
of individuals with severe disabilities, They rely on SSA to promptly 
and fairly adjudicate their applications for disability benefits. They 
also rely on the agency to handle many other actions critical to their 
well-being including: timely payment of their monthly Title II and SSI 
benefits to which they are entitled; accurate withholding of Medicare 
Parts B and D premiums; and timely determinations on post-entitlement 
issues that may arise (e.g., overpayments, income issues, prompt 
recording of earnings).
    SSA is generally doing a good job with limited resources and has 
improved its technological capacity in ways that will help to 
accomplish its work. However, under the current budget situation, 
people with severe disabilities have experienced increasingly long 
delays and decreased services in accessing these critical benefits. 
Processing times have continued to grow, especially at the hearing 
level where the delays have reached intolerable levels. In some hearing 
offices, our members report that claimants wait more than two years 
just to receive a hearing, which does not count the time for a decision 
to be issued.
    We believe that the main reason for the increase in the disability 
claims backlogs is that SSA has not received adequate funds to provide 
its mandated services. Former Commissioner Barnhart has stated that if 
the proposed budgets requested by the President over the past five 
years had been fully funded, there currently would be no backlogs. 
While the current situation is dire, without adequate appropriations to 
fund SSA, the situation will deteriorate even more.
    Other witnesses today will address the statistics that underscore 
the current state of SSA's inadequate level of resources. Later in my 
testimony, I also will discuss these issues. However, we must recognize 
that behind each number and claim is an individual with disabilities 
whose life is coming unraveled while waiting for his or her claim to be 
properly decided--families are torn apart; homes are lost; medical 
conditions deteriorate (and many claimants die while waiting for a 
decision); and once stable financial security crumbles. Described below 
are only a very small number of cases from NOSSCR members that starkly 
exemplify the desperate circumstances in which their clients find 
themselves while waiting for their claims to be decided.
Ms. C_Troy, NY
    Ms. C is a 49 year old single mother who lives in Troy, NY. She 
applied for Social Security disability benefits on May 2, 2005. She 
previously worked for ten years as a keyboard operator for the State of 
New York. Ms. C has not worked since December 2003. She was denied 
benefits in February 2006, nine months after her application was filed. 
Ms. C requested a hearing in April 2006.
    Since filing for benefits in May 2005, Ms. C and her children were 
evicted from their apartment. Unable to provide a home for her 
children, she lost custody and the children now live with their father. 
For four months, Ms. C lived in a homeless shelter in Troy, and was 
finally able to leave just last week. She was recently hospitalized for 
depression because of the multiple stressors in her life. Ms. C also 
has a borderline IQ and bilateral neural stenosis in her cervical 
spine. Also, she is in treatment for a depressive disorderat a local 
mental health clinic.
    Ms. C calls her attorney every month to check on the status of her 
appeal. There is currently an 18-month wait for a hearing at the 
Albany, NY hearing office. Her attorney asked to have this case decided 
``on the record,'' without the need for an in-person hearing. However, 
the request was denied. Assuming the 18-month processing time, Ms. C 
can expect to have her hearing in November 2007. Her attorney has been 
told by the Albany hearing office that the wait will only get longer: 
two administrative law judges (ALJs) have retired in the last two 
years; one ALJ is set to retire in May 2007; and one ALJ is now the 
Acting Regional Chief ALJ. There has been only one ALJ replacement.
Ms. W_Norwood, PA
    Ms. W is a 46 year old woman who lives in Norwood, PA. She filed 
for disability benefits in May 2005 and was denied in October 2005. She 
requested her hearing in December 2005. The original hearing office was 
in Elkins Park, PA, but without explanation, her case was transferred 
to the downtown Philadelphia hearing office in the spring of 2006. It 
is currently sitting ``unworked'' in the Philadelphia hearing office 
and will not be scheduled for a hearing until, at best, the end of 
2007, which will be two years after she filed her request for hearing. 
According to her attorney who handles cases throughout the Philadelphia 
area, the longest current processing times in the Philadelphia region 
are at the downtown Philadelphia hearing office, although they used to 
have the shortest times. The processing times are shorter at the Elkins 
Park hearing office.
    Ms. W's main impairment is status post shunt placement in 1986 for 
pseudotumor cerebri. She worked steadily until May 2005, but was fired 
due to poor attendance because of her medical conditions. Ms. W has the 
full support of her doctor for receipt of disability benefits. She also 
is being treated for low back pain with radiculopathy due to herniated 
discs, bilateral hip bursitis, chronic knee pain, and depression. While 
waiting for her hearing, she has now developed hearing loss in both 
ears. Recently, she was diagnosed with leukocytosis and is being tested 
for cancer.
    While waiting for a hearing in her case, Ms. W spent all of her 
savings and she had to apply for welfare. She worked all of her life 
and hated having to file for welfare, but had no alternatives. Her 
house went to foreclosure, but her fiance saved it and now owns the 
house. He then developed colon cancer and has required surgeries. His 
prognosis is poor and he is the only family Ms. W has. Ms. W. worries 
that she will lose him and her house and will have nowhere to live.
Mr. M_Bowling Green, KY
    Mr. M is a 43 year old man who resides in Bowling Green, KY. He is 
a former general manager for a mobile home sales company. He became 
unable to work in December 2004 due to heart problems, diabetes, 
neuropathy in his legs, two herniated discs, high blood pressure, and 
depression. He filed his claim for disability benefits, without 
representation, in early 2005. He sought legal help in September 2005 
because he had not received a decision. It was then discovered that the 
SSA district office had no record of an appeal that the claimant 
insists he filed. As a result, Mr. M had to start his case over in 
September 2005 and file a new application. He is now waiting for a 
hearing with an ALJ and it will be at least several more months before 
the hearing is scheduled.
    Mr. M is a single parent and the father of five minor children who 
all live with him. He became a single parent last year when his wife 
committed suicide.
    Last year Mr. M began to take a new type of heart treatment called 
ECT (external counterpulsation). This required regular visits to the 
doctor's office. However, he had to give up this promising treatment 
when he lost his medical coverage. He gets some help from a local 
church, but he is overwhelmed by his children, his medical conditions, 
and the frustration of dealing with SSA.
Mr. R_Pico Rivera, CA
    Mr. R is 41 years old and lives in Pico Rivera, California, with a 
solid work history as a bottler for a soft drink company and as a bus 
driver. He injured his back at work for the soft drink company.
    He filed his Social Security disability benefits claim on July 22, 
2005. The claim was denied and he eventually filed a Request for 
Hearing on December 19, 2005. He finally had his hearing on February 8, 
2007. He attempted rehabilitation, but despite referrals for surgery by 
two doctors, the workers' compensation carrier refused to cover this 
service. For over one year, he has been unable to receive proper 
medical care for his back condition or for his bilateral carpal tunnel, 
for which the same two doctors also recommended surgery. His inability 
to get treatment for his physical impairments and the lack of 
resolution of the workers' compensation and Social Security disability 
cases have resulted in total liquidation of his savings and investments 
and near homelessness. He now requires mental health treatment, 
including medication. He did attempt a return to work, with modified 
duties, but was unable to sustain this modified work after three weeks.
    Earlier medical records showed gradual improvement, including 
reduced levels of pain, in response to treatment. According to his 
attorney, this is an individual who desired to return to work as soon 
as possible. However, his inability to receive proper medical care has 
directly resulted not only in deterioration of Mr. R's condition (as 
shown in recent MRIs), but also development of a severe mental health 
disorder.
Mr. T_Gadsden, AL
    Mr. T lives in Gadsden, AL, and is 50 years old. He worked as a 
welder and then operated a bowling alley for 20 years until he had a 
stroke in November 2004, when he was only 48 years old. He applied for 
disability benefits in December 4, 2004, and was denied in the spring 
of 2005. A hearing was requested in June 2005 and was held 18 months 
later in December 2006. During that time, Mr. T cashed in all of his 
savings bonds. His health deteriorated, as did the health of his 83 
year old mother who was the only available person in the family left to 
look after him. His mother was hospitalized with lung cancer in 2006 
(she eventually passed away), leaving Mr. T without support. His 
brother lost his job in Kansas because he had no choice but to move to 
Alabama to help Mr. T.
    The unfortunate, and avoidable, part of the long wait is that in 
January 2007, the ALJ issued a fully favorable decision, based on a 
psychological consultative examination that was performed in May 2005, 
shortly after the initial application was filed. The psychologist 
concluded that Mr. T. was unable to perform simple tasks, make work-
related decisions, or perform at all in a work environment. If SSA had 
made the right decision at the time of that examination, Mr. T and his 
family, including his elderly and dying mother, might not have endured 
such hardship for an additional 18 months.
Mr. B_Garland, TX
    Mr. B is a 48 year old former machine operator living in Garland, 
Texas. He has been diagnosed with ischemic heart disease and filed his 
application for Social Security disability benefits in October 2004. 
His request for hearing was filed in April 2005, twenty-two months ago, 
and he has yet to have a hearing. While he has been waiting for a 
hearing, Mr. B has lost his home as it went to foreclosure.
Mr. O_Dallas, TX
    Mr. O is a 44 year old former painter and cab driver living in 
Dallas, Texas. He has diabetes, high blood pressure, and kidney and 
heart problems. He filed his application for Social Security disability 
benefits in January 2005. His request for hearing was filed on November 
29, 2005, and it has not been scheduled. While waiting for his hearing, 
Mr. O has been evicted from his apartment and is now homeless, moving 
from shelter to shelter.
Ms. S_Houston, TX
    Ms. S is a 48 year old former teacher living in the Houston, Texas, 
area. She has back, neck, carpal tunnel and arthritis problems. She 
filed her application for Social Security disability benefits in June 
2004. Her request for hearing was filed in January 2005, twenty-five 
months ago, and has not been scheduled yet. While waiting for her 
hearing, Ms. Smith has developed extreme depression, anxiety and panic 
attacks.
Mr. G_South Euclid, Ohio
    Mr. G is 41 years old and resides in South Euclid, Ohio. He suffers 
from diabetes but was able to maintain employment for 15 years as a 
security officer. However, in March 2005, he developed an abdominal 
fistula and required a bowel resection. Mr. G's diabetes slowed the 
healing of the abdominal wound, which would not close. He obviously 
could not work with an open stomach wound and he filed for disability 
benefits. His claim was denied because SSA did not believe his 
condition would last 12 months.
    A request for hearing was filed on December 2, 2005. On June 5, 
2006, his attorney submitted a letter from the treating surgeon to the 
hearing office. The treating surgeon explained that Mr. G continues to 
have an open wound and that multiple surgeries will be needed. A 
request by his attorney for an on the record decision accompanied the 
surgeon's letter. There has been no response.
    In the meantime, Mr. G lost his apartment and moved in with a 
friend. This has been difficult because his wound requires a very clean 
environment. A second request for an on the record decision and photos 
showing Mr. G's large open wound were submitted on September 28, 2006. 
Again, there has been no response to this request from the hearing 
office. Mr. G is currently in the hospital for more staged surgeries.
Mr. S_Cleveland, Ohio vicinity
    Mr. S lives in the Cleveland, OH, vicinity. He has been diagnosed 
with paranoid schizophrenia. He sees his psychiatrist at least twice a 
month and has a mental health case manager. Both have reported that Mr. 
S cannot work. A request for hearing was filed on December 5, 2005. In 
September 2006, the hearing office was alerted that Mr. S was at risk 
of losing his home. He was placed on the ``dire need'' list to expedite 
his hearing, but his attorney was informed that there are at least 100 
individuals that qualify as ``dire need.'' On January 9, 2007, Mr. S 
lost his home. He is still waiting for a hearing.
Mr. L_Bolivia, NC
    Mr. L is a 52 year old former tugboat captain who lives in Bolivia, 
NC, a very small town in Brunswick County, NC. He has been diagnosed 
with status post three level cervical fusion after a fall off the roof 
of his sister's house where he was helping with some repairs. He filed 
his application for Social Security disability benefits in June 2005. 
His treating neurosurgeon says his fusions need to be redone, but Mr. L 
has no health insurance and no money, so further surgery will have to 
wait. While awaiting resolution of his claim, Mr. L's home went to 
foreclosure, forcing him to move in with his aged and ailing mother. 
Prior to the hearing in December 2006, his attorney documented the 
foreclosure and specifically requested that the hearing office expedite 
his hearing to avoid foreclosure. However, the request to expedite was 
denied.
    Mr. L.'s hearing was scheduled eleven months after his request for 
hearing was filed and was finally held in December 2006. But he is 
still waiting for a decision. His attorney regularly handles cases in 
this particular hearings office and, based on his experience, reports 
that hearings are held more promptly than in other locations. However, 
it is fairly routine to wait more than six months after the hearing is 
held to receive a decision, and sometimes it can take more than one 
year. His attorney believes that the problem is one of manpower, as the 
hearing office does not have the support staff to get the decisions out 
in a timely fashion.
    What do these cases tell us about the current situation at SSA?
I. Processing times are reaching intolerable levels.
    In the Hearing Advisory, Chairman McNulty stated: ``The current 
delays in receiving disability benefits are completely unacceptable.'' 
We emphatically agree with Chairman McNulty. The average processing 
times for cases at the hearing level have increased dramatically since 
2000, when the average time was 274 days.\1\ In the current fiscal 
year, SSA estimates that the average processing time for disability 
claims at the hearing level will be 524 days and will increase to 541 
days in FY 2008,\2\ nearly twice as long as in 2000. And it is 
important to keep in mind that this is just an ``average.'' In fact, 
many claimants will wait even longer than the ``average'' time. And, 
while the ``average'' processing times at the initial and 
reconsideration levels are shorter than at the hearing level, there are 
still individual cases that will take considerably longer, as described 
in several of the case examples above, that also add to the overall 
processing time.
---------------------------------------------------------------------------
    \1\ Social Security Advisory Board, Improving the Social Security 
Administration's Hearing Process (Sept. 2006)(``SSAB Report''), p. 8
    \2\ Social Security Administration: Fiscal Year 2008 Justification 
of Estimates for Appropriations Committees (``SSA FY 08 Budget 
Justification''), p. 81.
---------------------------------------------------------------------------
    The current processing times in some hearing offices are striking, 
and much longer than the 524 days targeted by SSA in FY 2007. Data from 
January 2007 indicates that the average time from the request for 
hearing to the date the hearing is held is 16 months, or about 485 
days. The average time from the date of the hearing to the decision is 
two months, an additional 60 days. Thus, the average as of January 
2007, only four months into the fiscal year, is already 545 days.\3\
---------------------------------------------------------------------------
    \3\ SSA Office of Disability Adjudication and Review, ``NETSTAT'' 
List of Processing Times--January 2007.
---------------------------------------------------------------------------
    Of the 142 hearing offices, 57 are above the 16-month average, 
according to SSA's statistics.\4\ This represents about 40% of all 
hearing offices. Offices above the average include:
---------------------------------------------------------------------------
    \4\ SSA Office of Disability Adjudication and Review, ``NETSTAT'' 
List of Processing Times--January 2007.

        <bullet>  Pasadena, CA
        <bullet>  San Francisco, CA
        <bullet>  Pittsburgh, PA
        <bullet>  Eugene, OR
        <bullet>  Portland, OR
        <bullet>  Dallas (North), TX
        <bullet>  Houston, TX

    Other hearing offices that are approaching the two-year mark just 
to hold a hearing include:

        <bullet>  Albuquerque, NM: 20.5 months
        <bullet>  Atlanta, GA: 28.5 months
        <bullet>  Buffalo, NY: 24 months
        <bullet>  Atlanta (North) GA: 26 months
        <bullet>  Charlotte, NC: 22 months
        <bullet>  Columbus, OH: 23 months
        <bullet>  Dayton, OH: 20 months
        <bullet>  Detroit, MI: 22 months
        <bullet>  Flint, MI: 21.5 months
        <bullet>  Grand Rapids, MI: 22 months
        <bullet>  Jackson, MS: 22 months
        <bullet>  Las Vegas, NV: 21.5 months
        <bullet>  Miami, FL: 26 months
        <bullet>  Seattle, WA: 19.5 months
        <bullet>  Spokane, WA: 20 months
        <bullet>  Tampa, FL: 22 months

    It is important to keep in mind that the 16-month processing time 
is only an ``average'' and only counts the time until the hearing is 
held. The actual processing time is even longer. When the ``average'' 
time from ``hearing held'' to ALJ's decision is added (60 days), many 
more hearing offices are approaching the two year and longer mark. As 
noted in Mr. L's case above, even those hearing offices with below 
average times may, in fact, have considerably longer processing times 
when the time from the date of the hearing until the decision is issued 
is added.
    The impact of the budget and staffing cuts in district offices also 
affect the processing times at the hearing levels. Our members have 
reported that cases are sitting longer in district offices after 
requests for hearings are filed, often adding months--or years--to the 
processing time. In a case from Providence, RI, a claimant is currently 
waiting for an ALJ hearing where the request for hearing was filed by 
the claimant pro se in 2004. The request was timely sent to the hearing 
office but without the claims folder. The hearing office returned the 
file to the SSA district office, where the case sat for more than two 
years. The hearing request and folder were finally sent to the hearing 
office only one month ago after an attorney became involved in the case 
and started to track what happened. The hearing office has finally 
scheduled the case for an expedited hearing in view of the more than 
two-year delay.
II. The number of pending cases continues to increase.
    Like processing times, the number of cases pending at hearing 
offices continues to grow. As noted by the Social Security Advisory 
Board (SSAB): ``The size of the pending workload in hearing offices--
the hole that SSA has to dig itself out of--has followed a pattern 
similar to that of processing times.'' \5\ The number of pending cases 
at the hearing level reached a recent low in FY 1999 at 311,958 cases. 
The numbers have increased dramatically since 1999, reaching 711,284 in 
FY 2005.\6\ And SSA estimates the numbers to continue a significant 
increase: 752,000 in FY 2007 and 768,000 in FY 2008. And these 
increases will occur despite an expected increase in the productivity 
of ALJs in issuing decisions.\7\
---------------------------------------------------------------------------
    \5\ SSAB Report, p. 9.
    \6\ SSAB Report, p. 10.
    \7\ SSA FY 08 Budget Justification, p. 81. SSA keeps statistics on 
the number of pending cases in each hearing office, which NOSSCR has 
received through Freedom of Information Act (FOIA) requests. The 
numbers vary dramatically from office to office and do not necessarily 
correlate to large population centers.
---------------------------------------------------------------------------
    However, even for hearing offices with a lower number of pending 
cases, the numbers do not tell the whole story. Because of the 
disparities between hearing offices, many of our members have reported 
that SSA has been transferring cases from offices with high numbers of 
pending cases to offices with lower numbers where the hearings are held 
by video conference, if the claimant agrees. While this is 
understandable in a national program, it nevertheless means that 
claimants who live near hearing offices with lower numbers of pending 
cases will end up waiting longer.
III. Staffing levels have decreased which means a decrease in service.
    Our members have noted the loss of ALJs and support staff in 
hearing offices around the country. Former Commissioner Barnhart had 
planned to hire an additional 100 ALJs in FY 2006 but due to cuts in 
the President's budget request, she was able to hire only 43. The real 
impact of the burden on the current ALJ corps can be seen by comparing 
statistics from 1999 and 2005, when nearly the same number of ALJs were 
expected to handle more than twice as many cases: In 1999, there were 
1090 ALJs to handle 311,958 cases, while in 2005, there were 1096 ALJs 
to handle 711,284 cases.\8\
---------------------------------------------------------------------------
    \8\ SSAB Report, p. 10.
---------------------------------------------------------------------------
    Whether there are an adequate number of ALJs may not even be the 
primary staffing issue in hearing offices. Productivity is not related 
solely to the number of ALJs, but also to the number of support staff. 
In 2005, the median hearing office had 4 to 4.5 staff members per ALJ. 
This represents a significant decrease, about 20 to 25 percent, from 
the 5.4 staff per ALJ in 2001 at a time when the number of pending 
cases was much lower.\9\
---------------------------------------------------------------------------
    \9\ SSAB Report, p. 10.
---------------------------------------------------------------------------
IV. Impact on service provided in SSA field offices.
    Under the current budget situation, people with severe disabilities 
have experienced long delays and decreased services provided in SSA 
field offices, which do not have adequate resources to meet all of 
their current responsibilities. Of greatest concern, even with the 
modest increase SSA is seeking for FY 2008, is that SSA will need to 
reduce its staff. Despite an expected increase in the number of initial 
disability claims expected to be filed in FY 2008, the number of SSA 
and Disability Determination Services (``state agencies'') Full-Time 
Equivalents (FTEs) is expected to decrease from FY 2007.\10\ This does 
not take into account the drop in the number of positions from FY 2006.
---------------------------------------------------------------------------
    \10\ SSA FY 08 Budget Justification, p. 81 and 90. In FY 2007, it 
is projected that 577,000 new disability claims will be filed; in FY 
2008, the estimate is 627,000 claims. In FY 2007, the total SSA/DDS 
workyears is estimated to be 74,823; in FY 2008, the estimate is 74,596 
workyears.

    A. Impact on disability claims. Under the current SSA budget 
situation, it can be expected that delays will grow not only at the 
hearing level but also at the initial and reconsideration levels. A 
recent action taken by SSA demonstrates the scope of the problem. In 
June 2006, SSA was forced to direct all available resources to the 
processing of initial applications, and away from processing 
reconsideration level cases, when the initial application backlog 
became too high. The decision to redirect resources was caused 
primarily by the cut in the President's request for fiscal year 2006. 
In some states, this meant that reconsideration cases were not 
processed for a period of time, unless the state agency was notified of 
dire circumstances. Two current cases handled by NOSSCR members are 
graphic examples of the impact that this action could have on 
claimants. What would have happened to these individuals if the 
---------------------------------------------------------------------------
reconsideration slow-down was in place?

          <bullet> Ms. S_Hardyville, KY. Ms. S's case is currently 
        pending at the reconsideration level. She is 57 years old and 
        resides in Hardyville, KY. She worked as a certified nursing 
        aide. She was involved in a terrible automobile accident 
        leaving work in the fall of 2006. Due to her pulmonary 
        injuries, she will be bedridden and on a ventilator for the 
        rest of her life. After months in the hospital, she is at home 
        and her daughter is taking care of her. After receiving 
        preliminary approval for disability benefits, her initial 
        application was inexplicably denied. She has no health 
        insurance and was forced to leave a rehabilitation hospital due 
        to lack of insurance coverage. She also has no means to pay for 
        home health care. She does not qualify for any community-based 
        or state-funded programs because her husband's monthly 
        disability check places their family income above the income 
        eligibility levels. Despite medical evidence supporting the 
        severity and permanence of Ms. S's injuries and her dire 
        financial and medical needs, she is still waiting for a 
        decision on her request for reconsideration.
          <bullet> John_Dickinson, ND. ``John'' (his name has been 
        changed for privacy reasons) lives in the Dickinson, ND 
        vicinity. He has a chordoma, which is a rare form of a brain 
        tumor. In addition, he suffers from failing kidneys. The 
        radiation therapy that John underwent for his tumor is killing 
        off all of the glands in his body. John has been told by his 
        doctors that his condition will kill him. The only question is 
        when. John applied for Social Security disability benefits in 
        October 2006 and was inexplicably denied on December 29, 2006. 
        Because they are experiencing financial hardship paying for 
        John's medications and medical bills, John and his wife have 
        applied for heating assistance. With the assistance of his 
        attorney, John has filed a request for reconsideration and is 
        waiting for a decision. The sooner John can receive disability 
        benefits, the better he can live out his last days.

    B. Impact on post-entitlement work. These accumulated staffing 
reductions have already translated into SSA's inability to perform 
post-entitlement work, let alone reducing the backlogs in the 
disability appeals process. Not surprisingly, with millions of new 
applications filed each year, SSA emphasizes the importance of 
processing applications, determining eligibility, and providing 
benefits. Once a person begins to receive monthly benefits, there are 
many reasons why SSA may need to respond to contacts from the person or 
to initiate a contact, known as ``post-entitlement work.'' Generally, 
this workload does not receive the priority it should. Frequently, when 
SSA is short on staff and local offices are overwhelmed by incoming 
applications and inquiries, they are necessarily less attentive to 
post-entitlement issues. For people with disabilities, this can 
discourage efforts to return to work, undermining an important national 
goal of assisting people with disabilities to secure and maintain 
employment.
    One key example of post-entitlement work that has fallen by the 
wayside in the past is the processing of earnings reports filed by 
people with disabilities. Typically, the individual calls SSA and 
reports work and earnings or brings the information into an SSA field 
office, but SSA fails to input the information into its computer system 
and does not make the needed adjustments in the person's benefits. 
Years later, after a computer match with earnings records, SSA notifies 
the person was overpaid, sometimes tens of thousands of dollars, and 
sends an overpayment notice to this effect. These are situations where 
the individual is clearly not at fault. However, all too often, after 
receiving the overpayment notice, the beneficiary will tell SSA that he 
or she reported the income as required and SSA will reply that it has 
no record of the reports.
    When this occurs, it may result in complete loss of cash benefits 
(Title II benefits) or a reduction in cash assistance (SSI). It also 
can affect the person's health care coverage. To collect the 
overpayment, SSA may decide to withhold all or a portion of any current 
benefits owed, or SSA may demand repayment from the beneficiary if the 
person is not currently eligible for benefits. Not surprisingly, many 
individuals with disabilities are wary of attempting to return to work, 
out of fear that this may give rise to the overpayment scenario and 
result in a loss of economic stability and potentially of health care 
coverage upon which they rely. As a result of this long-term 
administrative problem, anecdotal evidence indicates that there is a 
widespread belief among people with disabilities that it is too risky 
to attempt to return to work, because the beneficiary may end up in a 
frightening bureaucratic morass of overpayment notices, demands for 
repayment, and benefit termination.

    C. Impact on performing continuing disability reviews (CDRs). The 
processing of CDRs is necessary to protect program integrity and avert 
improper payments. Failure to conduct the full complement of CDRs would 
have adverse consequences for the federal budget and the deficit. 
According to SSA, CDRs result in $10 of program savings for each $1 
spent in administrative costs for the reviews.\11\ The number of CDRs 
is directly related to whether SSA receives the funds needed to conduct 
these reviews. The number of reviews in 2006 was reduced by more than 
50%, due to the lower level of appropriations. Even though the great 
majority of CDRs result in continuation of benefits, the savings from 
those CDRs that result in terminations are substantial because of the 
size of the program and the value of the benefits provided.
---------------------------------------------------------------------------
    \11\ SSA FY 08 Budget Justification, p. 80.

    D. New caseloads are added without providing the funds to implement 
these provisions. Over the past few years, Congress has passed 
legislation that added to SSA's workload, but does not necessarily 
provide additional funds to implement these provisions. Recent examples 
---------------------------------------------------------------------------
include:

          1. Conducting pre-effectuation reviews on increasing numbers 
        of initial SSI disability allowances. SSA must review these 
        cases for accuracy prior to issuing the decision.
          2. Changing how SSI retroactive benefits are to be paid. SSA 
        must issue these benefits in installments if the amount is 
        equal to or more than three months of benefits. The first two 
        installments can be no more than three months of benefits each, 
        unless the beneficiary shows a hardship due to certain debts. 
        Many more cases will need to be addressed because under prior 
        law, the provision was triggered only if the past due benefits 
        equaled 12 months or more. With the trigger at three months, it 
        is likely that many more beneficiaries will ask SSA to make a 
        special determination to issue a larger first or second 
        installment.
          3. New SSA Medicare workloads. SSA has new workloads related 
        to the Medicare Part D prescription drug program, including 
        determining eligibility for low-income subsidies, processing 
        subsidy changing events for current beneficiaries, conducting 
        eligibility redeterminations, and performing premium 
        withholding. And beginning in FY 2007, SSA will make annual 
        income-related premium adjustment amount determinations for all 
        current Medicare beneficiaries for the new Medicare Part B 
        premium for higher income beneficiaries. SSA will also make the 
        determinations for new Part B applicants.
CONCLUSION
    Thank you for the opportunity to testify today. The examples of 
claimants from NOSSCR members demonstrate, in human terms, the terrible 
impact of the delays caused by the disability claims backlogs. We urge 
Congress to provide SSA with adequate resources to perform its 
workloads, which are vital to people with disabilities.

                                 <F-dash>

    Chairman MCNULTY. Thank you, Ms. Shor.
    Mr. Warsinskey.

 STATEMENT OF RICK WARSINSKEY, PRESIDENT, NATIONAL COUNCIL OF 
 SOCIAL SECURITY MANAGEMENT ASSOCIATIONS, INC., CLEVELAND, OHIO

    Mr. WARSINSKEY. Chairman McNulty, Congressman Johnson, and 
Members of the Subcommittee, my name is Rick Warsinskey and I 
represent the National Council of Social Security Management 
Associations. Our primary memberships are in the Social 
Security field offices and teleservice centers throughout the 
country but we do have some members in the hearings offices 
too. On behalf of our membership, I am pleased to have the 
opportunity to submit this testimony.
    SSA is facing many challenges. One of the most compelling 
is the 717,000 pending hearings, which take 508 days on average 
for a decision. In 2000, there were only 311,000 cases pending, 
taking on average 274 days to process. These severe delays are 
a national problem. They are found in the ODAR hearings offices 
throughout the country. For example, in the Albany, New York 
hearings office it takes on average about 484 days to process a 
hearing. In the Dallas North hearings office, it takes about 
579 days. The pending hearings are expected to continue to grow 
in Fiscal Year 2008 to about 768,000 cases and the processing 
times to increase even more to 541 days while SSA's total 
staffing is being cut by approximately 4,000 positions from 
Fiscal Year 2006 to 2008. As a result, there will be very 
little hiring in SSA. It is interesting to note that total 
Executive Branch employment is expected to increase 2.1 percent 
for Fiscal Year 2006 to 2008 while SSA's employment expects to 
drop by 6.2 percent. Every day SSA field offices and 
teleservice centers throughout the country are being contacted 
by people regarding the status of their hearings, as I am sure 
most congressional offices are. Many of these people are 
desperate and they have insufficient funds to live on and the 
delays only add to their sense of desperation.
    I would like to note that field offices are also being 
overwhelmed by about 68 million business-related telephone 
calls. The fact that the public cannot get through to SSA on 
the telephone is creating an overwhelming amount of walk-in 
traffic in many field offices. The field offices have seen a 
reduction of 2,000 positions in just the last 17 months and are 
probably at their most inadequate staffing level in recent 
memory. In the past couple of months, I have received hundreds 
of messages from SSA field offices management describing how 
the stress in their offices is incredible. Health problems are 
growing. It is truly a dire situation.
    Our organization realizes that the backlogs in hearings are 
critical. We wish field offices could assist in clearing these 
backlogs. We recognize the primary purpose of this hearing is 
to discuss the backlogs in SSA, especially in disability, and 
also to find some solutions. In the long term, we believe that 
the Agency's Disability Service Initiative will assist in 
stabilizing the hearing process. We also think that continual 
improvements in the management of the hearings process in ODAR 
are very important, but we truly believe that we will be back 
discussing the same backlog problem that is so devastating for 
so many Americans this time next year and the year after and so 
on unless we can provide the resources necessary to bring the 
backlogs down. It is time to come up with a solution.
    The Commissioner of SSA is required by law to provide an 
annual budget for the Agency. The budget amount submitted by 
the Commissioner for Fiscal Year 2008 is about $10.44 billion, 
which is about $843 million more than what the President has 
requested. The Social Security Trust Fund currently totals 
approximately $2 trillion. As you know, the Social Security 
Trust Fund is intended to pay benefits to future beneficiaries 
and finance the majority of the operations of the SSA. We know 
that $843 million is a lot of money but it is less than one-
twentieth of 1 percent of $2 trillion. Don't the workers who 
have paid into this trust fund with their taxes deserve to 
receive due consideration and receive the very benefits they 
have paid for in a timely manner?
    We urge Congress to provide SSA with enough resources to 
meet our responsibilities to the American public, your 
constituents. Resources are important, perhaps the most 
important element in addressing not only the backlogs in 
hearings but so many other challenges that we are facing and 
will continue to face in SSA.
    Mr. Chairman, I thank you for the opportunity to appear 
before the Subcommittee. I welcome any questions that you and 
your colleagues may have.
    [The prepared statement of Mr. Warsinskey follows:]
 Prepared Statement of Rick Warsinskey, President, National Council of 
     Social Security Management Associations, Inc., Cleveland, Ohio
    Chairman McNulty, Congressman Johnson, and Members of the 
Subcommittee, my name is Richard Warsinskey. I represent the National 
Council of Social Security Management Associations (NCSSMA). I have 
been the manager of the Social Security office in Downtown Cleveland, 
Ohio for nearly twelve years and have worked for the Social Security 
Administration for thirty-one years. On behalf of our membership, I am 
pleased to have the opportunity to submit this testimony to the 
Subcommittee.
    The NCSSMA is a membership organization of nearly 3,400 Social 
Security Administration (SSA) managers and supervisors who provide 
leadership in SSA's 1,374 Field Offices and Teleservice Centers 
throughout the country. We also have members in the Office of 
Disability and Adjudication Review (ODAR). We work closely with many 
other associations including the Federal Managers Association which 
represents the management in ODAR.
    We are the front-line service providers for SSA in communities all 
over the nation. We are also the federal employees with whom many of 
your staff members work to resolve problems and issues for your 
constituents who receive Social Security retirement benefits, survivors 
or disability benefits, or Supplemental Security Income. From the time 
our organization was founded over thirty-six years ago, the NCSSMA has 
been a strong advocate of efficient and prompt locally delivered 
services nationwide to meet the variety of needs of beneficiaries, 
claimants, and the general public. We consider our top priority to be a 
strong and stable Social Security Administration, one that delivers 
quality and prompt community based service to the people we serve--your 
constituents.
    Unfortunately, as we discuss prompt service, we cannot say that 
this is currently the case for hundreds of thousands of claimants that 
have filed for Social Security and SSI Disability benefits. Right now 
there are about 717,000 hearings pending. And at the moment it is 
taking 508 days, on average, for a hearings decision. Nearly 300,000 
hearings have been pending over a year.
    Every day SSA Field Offices and Teleservice Centers throughout the 
country are being contacted by people regarding the status of their 
hearings, as I am sure most Congressional offices are. Many of these 
people are desperate and have insufficient funds to live on and the 
delays only add to their sense of desperation.
    If we step back to the beginning of this decade, we will find that 
there were only about 311,000 hearings pending in 2000, and that the 
average time for processing was just 274 days. So the pending cases 
have grown 130% in six years, and the average time to process a case 
has increased by 234 days.
    SSA projects that the average time to process a hearing will 
increase by another 33 days, to 541, in FY 2008 if the Agency receives 
the level of funding proposed in the President's budget. SSA also 
expects the number of pending hearings to increase by another 51,000 
cases to 768,000 in FY 2008.
    These long waits occur after most claimants have passed the first 
two stages of their claim, having received an initial decision and a 
reconsideration. By this point, over 200 days have already passed by.
    These severe delays are a national problem--they are found in 
Hearings Offices throughout the country. For example, in the Albany, 
New York Hearings Office, it takes on average 484 days to process a 
hearing. For the Dallas North Hearings Office, it takes 579 days.
    About three years ago, Congresswoman Stephanie Tubbs Jones and 
Senator George Voinovich held separate hearings in Cleveland to discuss 
the backlogs in hearings; particularly in the Cleveland Hearings 
Office. Back then, the Cleveland Hearings Office had about 11,000 
hearings pending and it took on average 550 days for a hearing 
decision. Today, three years later, there are 1,300 more cases pending 
in this office--or 12,300 cases. And it has taken on average 555 days 
to process these cases this year.
    The root of this backlog started at the beginning of this decade 
when the number of new hearings that were being filed significantly 
exceeded the number of dispositions every year. It wasn't until 2006 
that the number of receipts and dispositions narrowed to such a degree 
that the pending hearings leveled off in the low 700,000 range.
    That is, at least, a little good news.
    But, as I mentioned above, the pending hearings are expected to 
continue to grow in FY 2008 to 768,000, and the processing times to 
increase to 541 days. This is not unexpected as SSA's total staffing 
including staff in our community based field offices is being cut by 
approximately 4,000 positions from Fiscal Year 2006 to Fiscal Year 
2008. As a result, there will be very little hiring done during this 
period--including in ODAR. It is interesting to note that total 
Executive Branch Employment is expected to increase 2.1% from FY 2006 
to FY 2008 while SSA's employment is expected to decrease by 6.2%.
    For Fiscal Year 2008, the President has proposed an increase for 
SSA of approximately $304.0 million over the estimated final level of 
funding for Fiscal Year 2007. And yet, staff is being cut. This is due 
primarily to the fact that salaries and benefit costs, including those 
for the Disability Determination Services, rent, and security costs, 
are totaling more than these increased funds. In Fiscal Year 2007, it 
appears that the funding for SSA will be just barely enough to avoid an 
Agency-wide furlough. Although a furlough at SSA may have been avoided, 
as it stands now the Agency will be forced into a near hiring freeze 
for the entire year after only being able to replace one out of three 
staffing losses last year.
    As a result, the FY 2008 President's budget will provide fewer, not 
additional, resources for SSA to assist ODAR.
    One might ask if SSA Field Offices could assist ODAR with their 
workloads. SSA community based Field Offices are probably at their most 
inadequate staffing levels in recent memory. Last year Field Offices 
could only fill one out of every eight vacant positions and this year 
they haven't been able to replace any of the positions they have lost. 
The Field Offices have seen a reduction of 2,000 positions in just the 
last seventeen months. This cut works out to an equivalent reduction of 
ninety-five Field Offices with an average office having twenty-one 
employees.
    Most of the cuts in Field Offices are in the critical positions of 
Claims Representative and Service Representative, those who assist the 
vast majority of the forty-two million visitors that come into Field 
Offices every year. Just last week, the week ending February 9, 2007 
almost 950,000 people visited Social Security Administration Field 
Offices. Field Offices are also being overwhelmed by business-related 
telephone calls. SSA Field Offices are receiving approximately sixty-
eight million phone calls a year. This is in addition to the forty-four 
million phone calls that are received by SSA's 1-800 number on an 
annual basis.
    The fact that the public can't get through to SSA on the telephone 
is creating an overwhelming amount of walk-in traffic in many Field 
Offices. Waiting times in many Field Offices are running two to three 
hours long. Some visitors are even experiencing wait times over four 
hours.
    The degradation of SSA's ability to provide good service can be 
seen by the results of a Harris Poll that were released on February 6, 
2007. This poll ranked SSA last when compared to other Agencies in 
response to the question:
    ``Overall how would you rate the job SSA does--excellent, pretty 
good, only fair or poor?'' Only 40% rated SSA as pretty good or 
excellent. The next highest (second to last) Agency had a rating of 
55%.
    The increase in hearings can be tied in large part to the baby boom 
generation aging to the point where the highest percent of disability 
claims are filed when they reach their 50s. Next year, in 2008, the 
first of seventy-eight million baby boomers will be eligible for Social 
Security retirement. So there will be a steady rise in retirement 
claims with SSA--along with an increasing number of contacts by the 
boomers with SSA once they start receiving benefits.
    At the end of 2006, there were 40.3 million people receiving 
retirement and survivor benefits. This figure is expected to rise by 
about 1 million a year over the next ten years and accelerate after 
this. SSA took about 3.3 million retirement and survivor claims last 
year. So we are looking at a significant increase in work for SSA 
offices.
    In the past couple of months I have received hundreds of messages 
from SSA Field Office management describing how the stress in their 
offices is incredible. Health problems are growing. It truly is a dire 
situation.
    I would like to share with you part of a communication I received 
from a member of Field Office management:

          ``We have lost five employees recently. Two had strokes in 
        the office in the last month and it may have been due to all 
        the stress. Another employee is retiring next month. We are 
        simply being hammered with work. The number of people visiting 
        our office is well beyond our capacity to handle them. About 
        30% of our visitors live outside our service area. We don't 
        receive staff for these extra visitors and the loss of staff 
        has made it an impossible situation.
          Adding to the severe stress is the sense of hopelessness that 
        we can't replace anyone that leaves. A lot of our work just 
        sits. We can't get to the appeals being mailed in. Internet 
        claims being sent to us just sit. People are interviewing all 
        day and have no desk time. Some days over two hundred people 
        come in. This is an incredible number of people to see for a 
        staff our size. We have given up even answering calls that come 
        into our office because there is no one to answer the 
        telephones.
          We really have a very dedicated and wonderful staff. But so 
        many are about to have a breakdown. We are just desperate to 
        get help. And how can we get help if there is a hiring freeze 
        in SSA?''

    Our organization realizes that the situation in ODAR is critical. 
But we also realize that the Field Offices are unable to assist with 
this situation because the situation in the Field Offices is just as 
critical and affects even more people.
    There are three areas of concern that must be examined in 
addressing the backlogs in ODAR. These areas are: (1) preparing the 
cases for the judges to hear; (2) cases that have been prepared but are 
still waiting for scheduling and a hearing; and (3) decisions that must 
be written after the hearing has been completed. Resources are needed 
in all three areas. If you only address two of the three areas, the 
backlogs will remain.
    For example, I was contacted by a Field Office manager from 
Pennsylvania. He told me that he had recently received a call from a 
very frustrated staff member in his local Congressman's office. Their 
frustration was that the cases were taking an extremely long time to be 
written up, which is necessary so that the case could be paid, even 
though the judge had decided to approve the case.
    One may suggest that the backlogs could be alleviated by shifting 
cases around the various ODAR offices. It is true that some offices 
have more backlogs than the other offices. This effort may decrease the 
variance in the backlogs and the time that it takes to process hearings 
cases in some offices, but we do not believe it will significantly 
reduce the backlog totals. Offices that assist backlogged offices will 
not be able to clear their own cases as quickly.
    Another question that many of you may have is if the Agency's 
Disability Service Initiative will take care of the backlog problem. We 
definitely support this initiative. This initiative is being rolled out 
in New England but will take a number of years to go nationwide. It has 
been suggested that SSA could accelerate the implementation. We believe 
the initiative needs to be fully tested first to ensure that it works 
as planned. The initiative is fairly complicated and a quick roll out 
would likely create a lot of logistical problems and might create more 
backlogs. So we do not see DSI as being able to help address the 
backlogs in the immediate future. But we think DSI, coupled with 
bringing down the backlogs as suggested through additional resources to 
SSA as will be described below, will provide a long-term solution.
    The Program Service Centers (PSCs) also play an important role in 
the processing of disability claims--especially the hearings. PSCs need 
to process approved Title II Social Security disability hearings. These 
cases are often very complicated especially when they involve worker's 
compensation and various offsets. So necessary resources must also be 
provided to the PSCs.
    In addition, the Disability Determination Services must have 
adequate staff to make decisions on their cases. The DDSs have lost 
approximately 650 positions since the beginning of Fiscal Year 2006. 
The Disability Determination Services were forced to slow down 
processing of reconsiderations for the last four months of Fiscal Year 
2006 in order to meet service obligations to Congress. This would not 
have been necessary if SSA had received adequate resources for Fiscal 
Year 2006.
    Finally, the Office of Systems which we understand is the largest 
computer system in the United States, with the exception of Defense/
Intelligence based systems, must also have adequate resources. Much of 
SSA's computer code needs to be updated and many projects to improve 
the Agency's systems could be completed more timely with additional 
funds.
    Any potential solutions suggested to address the backlogs in SSA 
must thoroughly examine all aspects of the process.
    Because SSA is an independent agency, the Commissioner is required 
by law to prepare an annual budget for SSA, which shall be submitted by 
the President to the Congress without revision, together with the 
President's request for SSA. This budget reflects what the Commissioner 
has evaluated as the level of funding necessary to meet the Agency's 
service delivery improvements and fiscal stewardship responsibilities 
through 2012. This budget also factors in that SSA has received less 
than the President's budget request in recent years, thus leading to 
the need for additional resources in the future to meet the full 
service delivery plan. The budget amount submitted by the Commissioner 
of Social Security for Fiscal Year 2008 is $10.44 billion. This $10.44 
billion is $843.0 million more than what the President requested. The 
difference between these proposed funding levels is significant. Of 
more significance is the difference between the final funding levels 
approved by Congress for SSA in comparison to the budget submitted by 
the Commissioner. Inadequate levels of resources have contributed to 
the growing inability at SSA to provide adequate levels of service.
    Let me point out, that the Social Security Trust Fund currently 
totals approximately $2.0 trillion. The Social Security Trust Fund is 
intended to pay benefits to future beneficiaries and finance the 
operations of the Social Security Administration. $843.0 million 
dollars is a lot of money--but it is less than 1/20<SUP>th</SUP> of one 
percent of two trillion. Don't the workers who have paid into this 
trust fund with their taxes deserve to receive due consideration and to 
receive the very benefits they have paid for in a timely manner?
    The Social Security Trust Fund contains the necessary resources to 
make up the difference between the level requested by SSA's 
Commissioner and the President. Yet, because of the levels of service 
that SSA and its various components that process disability claims are 
currently able to provide, many of these taxpayers must wait so long 
for service that they die before a decision is made on their case. They 
never receive the benefits that they have paid for. This also applies 
to receiving good service in Social Security Field Offices--it 
currently is not at the level it ought to be and people are not 
receiving what they have paid for and what they deserve.
    The NCSSMA believes that the American public wants and deserves to 
receive good and timely service for the tax dollars they have paid to 
receive Social Security. But Congress has to provide assistance on this 
issue. We urge Congress to provide SSA with enough resources to meet 
our responsibilities to the American public--your constituents.
    On behalf of the members of the NCSSMA, I thank you again for the 
opportunity to submit this testimony to the Subcommittee. Our members 
are not only dedicated SSA employees, but they are also personally 
committed to the mission of the Agency and to providing the best 
service possible to the American public. We respectfully ask that you 
consider our comments and would appreciate any assistance you can 
provide in ensuring that the American public receives the necessary 
service they deserve from the Social Security Administration.
    Again, Mr. Chairman, I thank you for this opportunity to appear 
before this Subcommittee. I welcome any questions that you and your 
colleagues may have.
    Chairman MCNULTY. Thank you, Mr. Warsinskey.
    Mr. Fell.

                                 <F-dash>

     STATEMENT OF JAMES FELL, PRESIDENT, FEDERAL MANAGERS 
         ASSOCIATION CHAPTER 275, ALEXANDRIA, VIRGINIA

    Mr. FELL. Chairman McNulty, Ranking Member Johnson, and 
Members of the Subcommittee, my name is Jim Fell and I am here 
today representing close to 1,000 managers in the SSA's Office 
of Disability, Adjudication, and Review, in my role as the 
president of the Federal Managers Association (FMA) Chapter 275 
and vice Chairman of FMA's Social Security Conference. Please 
allow me to take a moment to thank you for the opportunity to 
present our views to the Subcommittee. As Federal managers, we 
are committed to carrying out the mission of our Agency in the 
most efficient and cost-effective manner while providing 
necessary services to millions of Americans. Currently, I am 
the hearing office director in Cincinnati, Ohio Office of 
Disability, Adjudication, and Review and recently accomplished 
36 years of Federal service, 33 of which were within SSA and 27 
in SSA management, either in the field or in ODAR. Please keep 
in mind that I am here on my own time and my volition and 
speaking for FMA and not speaking for SSA.
    Each month SSA pays out benefits to 48 million 
beneficiaries. In ODAR, however, there currently exists a 
backlog of over 717,000 requests for hearings. It now takes on 
average over 500 work days to process a typical request for 
hearing and these delays tarnish SSA's otherwise strong record 
of service to the American public. In the last 5 years, the 
number of pending hearing requests has grown by almost 250,000 
despite record disposition rates in the last 5 years. Unless 
something is done to reverse the trend, the backlog could 
realistically reach 1 million by 2010.
    I am here today to confirm that the ongoing lack of 
adequate staffing levels and resources have contributed to 
these backlogs. If these inadequacies continue, clearing the 
backlogs will be impossible and service delivery will continue 
to deteriorate. In September 2004, FMA appeared before this 
Subcommittee to testify on the challenges and opportunities 
facing implementation of a new electronic disability process in 
SSA. At that time, we testified that the backlog will not 
decrease until staffing levels are increased and stated a 
desperate need for additional staffing. That request was 
unheeded. We are back today with a staffing situation unchanged 
and the backlog significantly larger.
    Adequate clerical staff is necessary to prepare cases for 
hearing. As it stands, hearing offices do not even have the 
staff to accommodate the judges on duty let alone enough staff 
to process the new 46,500 cases ODAR receives each month. If 
receipts even remained flat, the backlog will remain at over 
700,000 cases, almost one-third of which are over a year old.
    In addition to the current staffing shortfalls, over 40 
percent of SSA employees are expected to retire by 2014. 
Additional employees will be necessary to address both the 
burgeoning receipts and the stringent performance requirements 
of the DSI Initiative. For an example, an approximate 1,000 
additional ALJs and 5,000 additional support staff would allow 
ODAR to work down the backlog in 1 year and still provide 
timely processing. I understand realistically that is probably 
not going to happen. However, the continuing resolution, which 
passed the House and will likely pass the Senate, was severely 
inadequate to address both the staffing and the backlog problem 
in SSA in Fiscal Year 2007.
    To fix the problem, Congress should begin by passing the 
President's 2008 budget request of $9.6 billion for SSA's 
limitation on administrative expenses account. We see this as a 
start. It obviously will not let us attack the backlog. In 
addition to having an immediate impact on the current backlog, 
inadequately funding the SSA will negatively impact every 
service of the Agency. By fully funding the President's 
request, we at least can continue the tradition of employing a 
well-trained dedicated staff of Federal employees.
    In this era of shrinking budgets, SSA has attempted to 
maximize its use of the scarce resources to provide the best 
possible service to the American public. The challenges faced 
by the managers and supervisors are not short term, they are a 
demographic reality. The same citizens putting the stress on 
the Social Security Trust Funds because they are approaching 
retirement age are also entering their most disability-prone 
years. ODAR is struggling to handle the current workload and 
will be hard-pressed to manage the anticipated increase in 
hearing requests without additional staff.
    We are the men and women who work with the disabled 
Americans every single day. We see people of all ages come in 
and out of our offices seeking the services they depend on from 
the SSA. We are committed to serving the community of Americans 
in need, but we need you to provide us the necessary resources 
to help these people.
    Thank you again for your time, and I would be happy to 
answer any questions you may have.
    [The prepared statement of Mr. Fell follows:]

     Prepared Statement of James Fell, President, Federal Managers 
             Association Chapter 275, Alexandria, Virginia

Chairman McNulty, Ranking Member Johnson and Members of the House Ways 
and Means Subcommittee on Social Security:

    My name is Jim Fell, and I am here today representing close to 
1,000 managers in the Social Security Administration's Office of 
Disability Adjudication and Review (ODAR) in my role as the President 
of the Federal Managers Association (FMA) Chapter 275 and Vice Chairman 
of FMA's Social Security Conference. Please allow me to take a moment 
and thank you for this opportunity to present our views before the 
Subcommittee. As federal managers, we are committed to carrying out the 
mission of our agency in the most efficient and cost effective manner 
while providing those necessary services to millions of Americans.
    I have been President of FMA Chapter 275, Office of Disability 
Adjudication and Review Managers Association (ODARMA) for the last 8 
years. I am the Hearing Office Director in the Cincinnati, Ohio Office 
of Disability Adjudication and Review and recently accomplished 36 
years of federal service, 33 of which were within SSA. I have been in 
SSA management for 27 years, the first 12 years in SSA Operations in 
district field offices and the last 15 as a hearing office manager and 
now a hearing office director in ODAR. I was also an active member of 
the Hearing Process Improvement (HPI) Steering Committee created by 
former Commissioner Kenneth S. Apfel to study the effectiveness of HPI. 
Please keep in mind that I am here on my own time and of my own 
volition representing the views of FMA. I do not speak on behalf of 
SSA.
    Established in 1913, the Federal Managers Association is the 
largest and oldest association of managers and supervisors in the 
Federal Government. FMA was originally organized to represent the 
interests of civil service managers and supervisors in the Department 
of Defense and has since branched out to include some 35 different 
federal departments and agencies including many managers and 
supervisors within the Social Security Administration (SSA). We are a 
non-profit professional membership-based organization dedicated to 
advocating excellence in public service and committed to ensuring an 
efficient and effective Federal Government. As the ODAR Managers 
Association of the FMA, our members and their colleagues are 
responsible for ensuring the success of the administration of Social 
Security's disability determination process and in providing needed 
services to American customers.
    As you are undoubtedly aware, the Social Security Administration 
plays a vital role in serving over 160 million American workers and 
their families. Each month, SSA pays out benefits to 48 million 
beneficiaries. Over 7 million low-income Americans depend on the 
agency's Supplemental Security Income (SSI) program to stay afloat in a 
cost-inflating world, and nearly 7.2 million disabled Americans receive 
benefit payments through Social Security Disability Insurance (SSDI). 
In her May 11, 2006 message to the House Committee on Ways and Means 
Subcommittee on Social Security, former SSA Commissioner Barnhart 
testified that SSA's productivity has increased 12.6 percent since 
2001. Considering the magnitude of its mission, the Social Security 
Administration does a remarkable job administering critical programs.
    In the Office of Disability Adjudication and Review, however, there 
currently exists a backlog of over 717,000 requests for a hearing. It 
now takes an average of 500 work days to process a typical request for 
hearing and these delays tarnish SSA's otherwise strong record of 
service to the American public. At the beginning of 2002, SSA had 
468,262 pending hearing requests. In five years, that number increased 
to over 717,000, despite the fact that dispositions are at record 
levels. Unless something is done to reverse this trend, the backlog 
could realistically reach one million by 2010 with the aging Baby Boom 
generation.
    As managers and supervisors within ODAR, we are keenly aware of the 
backlogs and the impact these backlogs are having on our ability to 
deliver the level of service the American public deserves. We are here 
today to confirm that the ongoing lack of adequate staffing levels and 
resources have contributed to these backlogs. If these inadequacies 
continue, clearing the backlogs will be impossible and service delivery 
will continue to deteriorate. In September 2004, we appeared before 
this subcommittee to testify on the challenges and opportunities facing 
implementation of a new electronic disability process at SSA. At that 
time, we testified that the backlog will not decrease until staffing 
levels are increased and stated a desperate need for additional 
staffing, a warning which went unheeded. We are back today, with the 
staffing situation unchanged and the backlogs significantly larger.
    Former SSA Commissioner Jo Anne Barnhart created a service delivery 
plan to reduce backlogs in Social Security processing over a period of 
years, while meeting the agency's obligations to maintain high levels 
of program integrity. The advent of electronic disability files and the 
process changes included in the Commissioner's disability service 
reforms promise to improve the timeliness and efficiency for future 
claimants; however, these changes do nothing to address the pending 
backlog. The hearing offices lack sufficient staff to process the work 
on hand and are unable to even begin to work on new incoming cases.
    ODAR began fiscal year 2007 with 419,972 pending cases awaiting 
preparation for a hearing. In all likelihood, those cases will 
realistically wait at least one year before any action is initiated to 
prepare the case for review and hearing in front of an Administrative 
Law Judge (ALJ). Although clericals in hearing offices prepared 477,816 
cases in FY06, claimants submitted almost 558,000 new requests during 
the same period. As such, the backlog of files simply awaiting 
preparation for review by an ALJ at the close of January 2007 totaled 
413,260 cases; an increase of 19,088 cases since the beginning of 
Fiscal Year 2006. ODAR's processing time at the end of January was an 
embarrassing 499 days. The American public deserves better service.
    Within ODAR, production is measured by the number of dispositions 
completed per day by an Administrative Law Judge. In FY05 and FY06, 
this record-level figure was 2.2 dispositions per day per ALJ. A work 
year is approximately 250 work days, yielding a reasonable expectation 
that an ALJ can produce an estimated average of 550 dispositions a year 
given the current staffing level limitations. At the end of January, 
SSA employed 1,088 ALJs, resulting in a best case scenario of 557,150 
dispositions for FY07, which is about the same number of new cases 
filed in a given year.
    Adequate clerical support is necessary to prepare cases for 
hearing. As it stands, hearing offices do not even have the staff to 
accommodate the judges, let alone enough staff to process the new 
46,500 cases the Office of Disability Adjudication and Review receives 
each month. If receipts remained flat, the backlog will remain at over 
700,000 cases, almost one-third of which are over 365 days old.
    With the aging Baby Boom population, it is reasonable to assume 
that receipts will continue to out-pace dispositions. As the requests 
for hearings continue to rise, more is demanded from ODAR staff on all 
levels. The bottom line is that the hearing offices lack sufficient 
staff to process the work on hand much less even begin to work on new 
cases.
    It should be evident that under the best case scenario, the current 
staffing levels in ODAR can do nothing more than maintain the status 
quo. That means that the backlog stays the same and processing times 
continue at an estimated 500 days. We applaud the agency for 
introducing a new technology program and new procedures, which, if 
implemented successfully, will improve future processes and overall 
efficiency. However, the new systems cannot address the problems 
plaguing the current backlog and their impact cannot be fully realized 
until the backlog is reduced.
    The existing staff must make room for the new cases as they attempt 
to address the backlog. In recent years, however, the agency has made 
the mistake of hiring additional Administrative Law Judges without 
providing adequate support staff to prepare the cases for hearing. 
Commissioner Barnhart repeatedly stated that she hoped SSA would hire 
100 ALJs in FY07, but funding shortages have only allowed for less than 
40 new hires. We recognize that the Commissioner was trying to address 
the backlog by adding these judges; however, additional ALJs without 
the supporting clerical staff to prepare cases in a timely manner will 
not solve the problem.
    There is currently insufficient support staff to ensure optimal ALJ 
productivity and to handle the backlog. The accepted staff to ALJ ratio 
has been four and one half production staff per ALJ. However, this only 
ensures productivity necessary to handle incoming work, not the 
backlog. For offices with heavy backlogs, the four and one half to one 
standard is inadequate. Management and administrative employees should 
not be included in these figures, as they are not the employees 
performing the production work on hearing requests. And, of course, no 
staffing shortfalls can be remedied without adequate funding.
    The solution to the backlog problem is simply adequate staffing 
levels which will allow us to address the pending cases. As of last 
month, the backlog was at 717, 411 requests for a hearing. As noted 
earlier, a trained, productive ALJ, with adequate support staff, should 
be able to produce about 550 dispositions in a given year. 
Approximately 1,000 additional ALJs and 5,000 additional support staff 
would allow ODAR to work down the backlog in 1 year while providing 
timely processing of new cases as they arrive.
    In addition to the current staffing shortfalls, 40% of SSA 
employees are expected to retire by 2014. While hiring temporary 
employees may address the immediate challenge of decreasing the 
backlog, many new employees will be needed on a permanent basis. These 
employees will also be needed to address both the burgeoning receipts 
and the stringent performance requirements of the Disability Service 
Improvement initiative.
    The backlog of cases at the hearing offices must be addressed 
immediately by providing sufficient staffing in all positions. To 
enable SSA to meet the goals set forth in the previous Commissioner's 
service delivery plan, Congress must approve a sufficient level of 
funding for the agency. The Continuing Resolution (CR) which passed the 
House and will likely pass the Senate was severely inadequate to 
address the both the staffing and backlog problem at SSA in fiscal year 
2007 despite the meager increase above the fiscal year 2006 
appropriation.
    The President requested $9.494 billion in FY07, an amount which 
Commissioner Barnhart repeatedly stated was vital to sustain the 
agency. Even if SSA had received the full funding, SSA would have faced 
a loss of 2,000 positions, a number which will now be far greater due 
to the CR. The amount approved in the CR will undoubtedly cause a 
profound disruption of service to the American public, including 
significant increases of waiting times in field offices and added 
delays in the processing of appeals.
    To fix this problem, Congress should begin by passing the 
President's 2008 budget request of $9.597 billion for SSA's Limitation 
on Administrative Expenses account. In addition to having an immediate 
impact on the current backlog, inadequately funding the Social Security 
Administration will negatively impact every service area of the agency. 
SSA budgeted for a one-to-three ratio of staff retiring to the 
replacement of staff for FY06 and FY07, and any further reduction would 
force the agency to cut thousands of additional workyears.
    While the President's budget request for FY08 is a start, it is 
certainly not a cure all solution. Throwing money at the problem will 
not fully solve it without a well-trained, dedicated staff of federal 
employees willing to avert a crisis in the coming years. I believe this 
is the workforce we have now, strengthened by the leadership of 
Commissioner Barnhart in the last six years. By fully funding the 
President's request, we can continue this tradition.
    In this era of shrinking budgets, SSA has attempted to maximize its 
use of scarce resources to provide the best possible service to the 
American public. The challenges faced by the managers and supervisors 
are not short term; they are a demographic reality. The same citizens 
putting stress on the Social Security trust funds because they are 
approaching retirement age are also entering the most disability-prone 
years. ODAR is struggling to handle the current workload and will be 
hard pressed to manage the anticipated increase in hearing requests 
without additional staff.
    We are the men and women who work with disabled Americans every 
day. We see people of all ages come in and out of our offices seeking 
the services they depend on from the Social Security Administration. We 
are committed to serving a community of Americans in need, but we need 
you to provide us the resources necessary to help them. Thank you for 
your time and consideration of our views.

                                 <F-dash>

    Chairman MCNULTY. Thank you. I am really deeply grateful to 
all of you for being here today. When we talked to the 
Commissioner, we were talking in general terms about this 
problem; you make the problem real. Thank you, Mr. Schieber, 
for your advocacy. Ms. Shor, you cited, among other things, Ms. 
C from Troy, New York. Well, Troy, New York, is in my district 
so that is a constituent of mine. Here is an individual who, 
while the government bureaucracy was grinding forward, was 
evicted from her apartment, lost custody of her children, ended 
up in a homeless shelter, and was recently hospitalized. Now, I 
am sure there are other factors in play in Ms. C's life but 
certainly the failure of the government bureaucracy did not 
help in her situation. Mr. Fell, thank you for being specific 
about what we need to do in order to address this problem. I 
would also say Mr. Warsinskey mentioned perhaps a figure that 
would be helpful in addressing the staffing shortage and kind 
of implied that maybe we could take out of the trust fund. 
Well, it would be nice if the trust fund was there, if it 
wasn't just a fistful of IOU's. One of the things that I have 
been talking about for years is getting to the point in time 
where we are honest about budgeting in this country and that we 
end this 40 year practice of taking the Social Security surplus 
every year, stealing it, putting it in the general fund and 
using it for other purposes. Now, we have been doing that. On 
this issue, believe me, I do not make any political statement 
at all, I am an equal opportunity critic. Congress of both 
parties and Presidents of both parties have been doing this for 
40 years and it started with a Democratic President in your 
State, Lyndon Johnson.
    [Laughter.]
    Chairman MCNULTY, but it is wrong. It is wrong. Last year, 
we had a surplus in Social Security of $175 billion and not a 
penny of it went to Social Security recipients or was put aside 
for Social Security recipients. It was put into the general 
fund and it was spent on everything under the sun other than 
Social Security. People ask me from time to time when we are 
going to get serious about the so-called long term fix. Well, 
my cue on that will be when Members of both parties get honest 
in budgeting and start preserving Social Security Trust Fund 
moneys for Social Security recipients.
    So, thank you all for advocacy, and we hope to work 
together with you to seriously address this problem. Mr. 
Johnson may inquire.
    Mr. JOHNSON. Thank you. Lyndon also said, ``Every tombstone 
ought to be allowed to vote.''
    I like your insanity comment, it is appropriate not only to 
this issue but to the one we are addressing on the floor at 
this point too.
    I would like to ask all of you, if you don't mind, Mr. 
Schieber, who has testified not only in this Committee but in 
the Education and Labor Committee, which I was on too, he 
suggests a thorough evaluation to find policy improvements to 
make the program easier to administer. I think there are or 
there must be ways to simplify how Social Security is 
administered and it is not necessarily dollars and maybe not 
people, but can you all address, each in his own way, that 
subject? How can we fix the system in other words? Everybody 
says we need different rules. In other words, that Congress 
needs to do something. What do we need to do? I recall Social 
Security, let's see in 1994 I think we made it a separate 
Agency and yet they do not have the authority that a separate 
Agency in the government should have I don't think. For 
example, the President makes their budget request and sends it 
to us and there is no justification about why those dollars are 
there for the Congress.
    Mr. SCHIEBER. If you fix that problem, you might facilitate 
their ability to administer the existing program. That is not 
going to change the nature of administering the existing 
programs. The issue that came up earlier about ALJs, at some 
juncture, lawmakers became concerned that if these people were 
totally selected by, hired by, and reported purely to Social 
Security, they might not have the independence to provide fair 
judgment in cases.
    Mr. JOHNSON. That is why they did it that way.
    Mr. SCHIEBER. So, OPM has been given the charter of setting 
up these lists and then, when Social Security needs an ALJ, 
they send them a list of three or four or five qualified 
candidates off of their list that Social Security can then 
interview and hire. OPM got sued because of the exam they were 
giving and the way they were scoring exams back in 1997. They 
closed the list. They have not renewed that list for all 
practical purposes since 1997. When Social Security now needs 
an ALJ, they are sent a list of people that were identified as 
qualified in 1997. Now, I think if you went to Bill Gates and 
you told him that the way we want you to run your company going 
forward, as a cutting-edge software development company, is to 
hire off of a list of people that you had and you would 
consider qualified in 1997, he would declare you an idiot.
    Mr. JOHNSON. You just redefined insanity.
    Mr. SCHIEBER. Yes. Now, there are a whole variety of these 
sorts of things that need to be addressed but the overriding 
concerns always come back. We have been talking about it at the 
Advisory Board. We have been working on an issue brief and 
thought we had a draft issue brief ready to go on this matter. 
The fact of the matter is that about in 2005, 82 percent of the 
Federal ALJs worked at Social Security. Many of the things that 
they do is very different from what goes on in the other 
agencies. So the one thought was, well, let's let SSA have the 
responsibility for developing the qualifications and 
administering exams and making sure that they have got a 
renewed list, but, again, this issue of independence raised its 
head. So, there are these competing interests, they need to be 
worked through.
    In terms of disability, the definition for disability was 
set in 1957. Think about our economy in 1957 what it was, it 
was a manufacturing economy, manufacturing and rural economy. 
Think about what it is today. Is the definition of disability 
in 1957 appropriate for an economy that is now a service-
oriented, intellectually based economy? We need to re-think a 
whole variety of these things. Now, it is going to take some 
time and effort, but we ought to get under way and get on with 
the program.
    Mr. JOHNSON. Did your board make any recommendation?
    Mr. SCHIEBER. Have we made specific--well, we have made a 
recommendation that we ought to come back and re-visit the 
definition of disability. We are going to publish, I hope 
within the next month, this issue brief on the ALJs. As I 
indicated at the outset, I have been on the Advisory Board now 
for 9 years. Over that 9 year term, we have issued 21 separate 
reports or major statements on the disability program. Very 
frankly I am not sure we have made a lot of progress.
    Mr. JOHNSON. So, they are not paying attention to you. I 
would ask in lieu of my time being gone, if you all would mind 
putting in writing an answer to the question and send it to us, 
would that be appropriate? Thank you. Thank you, Mr. Chairman.
    Chairman MCNULTY. Mr. Becerra.
    Mr. BECERRA. Thank you, Mr. Chairman. To each and every one 
of you, thank you for your testimony. I am not sure where to go 
with you all because I think you all are stating what is the 
obvious and that is that the SSA does not have the resources it 
needs, that it knows it does not have the resources that it 
needs, that the White House knows that it does not have the 
resources that it needs, and the Office of Management and 
Budget knows that it does not have the resources it needs, and 
that Congress knows that SSA does not have the resources that 
it needs. The only folks that are suffering from all that 
knowledge are the beneficiaries who are not getting their 
benefits. Mr. Warsinskey, I sort of liked your idea and I think 
the Chairman sort of echoed it, that perhaps with that--what is 
it this year, $170 billion surplus in Social Security funding 
that is provided by people who are working and may in the 
future have to utilize these disability services and benefits, 
perhaps what we should do is take some of that money and use it 
to help provide the services that people have paid for.
    Let me ask a question to you, do you have a sense, Mr. 
Warsinskey, how many of the folks that you see that need to go 
through this process for benefits under Social Security, 
disability or otherwise, qualified for the majority of the tax 
cuts that the President has proposed over the last 5 years, 
these Bush tax cuts?
    Mr. WARSINSKEY. No, I do not think most of them qualify for 
it, no. Most of the people that apply are poor, frankly poor.
    Mr. BECERRA. We have actually--in these 5 years or so, we 
have actually seen about $2 trillion go out the door to pay for 
these tax cuts that have gone principally to folks who are 
making a sizeable amount of money. I suspect the millions of 
people who are waiting for these benefits that have applied 
have worked and paid for Social Security, hardly any of them 
are getting any of the $2 trillion that has been sent out in 
tax cuts. On top of that, those tax cuts have been paid for 
using Social Security Trust Fund dollars, and we still end up 
with a deficit. So, I hope you all will just be forceful. Do 
not let us off the hook either. Congress has the power of the 
purse. Certainly the President, as the Executive, has to come 
forward with a budget that is adequate. I do not think he has. 
I know that the SSA and the Commissioner are to some degree 
shackled in what they can say and how much they can ask for 
before Congress, but I hope you all will speak as loud as you 
can, especially with the examples of individuals who are 
suffering as a result of the entire Federal government's 
malfeasance in this regard.
    Mr. WARSINSKEY. Let me also point out, much was not said 
about it, but we just barely avoided a furlough in Social 
Security, just barely, and we are at a point of basically no 
hiring this year. It was going the other direction, fortunately 
we prevented that.
    Mr. BECERRA. I think, Mr. Chairman, we may want to take up 
the idea that I think--is it Schieber or Schieber?
    Mr. SCHIEBER. Schieber.
    Mr. BECERRA. Mr. Schieber came up with about disclosing, 
someone came up with the notion of disclosing the SSA's budget, 
proposed budget, that it submits to the Office of Management 
and Budget. I think that might be a good idea as well because 
it helps us identify where SSA says its needs are. Maybe what 
we can do is perhaps not do everything that SSA wants but 
certainly, based on their expert recommendation, know where we 
can target some of our moneys to try to make it work as well as 
possible, but first and foremost, I think all of us are 
becoming very--it is becoming very clear to us that we are not 
going to get there with the moneys that are being allocated to 
the SSA as it is, and we all have to sort of buck up a bit and 
be prepared to do the right thing.
    Mr. SCHIEBER. If you think about it, Social Security is a 
production shop to a very substantial degree. People walk in 
the door, they need a certain amount of processing. The way 
they actually develop these workforce budgets is they look at 
their expected caseload, and they have got reasonable estimates 
on what the time involved in each of the steps, and they start 
to take each of these steps and aggregate them across the 
people and they build it up from ground zero. It is in some 
regards exactly the way you want to do all budgeting.
    Mr. BECERRA. I think we want to heed though the words from 
Mr. Johnson as well because we do not want to just put more 
money in. If it is an inefficient system, let's clean up the 
inefficiencies because, just as Congress wants to get 
inefficiency out of any system, I think the beneficiaries want 
to know that every year that they work to contribute to the 
system, to the degree that they are going to need to have some 
of that back in disability benefits, it should be in disability 
benefits and not to pay someone who is not doing the job. So, I 
hope that you will continue to give us ideas on how to make the 
system more efficient and make sure we have the optimal level 
of personnel and the most qualified personnel as well. My time 
has actually expired so I am going to yield back. Mr. Chairman, 
I thank you very much for having the witnesses come.
    Chairman MCNULTY. Well, I want to thank all the Members for 
their participation today. In addition to responding to Mr. 
Johnson's last question, there may be other Members who were 
not able to attend today who might want to submit questions in 
writing, and I hope you will respond to those in a timely 
fashion.
    I want to express our enormous gratitude to you, not just 
for braving the weather to get here today, but for your 
advocacy day in and day out for our constituents. We thank you 
for that, and the hearing is adjourned.
    [Whereupon, at 3:45 p.m., the hearing was adjourned.]

    [Questions submitted by the Members to the witnesses 
follow:]
                        Questions Submitted by 
            Chairman McNulty and Mr. Johnson to Mr. Schieber

    Question: In your testimony, you suggest a thorough evaluation to 
find policy improvements to make the program easier to administer. Do 
you have suggestions for ways to simplify how Social Security programs 
are administered?

    Answer: First of all, let me acknowledge that much of the 
complexity in the Social Security programs is not accidental but 
reflects an attempt by Congress to achieve particular policy objectives 
or to minimize the program costs that would result from simpler rules. 
However, there may be cases where the complexity no longer serves an 
important policy objective or where multiple changes could be made that 
would produce savings in one area sufficient to offset the costs of 
simplification in another.
    For example, a significant part of the workload in Social Security 
field offices relates to the living arrangements and earnings rules for 
Supplemental Security Income (SSI) recipients. In the Social Security 
Advisory Board's 2005 Statement on Supplemental Security Income (a copy 
of which is attached),\*\ the Board described changes that could be 
considered to simplify both of these areas.
    Another area that might be examined is the issuance of Social 
Security cards. Most of the cards issued each year are replacement 
cards for people who have already been issued a number. This again 
constitutes a major workload for Social Security field offices 
involving substantial amounts of agency resources running to the 
hundreds of millions of dollars. While Social Security numbers are an 
important element of the program and have significant uses in income 
tax enforcement and in other areas, some have suggested that the cards 
themselves are not really necessary. This obviously is a matter with 
important policy implications that would need to be carefully 
considered, but it is an example of how careful evaluation of existing 
policies and procedures could provide Congress with information about 
what the costs and benefits are for many of the very complicated 
elements of the Social Security programs.
    It is important that SSA strengthen its analytic and research 
capacity. It needs to better understand, for example, the 
characteristics of potential applicants so as to better develop 
guidelines that will enable it to determine eligibility on a more 
objective basis. And it needs to undertake the types of evaluation of 
its own processes that can identify areas where administrative or 
legislative changes will let it carry out the program's policy 
objectives in more cost-effective and efficient ways.

    \*\ Referenced document is available at http://www.ssab.gov/
documents/2005SSIReport.pdf

    Question: Are there other ways to address disability backlogs, 
besides additional resources?

    Answer: The SSA handles multiple, massive workloads affecting the 
lives of nearly all Americans. There is no way to avoid the fact that 
it requires substantial administrative funding, in excess of the 
funding that has been provided in recent years, in order to carry out 
its service and stewardship obligations to the American public. 
However, there clearly is room for managerial and technological 
initiatives that will help to address the backlog and, in particular, 
will better position the agency to meet the continuing challenges it 
will face from growing workloads in the future. The Social Security 
Advisory Board has recently issued two reports directly addressing this 
question. In April, the SSAB published an issue brief on the need for 
improved processes for recruiting ALJs to assure that the agency has a 
sufficient talent pool and that that pool has the kinds of skills 
needed for the complex, production oriented SSA workloads. Last 
September, the Board issued a report expressing concern over the 
current state of the hearing process and making a number of 
recommendations for ways to improve it in addition to providing more 
adequate resources. In the Executive Summary of this report, the Board 
made the following points:

          In examining the hearing process, our goal is a process that 
        embodies the public's interests of fairness, consistency, and 
        efficiency. Our major concerns with the current process are 
        lack of consistency, processing times and backlogs, 
        productivity, hearing office management, and the SSA-ALJ 
        relationship.

                <bullet>  Our concern with consistency is based on 
                variations in allowance rates. The extent of variance, 
                supported by data from quality assurance reports, 
                suggests that ALJs may be applying law and agency 
                policy differently. SSA should ensure that its policies 
                are being applied consistently.
                <bullet>  Processing times and pending caseloads have 
                been rising to levels that impose an intolerable burden 
                on claimants.
                <bullet>  The extent of variation in productivity 
                indicates a need to explore the reasons for it and to 
                take steps to increase productivity at the lower end of 
                the spread and to ensure that the upper end is 
                appropriately balanced with decisional quality.
                <bullet>  The current condition of hearing office 
                management does not provide needed incentives and 
                supports.
                <bullet>  The relationship between SSA and its ALJs 
                seems to have improved since our last report on the 
                hearing process but still needs attention.

    I am attaching copies of these 2 publications (Recruiting SSA ALJs: 
Need for review of OPM role and performance, SSAB Issue Brief #3, April 
2007 and Improving the SSA's Hearing Process, Social Security Advisory 
Board, September 2006.)\*\ These publications are also available on the 
Board website www.ssab.gov. I would also note that the Commissioner of 
Social Security has recently announced a number of initiatives aimed at 
increasing the productivity of the hearing process, many of which seem 
consistent with the themes of the Board's recent reports.
    In addition, as I indicated in response to another question, the 
level of resources needed to administer the program can be 
significantly affected by the legislative and regulatory policies that 
make the program more or less complex. In some cases, a determination 
of allowance can be made by evaluating an applicant's medical condition 
relative to a set of regulatory standards called the Listing of 
Impairments. In other cases, a more subjective, complicated, and costly 
evaluation of the individual's age, education, and vocational history 
is needed before an allowance or denial determination can be made. In 
the Social Security Advisory Board's 2003 report on The Social Security 
Definition of Disability, it pointed out that, in the early years of 
the program, over 90 percent of cases were decided solely on the basis 
of the medical listings. That is now down to less than 50 percent of 
allowances. A careful reexamination of the listings in the light of 
current medical knowledge might make it possible to make many decisions 
earlier and on a more objective and less complex basis.

    \*\ Referenced documents are available at:

      http://www.ssab.gov/documents/ALJ_Issue_Brief_3.pdf
      http://www.ssab.gov/documents/HearingProcess.pdf

                                 ______
                                 
                        Questions submitted by 
             Chairman McNulty and Mr. Johnson to Mr. Astrue

    Question: In his testimony Mr. Schieber refers to the legislation 
enacted in 1994 making the SSA an independent agency. The law requires 
the agency's budget request to be transmitted to the Congress without 
change, with the President's budget request. Yet the only information 
included is the single number without any justification.
    Would you be willing to provide us the same justification materials 
your agency sent to OMB supporting the agency's budget request? If you 
want the Congress to provide you with the funds you need, do you agree 
that we need to fully understand the needs of the agency?

    [The response from Mr. Astrue is pending.]

    Question: If SSA were to receive the full amount of the 
Commissioner's request of $10,440 million for SSA's administrative 
expenses for FY 2008, what impact would this have on total SSA/DDS 
workyears, on initial claim and hearing office processing times, and on 
the number of cases pending at the initial claims and hearings levels?

    [The response from Mr. Astrue is pending.]

    Question: If SSA had received the full amount of the Commissioner's 
request for SSA's administrative expenses for the past five fiscal 
years (2002-2006), how would that have affected the disability claims 
backlog?

    [The response from Mr. Astrue is pending.]

    Question: For disability claims at the hearing level, what is the 
average elapsed time from: 1) the hearing date to the date of 
disposition; and 2) the date of disposition to the date payment is 
issued?

    [The response from Mr. Astrue is pending.]

    Question: What is the average processing time for each individual 
hearing office nationwide, according to the most recent data?

    [The response from Mr. Astrue is pending.]

    Question: Could you please provide the following data for each 
fiscal year from FY 2002 through 2006:

        <bullet>  The average processing times for initial claims not 
        including technical (non-medical) denials
        <bullet>  The average processing times for the reconsideration 
        level
        <bullet>  For initial claims, reconsiderations, and hearings, 
        the distribution of pendings by age of case (for example, the 
        number of initial claims pending more than 4 months, more than 
        6 months, etc.)

    [The response from Mr. Astrue is pending.]

    Question: When do you anticipate that OPM will have a new registry 
available to use for hiring ALJs? If the new registry became available 
in FY 2007, would you have the funding to hire from it? Would you have 
the funding to hire from the new registry in FY 2008: 1) under the 
Commissioner's LAE request; 2) under the President's LAE request; and 
3) if the appropriated LAE amount were less than the President's 
request?

    [The response from Mr. Astrue is pending.]

    Question: What percentage of your workforce is not working on 
claims processing? Is that the right percentage? Are you confident that 
every available employee is being used to process claims?

    [The response from Mr. Astrue is pending.]

    Question: As you know, since August, changes to the disability 
determination process are being implemented in the Boston region. Is 
there any update you can provide regarding how implementation is going?

    [The response from Mr. Astrue is pending.]

    Question: Given the agency's focus on increasing the use of 
telephone and online services, is the current field office structure, 
both in terms of staffing and office location, positioned to meet the 
service needs of the 21st century?

    [The response from Mr. Astrue is pending.]

    Question: One of your greatest challenges is likely to be how to 
spend the limited funds appropriated for the agency. Would you give us 
some insight as to what will guide you in your decisionmaking? 

    [The response from Mr. Astrue is pending.]

    Question: At the end of December 2005, the period for comments on 
the proposed rule to revise the Ticket to Work program closed. Since 
then, the public has been anxiously awaiting the publication of a final 
rule. What is the specific status of this rule? When do you expect to 
issue the final rule? Once the final rule is issued, when would you 
expect to implement it?

    [The response from Mr. Astrue is pending.]

    Question: In his testimony, Mr. Schieber suggests a thorough 
evaluation to find policy improvements to make the program easier to 
administer. We have asked your predecessors for legislative proposals 
to accomplish this, but have received no response. Would you be willing 
to conduct such an evaluation, to determine both legislative and 
regulatory changes? 

    [The response from Mr. Astrue is pending.]

                                 ______
                                 
             Questions submitted by Mr. Ryan to Mr. Astrue
    Question: Mr. Astrue, you mentioned in your opening statement that 
the SSA has made ``significant'' improvements in the processing time 
for appeals of hearing decisions. However, I am particularly concerned 
about the processing time for the previous step in the appeals process; 
obtaining a hearing. In Wisconsin, my constituents are experiencing an 
average waiting period ranging from 564 days in one ODAR office, up to 
606 days in another ODAR office--a 14% increase since I was told this 
problem was being addressed in a previous inquiry I made to the SSA's 
Inspector General in 2005. What is your plan for addressing this 
growing problem both in the short term and long term?

    [The response from Mr. Astrue is pending.]

    Question: Another concern I have is the ratio of decisions ODAR 
judges are issuing, which appear to reverse the State DDS' 
determination. Approximately one-third to one-half of the ODAR level 
cases that my office assists constituents with end in a reversal of the 
State DDS' decision. Is this rate of reversal proportional to other 
areas of the country, and does the SSA see a lack of uniformity in the 
application of standards by the various state DDS bureaus?

    [The response from Mr. Astrue is pending.]

    Question: Mr. Astrue, my office receives a number of inquiries from 
claimants who have been successful in receiving a favorable decision 
for disability benefits and have already been subjected to the five-
month waiting period, but have not yet received a payment from the SSA 
Payment Center in Baltimore. In addition, both my office and the SSA 
district offices have tremendous difficulty in obtaining updates on the 
status of payments still pending at the Payment Center. What can be 
done to make this system not only more user-friendly for SSA district 
offices, but also for Congressional inquiries?

    [The response from Mr. Astrue is pending.]

    Question: I have received a number of complaints from constituents 
who have requested an ODAR hearing, but who have had their cases re-
assigned to ODAR offices in States such as Montana, New Mexico and 
Texas. I was informed by the SSA that this step was being taken to help 
relieve the workloads from Wisconsin ODAR offices and to help expedite 
the processing of those cases. However, my office has found that these 
offices are experiencing similar sized case backlogs and are far less 
responsive to both my office and to my constituents' concerns when 
contacted. Has the SSA found this practice to be successful in other 
areas of the country, and is the SSA undertaking other immediate 
practices to help alleviate the backlog in ODAR offices?

    [The response from Mr. Astrue is pending.]

    Question: While the SSA's Chicago Regional Office has begun to add 
judges and staff to the various ODAR offices in Wisconsin, it has come 
to my attention that due to the increasing average age of the SSA 
workforce, retaining these added workers has become a challenge. Can 
you please share your thoughts on what you think needs to be done to 
recruit and retain qualified individuals for these important SSA 
positions?

    [The response from Mr. Astrue is pending.]

                                 ______
                                 
                        Questions submitted by 
              Chairman McNulty and Mr. Johnson to Mr. Fell

    Question: Are you confident that every available agency employee is 
being used to process claims?

    Answer: We are confident that all employees in the hearing offices, 
including management, are being used to process hearing requests.
    At the regional and headquarters levels, the answer is less 
definitive. Some of the regional offices, particularly in the more 
impacted regions, are providing case handling assistance in the form of 
case pulling and decision writing. We believe that there is limited 
hands-on claim processing at the headquarters level. Headquarters 
received 380 of the 872 Full Time Equivalents (FTEs) hired in fiscal 
year 2007 and it is unlikely that all of these positions are being use 
to process hearing requests. It is our position that a higher 
percentage of the FY07 hires should have gone to the hearing offices.
    The bottom line, however, is that every single agency employee is 
not enough to bring down the backlog. Without appropriate staffing 
levels to meet the growing needs of the agency, we will continue to 
fall further and further behind. It must be recognized that backlogs 
create work at an exponential level. Because we are unable to 
efficiently handle the work, more work is created in the nature of 
phone calls, mail, missing files, and a myriad of inefficiencies 
resulting from sheer numbers. This is the factor which must be brought 
under control.

    Question: Given the agency's focus on increasing the use of 
telephone and online services, do you think the current field office 
structure, both in terms of staffing and office location is positioned 
to meet the service needs of the 21st century? 

    Answer: This is not a significant component of work at the Office 
of Disability Adjudication and Review (ODAR). If this question was 
expanded to include electronic files, we would be able to respond in 
the affirmative. However, the backlog of paper files is delaying our 
ability to take advantage of the new technology.
    We believe that there must be significant expansion of the 
Electronic Medical Express (EME), which allows our representative 
community access to the electronic file. This will allow us to move 
more efficiently into the new process. We cannot afford to be receiving 
paper documents that must be scanned into electronic files, nor can we 
afford to print electronic files for the use of those who can't or 
won't use the electronic capabilities that are available.
    An analysis of the current workload in ODAR will clearly delineate 
the imbalance of offices, staffing and work. Case transfers have been 
tried in the past with very limited success. While building offices 
where the work is provides an expensive alternative, it must be done. 
Proposals that have been on the table for years have gone unheeded and 
the backlogs have grown to crisis proportions. There are no short term 
fixes.
    Video centers provide additional possibilities; however, there must 
be localized sites where the claimants can go for the process to occur. 
In many instances, cases from backlogged offices are transferred to 
offices with video capability. However, the claimants must go to the 
local impacted offices, tying up their resources, and negating the 
positive impact of the hearings because the local office cannot use a 
hearing room that is tied up with another office doing video hearings.
    SSA Commissioner Michael Astrue has talked about a central office 
video center. We believe that there should be multiple regional sites 
founded along this same premise. These sites would have the primary 
purpose of providing a hearing site in which the claimant could appear 
and resources through out the nation could be directed to conduct the 
hearings. These sites would not require full staffing but would require 
reception, guard, and contractor services.

    Question: As you know, since August, changes to the disability 
determination process are being implemented in the Boston region. Is 
there any update you can provide regarding how implementation is going, 
based on feedback from your colleagues?

    Answer: There is very little experience with Disability Service 
Improvement (DSI) at the hearing level. ODAR offices in Region I have 
not received enough DSI cases to be able to provide meaningful 
feedback. Region I offices are just now starting to see a regular flow 
of cases, so there is only a very small sample that have been prepared 
and scheduled for a hearing. The majority of the DSI cases are still 
with Federal Reviewing Officials (FedRO) in Falls Church, Va. We have 
anecdotal information that the FedROs are approving a much higher 
percentage of cases than were approved by the Disability Determination 
Service (DDS) at the reconsideration level and that the files are very 
well documented. If this information is accurate, it will definitely 
have a positive impact on ODAR as fewer cases will be received. 
However, the reality is that as long as a case is denied, it will be 
appealed. A well-documented denial will not be accepted as long as 
there is a no-cost appeal available.
    FMA concurs with Commissioner Astrue that the Quick Disability 
Decision (QDD) Model has been successful in its limited application and 
agree that the QDD model should be expanded to encompass a wider range 
of diseases.

    Question: In his testimony, Mr. Schieber suggests a thorough 
evaluation to find policy improvements to make the program easier to 
administer. What suggestions do you have for ways to simplify how 
Social Security programs are administered? 

    Answer: Commissioner Astrue outlined 36 initiatives in his Summary 
of Initiatives to Eliminate the SSA Hearings Backlog, submitted to the 
Senate Finance Committee on May 23, 2007, all of which, in one way or 
another, should make the program easier to administer. Focusing only on 
ODAR, it is our contention that the following initiatives and/or 
suggestions would make the program easier to administer:

          1. Close the record following the hearing. This would 
        alleviate post-hearing evidence that is often submitted 
        following a hearing further delaying the decision. Having a 
        definite closing date would also motivate representatives to 
        obtain relevant information supporting their claimant's case 
        and submit it timely. Having all of the evidence at the hearing 
        allows the administrative law judge to make an informed, 
        legally defensible decision.
          Secondly, requiring that all evidence be submitted at least 
        10 days prior to the hearing will ensure that the 
        administrative law judge (ALJ) has sufficient time to 
        assimilate the evidence into the file and give the ALJ 
        sufficient time to review the evidence prior to the hearing
          The Appeals Council often receives medical evidence that was 
        available prior to the ALJ's decision but was not submitted. If 
        it shows a new impairment or change in condition that the ALJ 
        was not aware of, it sometimes requires remand unless it 
        establishes disability. Thus, not only does it affect the 
        Council's review, it significantly delays a final decision in 
        the case and impacts the hearing offices workloads. The Council 
        has to delay processing in about half their cases in order to 
        provide the claimant an extension of time to submit such 
        evidence. This adds months to the process. If the record was 
        closed after the hearing, this would not be an issue and 
        Council would be able to work the cases sooner.
          Even after the Council denies a request for review, the 
        claimant can submit additional evidence which has to be 
        considered in terms of reopening. There is no limitation to 
        ongoing submission of evidence this may result in the Council 
        reworking a case multiple times as new evidence continues to 
        come in. This unnecessarily adds to our workload, often 
        invalidating prior efforts, and takes time away from reviewing 
        another individual's request for review.
          2. Improve ALJ productivity and accountability. The 
        Administrative Procedures Act (APA) has built in immunities 
        that often impede processing cases timely. All SSA employees 
        must be held accountable, including administrative law judges.
          3. Transition to the electronic environment will make the 
        program easier in a number of areas. One of the most labor 
        intensive jobs at the ODAR hearing offices is ``pulling'' 
        (organizing) the file, removing unwanted duplicate evidence and 
        numbering the judicial exhibits. The files in ODAR are quite 
        large and this function can take over 4 hours. E-Pulling will 
        reduce this task to minutes saving many hours of labor 
        intensive work.
          4. Review and update the disability regulations. People are 
        living longer now and SSA is still using rules that grant 50 
        year old benefits because they can only perform sedentary work. 
        There is much concern over the trust fund and how SSA will pay 
        for future benefits, yet guidelines and regulations for 
        awarding disability have not been brought current to reflect 
        longevity of life, improvements in medical care, and a more 
        modern society even though the retirement age has been 
        extended. Minimum wage is less than Substantial Gainful 
        Activity (SGA), so it is conceivable that someone could work 40 
        hours per week and still draw disability.
          5. Finally, our ability to administer our programs is 
        significantly impacted by out-dated hiring procedures and 
        untimely budgets. Although not directly related to policy, 
        these issues have a significant negative impact ODAR. Having 
        the ability to hire quickly without out-dated procedures such 
        as the ``Rule of Three'' and having budgets in October would go 
        a long way in helping ODAR meet its challenges.

    Question: Are there other ways to address disability backlogs, 
besides additional resources?

    Answer: Unfortunately, the answer to this question can already be 
seen in the current state of the backlog. We believe that the agency 
and its employees have done a heroic job in attempting to keep up with 
the work without the resources. Unfortunately this is no longer 
possible. Not only are there disability backlogs, but there are 
additional workloads which have received little or scaled back 
attention (CDRs, redeterminations, etc. . . .) and consequently are not 
considered part of the backlog.
    Initiatives to deal with the backlogs need to be developed in 
concert with management in the field. Because so many of the efforts 
are being driven from a high level, implementation is difficult at 
best. Many of the Commissioner's 36 initiatives will be necessary in 
the coming years. The one that would have the most immediate impact is 
improving ALJ productivity. This has long been a problem in the hearing 
offices and we would support whatever initiatives would assist with the 
establishment of accountability to the programs for employees at all 
levels, including ALJs.
    As noted above, inter-regional case transfers have, for all intents 
and purposes, failed to address the problems and have not resulted in 
any relief in the assisted offices. The level of transfers needed is 
already being labeled impossible. Something has to be done before the 
offices become unable to function. There is a wide disparity with 
regard to pending requests for hearings from Region to Region and 
office to office. For example, there were 164,756 pending requests for 
hearing in the Chicago Region at the close of May 2007, while there 
were 46,627 pending requests in the San Francisco Region. Both Regions 
have 20 hearing offices. The imbalances are striking with the average 
pending per ALJ in Chicago of 1001.64, while the average pending per 
ALJ in San Francisco is 387.26. The four ODAR offices in Ohio have 
41,086 requests for hearing or 88.1% of the Region's (IX) entire 
pending. Region IX was the recipient of the majority of Region V's 
transfers over the last several years, but the transfers have clearly 
failed to balance the workload. Seven of Region V's 20 offices have 
over 10,000 pending, with the pending per ALJ count for these offices 
between 967.27-1725 pending per ALJ, almost 5 times the ``ideal'' 
level. These imbalances are unconscionable.

                                 ______
                                 
                        Questions submitted by 
              Chairman McNulty and Mr. Johnson to Ms. Shor

    Question: In your testimony, you provided accounts of individuals 
who suffered serious hardships during lengthy waits for decisions on 
their disability claims. Are you aware of other individuals who have 
experienced such hardships? If so, could you provide us with accounts 
of their experiences as well?

    Answer: We have received many more stories from our members 
regarding claimants who are experiencing extreme hardships while 
waiting for decisions on their claims. Because of the number of 
stories, they are attached to this letter as Addendum A (p. 9) and are 
listed in alphabetical order by state. As demonstrated by these 
accounts, the situation of individuals with disabilities filing claims 
for benefits grows increasingly dire--families are torn apart; homes 
are lost; medical conditions deteriorate because they cannot obtain 
necessary medical treatment; many claimants die while waiting; and once 
stable economic security disappears.

    Question: In his testimony, Mr. Schieber suggests a thorough 
evaluation to find policy improvements to make the program easier to 
administer. What suggestions do you have for ways to simplify how 
Social Security programs are administered?

    Answer: We strongly support efforts to make the process more 
efficient, so long as they do not affect the fairness of the process to 
determine a claimant's entitlement to benefits. Any changes to the 
process must be measured against the extent to which they ensure 
fairness and protect the rights of people with disabilities. We support 
retaining several key components of the administrative process, which 
are listed below, because they are central to protecting the rights of 
claimants:

        <bullet>  The claimant's right to a de novo hearing before an 
        ALJ.
        <bullet>  The claimant's right to submit new evidence.
        <bullet>  The claimant's right to request review of an 
        unfavorable ALJ decision by the Appeals Council.
        <bullet>  The claimant's right to seek judicial review in the 
        Federal district courts and courts of appeals.

    We describe below several areas where the disability program can be 
made more efficient without impairing the rights of claimants:

        <bullet>  Improve full development of the record earlier in the 
        process

    Changes at the ``front end'' can have a significant beneficial 
impact on improving the backlogs and delays later in the appeals 
process, by making correct disability determinations at the earliest 
possible point. Emphasis on improving the ``front end'' of the process 
is appropriate and warranted, since the vast majority of claims are 
allowed at the initial levels.
    Developing the record so that relevant evidence from all sources 
can be considered is fundamental to full and fair adjudication of 
claims. The decisionmaker needs to review a wide variety of evidence in 
a typical case, including: medical records of treatment; opinions from 
medical sources and other treating sources, such as social workers and 
therapists; records of prescribed medications; statements from former 
employers; and vocational assessments. The decisionmaker needs these 
types of information to determine the claimant's residual functional 
capacity, ability to return to former work, and ability to engage in 
other work which exists in the national economy in significant numbers. 
Once an impairment is medically established, SSA's regulations require 
that all types of relevant information, both medical and nonmedical, be 
considered to determine the extent of the limitations imposed by the 
impairment(s).
    The key to a successful disability determination process is having 
an adequate documentation base and properly evaluating the 
documentation that is obtained. Unless claims are better developed at 
earlier levels, procedural changes will not improve the disability 
determination process. Unfortunately, very often the files that denied 
claimants bring to our members show that inadequate development was 
done at the initial and reconsideration levels. Until this lack of 
evidentiary development is addressed, the correct decision on the claim 
cannot be made. Claimants are denied not because the evidence 
establishes that the person is not disabled, but because the limited 
evidence gathered cannot establish that the person is disabled.
    A properly developed file is usually before the ALJ because the 
claimant's representative has obtained evidence or because the ALJ has 
developed it. Not surprisingly, different evidentiary records at 
different levels can easily produce different results on the issue of 
disability. To address this, the agency needs to emphasize the full 
development of the record at the beginning of the claim.
    We support full development of the record at the beginning of the 
claim so that the correct decision can be made at the earliest point 
possible. Claimants should be encouraged to submit evidence as early as 
possible. However, the fact that early submission of evidence does not 
occur more frequently is usually due to reasons beyond the claimant's 
control.

    Our recommendations to improve the development process include the 
following:

        <bullet>  SSA should explain to the claimant, at the beginning 
        of the process, what evidence is important and necessary.
        <bullet>  DDSs need to obtain necessary and relevant evidence. 
        Representatives often are able to obtain better medical 
        information because they use letters and forms that ask 
        questions relevant to the disability determination process. DDS 
        forms usually ask for general medical information (diagnoses, 
        findings, etc.) without tailoring questions to the Social 
        Security disability standard. The same effort should be made 
        with nonphysician sources (e.g., therapists, social workers) 
        who see the claimant more frequently than the treating doctor 
        and have a more thorough knowledge of the limitations caused by 
        the claimant's impairments.
        <bullet>  Improve treatment source response rates to requests 
        for records, including more appropriate reimbursement rates for 
        medical records and reports.
        <bullet>  Provide better explanations to medical providers, in 
        particular treating sources, about the disability standard and 
        ask for evidence relevant to the standard.
        <bullet>  Improve the quality of consultative examinations 
        (CEs). There is a need to secure higher quality CEs and to 
        increase the reimbursement rates for these examinations. There 
        are far too many stories about inappropriate referrals, short 
        perfunctory examinations, and examinations conducted in 
        languages other than the applicant's. This is wasted money for 
        SSA and unhelpful to low-income individuals who do not have 
        complete medical records documenting their conditions and who 
        need a high quality CE report to help establish their 
        eligibility.
Eliminate reconsideration
    We support elimination of reconsideration and adding some type of 
pre-decision contact with claimants.
    Since the late 1990's, SSA has been testing elimination of the 
reconsideration level in ten ``prototype states'' [AL, AK, CA, CO, LA, 
MI, MO, NH, NY, PA]. An analysis of the prototype testing, conducted 
about five years ago, showed positive results for claimants. Benefits 
were awarded at a slightly higher rate (40.4% vs. 39.8%) and about 135 
days sooner. Further, the overall accuracy rate was slightly higher 
under the prototype. For denied claims under the prototype, cases 
reached ALJs about 70 days sooner than under the traditional process. 
Thus, the preliminary results of the prototype showed that claims are 
awarded earlier in the process; that accuracy is comparable to non-
prototype cases; and that denied claims moved to the next level sooner. 
We have not seen any recent analysis of the prototype testing, even 
though it has continued in the ten states, other than New Hampshire for 
applications filed on August 1, 2006, or later under the new Disability 
Service Improvement (DSI) process.
    Elimination of the reconsideration level was scheduled to be 
implemented nationwide in 2002. However, SSA announced in mid 2001 that 
the nationwide rollout would be deferred pending further analysis 
because of increased administrative and program costs and increased 
appeals to the ALJ level.
    We support providing claimants with a face-to-face meeting with the 
decisionmaker. Until early 2002, the prototype testing included a pre-
decision interview, known as a ``claimant conference.'' We believe that 
the most beneficial features of the original objectives of the claimant 
conference should be incorporated. Early and ongoing contacts with 
claimants during the development process are goals that we strongly 
endorse. Many claimants' representatives and others would like to 
participate earlier in the process since they are able to assist the 
disability examiners in obtaining medical evidence and focusing the 
issues. The conferences also allow claimants to further explain their 
limitations.
Technological improvements
    Commissioner Astrue has made a strong commitment to improve the 
technology used in the disability determination process. We fully 
support the Commissioner in this effort, as we believe that much of the 
delay in the system could be rectified with improved technology. These 
initiatives could not only reduce delays, but also provide better 
service to the public and not require fundamental changes to the 
process.

        <bullet>  The electronic folder (eDIB). Commissioner Astrue is 
        moving forward with the electronic disability folder, ``eDIB.'' 
        In his testimony before the Senate Finance Committee on May 23, 
        2007, Commissioner Astrue's ``Summary of Initiatives to Reduce 
        the Hearings Backlog'' includes a number of features related to 
        eDIB.
        <bullet>  Electronic Records Express (ERE). Electronic Records 
        Express (ERE) is an SSA initiative to increase use of 
        electronic options for submitting records related to disability 
        claims. If working with an electronic folder, electronic 
        options can be used to submit additional evidence by submission 
        through SSA's secure website or by dedicated fax. A barcode is 
        provided by the SSA hearing office that is handling the 
        claimant's disability claim. The information in the barcode 
        directs the information submitted by the representative to the 
        claimant's unique disability folder. To participate in ERE, 
        representatives must first register with SSA. After 
        registering, they receive a user name and password.

    According to his ``Summary of Initiatives,'' Commissioner Astrue is 
proposing to expand the use of ERE to include providing direct access 
to the electronic folder, electronic mailing of notices and other 
correspondence, and filing appeals over the Internet.

        <bullet>  Findings Integrated Template (FIT). FIT integrates 
        the ALJ's findings of fact into the body of the decision. It is 
        a ``smart'' decision-writing process, i.e., while it does not 
        dictate the ultimate decision, it requires the ALJ to follow a 
        series of templates to support the ultimate decision. It is 
        available online to the public at: www.ssa.gov/appeals/fit. The 
        website allows representatives to use FIT to draft fully 
        favorable decisions for ALJs and the Chief ALJ has issued a 
        Memorandum to all Regional Chief ALJs endorsing use of FIT by 
        representatives. One NOSSCR member in Iowa reports that he 
        recently used FIT to draft a decision and received a fully 
        favorable decision for his client less than 2 weeks later.
        <bullet>  Video hearings. This allows ALJs to conduct hearings 
        without being at the same geographical site as the claimant and 
        representative and has the potential to reduce processing times 
        and increase productivity. Claimants and their representatives 
        have participated in video hearings in many locations and 
        states. Our members have reported a mixed experience, depending 
        on whether the video site is closer to home for claimants, the 
        quality of the equipment used, and the hearing room set-up. 
        Also, they report that the video hearing process is not optimal 
        for claimants and representatives with certain types of 
        impairments. We support the claimant's right, under the current 
        regulations, to opt out and have an in-person hearing.

    Question: Are there other ways to address disability backlogs, 
besides additional resources?

    Answer: After the February 14, 2007, Subcommittee hearing, NOSSCR 
developed a set of short-term recommendations for reducing the backlog. 
The recommendations are attached to this letter as Addendum B (p. 25). 
In his recent Senate Finance Committee ``Summary of Initiatives to 
Reduce the Hearings Backlog,'' the Commissioner included some 
provisions that are similar to our recommendations such as:

        <bullet>  Reinstating the senior staff attorney program. The 
        Commissioner is analyzing the feasibility of implementing this 
        program on a short-term basis.
        <bullet>  Allowing review of ``unpulled'' cases and hearings to 
        be held on these cases.
        <bullet>  Allowing representatives to submit draft favorable 
        decisions. As mentioned above, this has been authorized by the 
        Internet posting of the FIT templates and the Chief ALJ urging 
        ALJs to allow representatives to submit draft favorable 
        decisions.
        <bullet>  Continuing with implementation of technological 
        initiatives.

    Question: As you know, since August, changes to the disability 
determination process are being implemented in the Boston region. Is 
there any update you can provide regarding how implementation is going, 
based on feedback from your members?

    Answer: To date, the information about DSI implementation from our 
members primarily relates to the Federal Reviewing Official (FedRO) 
level. We have not had any reports from members who have DSI cases at 
the ALJ hearing level. Their comments regarding the FedRO level focus 
on four areas: (1) processing times; (2) ability to contact the FedRO 
assigned to a case; (3) medical evidence development; and (4) allowance 
rate vs. denial rate, compared to reconsideration.

        <bullet>  Processing times. Overall, the representatives are 
        not seeing cases decided more quickly than at reconsideration, 
        including denials. A sample of the comments includes the 
        following:

                <bullet>  An attorney in Massachusetts received two 
                denials at the end of May. These cases had been pending 
                at the FedRO level since October 2006.
                <bullet>  An attorney in New Hampshire notes that the 
                FedRO level is delaying decisions. Previously, New 
                Hampshire was a prototype state (see p. 3) where SSA 
                had been testing the elimination of reconsideration for 
                a number of years and initial denials were appealed 
                directly to the ALJ level.
                <bullet>  Another attorney in Massachusetts reported 
                that the FedRO cases ``seem to take forever,'' with 6 
                or more months the norm. He used to count on 3 to 4 
                months for reconsideration.

        <bullet>  Ability to contact the FedRO. The experience has been 
        mixed on the ability of representatives to contact FedROs. The 
        main reasons representatives want to contact FedROs are: to 
        discuss what additional evidence is needed; to discuss the 
        issues in the case; to expedite decisions in ``dire need'' 
        cases; and to request a copy of the CD, which contains the 
        evidence of record.

    An attorney in Rhode Island who is representing a number of clients 
at the FedRO level describes his experiences with the FedROs as 
``generally positive.'' He has spoken to some of the FedROs handling 
his cases. He describes them as ``on the ball'' and knowledgeable about 
the claims. A few of the FedROs called him first and he found that very 
helpful as he was able to discuss the issues in the case and what 
specific evidence was needed from treating sources. However, most of 
the FedROs do not initiate calls and since their direct phone numbers 
are not on the initial acknowledgment letter, the representative cannot 
make the first call to the FedRO.
    An attorney in New Hampshire has had less positive experiences: 
``My limited experience with FedRO shows that they take an 
unconscionably long time to decide claims and do not respond to 
requests to expedite decisions due to `dire need' as outlined in HALLEX 
I-2-1-40.'' On March 5, 2007, the attorney requested review by a FedRO 
for her client at the SSA district office. In a cover letter, she 
requested an expedited decision based on ``dire need' and enclosed 
notices of overdue and unpaid electric service bills and a letter from 
the bank with a notice of breach of the mortgage agreement. On April 9, 
2007, she faxed to the district office updated medical information from 
the treating physician and a memorandum in support of a favorable 
decision. Between April 9 and May 31, 2007, she also faxed updated 
medical records to the FedRO electronic file and, on May 31, 2007, 
another letter from the bank stating that a foreclosure sale would 
start on June 14, 2007. To date, the FedRO has not responded when asked 
what other information is needed for a decision and he has not 
responded to the ``dire need'' requests. The attorney notes that this 
lack of response is in stark contrast to the responsiveness of the 
Manchester, NH hearing office.
    Most representatives have found that the FedROs reply to requests 
for CDs relatively promptly at the beginning of the case so that the 
representative can review the record to determine what additional 
evidence is needed. However, one attorney noted that if the FedRO 
obtains new evidence, there is no duty to share that new evidence with 
the representative and it will not be on the CD obtained at the 
beginning of the case. Also, one representative reported that his 
office was recently told that the FedRO office was backed up and would 
let the representative know when the CD would be sent out, with no 
specific date provided.

        <bullet>  Medical evidence development. It appears that few 
        claimants obtain representation at the FedRO level. Where 
        representation is sought after the FedRO denial is received, 
        representatives do not find the cases fully developed in terms 
        of obtaining evidence from treating sources or evaluation of 
        subjective symptoms such as pain. These types of errors lead to 
        increased appeals to the ALJ level. A repeated concern is that 
        there is too much emphasis on objective medical evidence and 
        inadequate evaluation of credibility regarding pain.
        <bullet>  One representative in Massachusetts reported: ``I 
        just saw a FedRO denial. The claimant was pro se but had good 
        medical records and a strong case. It seemed as if the reviewer 
        was looking to deny benefits. Where evidence could have been 
        interpreted in a positive way, it wasn't.''
        <bullet>  After reviewing FedRO denials, an attorney in 
        Massachusetts found that overall, the FedROs do less real 
        development of the record, like soliciting treating source 
        opinions, than had been done by the DDS. He also found that the 
        evaluation of the claimant's past work, though done by a 
        vocational expert, is based on incomplete evidence, since 
        claimants are not asked specific questions about their jobs.

    Another concern is that the current configuration of the Office of 
Medical and Vocational Expertise (OMVE) is causing significant delays 
and affecting the FedRO decisionmaking process. As currently 
implemented, the OMVE does not provide the type of quality expert 
medical evaluations envisioned in the DSI regulations. Rather, requests 
for consultative examinations are handled by the state DDSs, the same 
as before DSI. And the Federal DDS reviews the cases in the situations 
required by the regulations. Our members report that referrals to the 
OMVE, which in reality is the Federal DDS, are resulting in longer 
processing times.

        <bullet>  Allowance/denial rates compared to reconsideration. 
        Generally, our members have found that there has been no 
        significant increase in the allowance rate at the FedRO level, 
        compared to reconsideration. In late April 2007, the FedRO 
        denial rate was 72%, only slightly lower than the 
        reconsideration denial rate of 76%. The experience of our 
        members is similar--they do not see any significant difference 
        in the denial rate at the FedRO level, compared to 
        reconsideration. At a session on DSI at the April 2007 NOSSCR 
        conference, we asked attendees whether they had received any 
        FedRO allowances and/or denials. The ratio of representatives 
        whose clients had received denials versus favorable decisions 
        was similar to the overall percentages.

    Other DSI issues. While our members have the most experience with 
cases at the FedRO level, there are a few other issues they raise 
concerning DSI:

        <bullet>  There have been some delays noted in sending appeals 
        to the FedRO when the appeal is filed in the district office. 
        This problem is likely attributable to the general workload 
        issues in district offices, which was raised in the NOSSCR 
        testimony for the February 14, 2007 Subcommittee hearing.
        <bullet>  Based on statistics received by NOSSCR in response to 
        a Freedom of Information Act, the first dispositions by ALJs 
        were all dismissals. Through the end of January 2007, of the 13 
        requests for hearing filed after FedRO denials, there were 8 
        dispositions, all dismissals. [Under the DSI regulations, the 
        claimant has the right to appeal an ALJ dismissal to the 
        Decision Review Board (DRB), after first presenting the request 
        to review the dismissal to the ALJ.] The information we 
        received does not explain the grounds for these dismissals, but 
        the numbers do raise concerns about inappropriate dismissals 
        for claimants who are proceeding without representation.
        <bullet>  The number of represented claimants at the FedRO 
        level is quite low, about 24% according to the statistics 
        received in response to the NOSSCR FOIA request. The initial 
        denial notice does not encourage claimants to obtain 
        representation at the FedRO level or provide information to 
        help them find representation resources.

                              ADDENDUM A:

         ADDITIONAL STORIES OF CLAIMANTS EXPERIENCING HARDSHIPS

ARIZONA
    An attorney in Prescott, AZ has had several clients who have lost 
their homes. One case involves a formerly stable family with six 
children. Due to the financial problems, the wife, who is not the 
claimant, developed a severe drug and alcohol addiction problem 
requiring in-patient treatment. The father, who is the claimant, has 
had difficulties following through with appointments because ``he just 
wants to give up.'' The father was a construction worker who had a 
solid work history. The attorney became involved after the hearing 
request was filed 7 months ago. He has sent in two requests for an on-
the-record decision but has received no response on either request.
    The attorney notes that this family has a history with delays in 
the disability claims process. The claimant's father was also disabled 
and some years ago applied for Title II disability benefits. After 
waiting a significant amount of time, the claimant's father went to the 
local SSA district office to check on his claim. He was told that no 
decision had been made and that it would still be some time before he 
received a decision. He returned to his truck, extremely frustrated and 
upset since he was running out of money. After feeling ill, he drove to 
a VA hospital where they found he had experienced a heart attack and he 
was admitted. The claimant's father died 3 days later.

ARKANSAS
    The client was diagnosed with a recurrence of breast cancer. She is 
Stage IV and probably meets the Listing for breast cancer, but she and 
her attorney have been unable to have SSA expedite her case. The client 
was a schoolteacher for thirty years.

COLORADO
    The client appealed a 2000 continuing disability review (CDR) 
decision to terminate benefits. The case was appealed to Federal court 
and was remanded by the judge in 2005 for a new hearing. The attorney 
wrote to the ALJ to expedite the case, but the ALJ now wants more up to 
date records. The client has degenerative disc disease which has 
deteriorated, based on current MRI evidence and statements from his 
doctors. The client has received VA service-connected disability 
benefits because his original injury was sustained in 1986 while he was 
in the Navy when he tried to ``catch'' a piece of falling equipment 
which came loose from a crane.
    While waiting for his case to be resolved, the client has 
experienced significant financial and family difficulties. He has 
consulted with a bankruptcy attorney. He has lost his family--his wife 
divorced him and his kids are living on their own or with their mother. 
He lost his house to foreclosure last year. He now lives with his 
elderly mother.

IDAHO
    An attorney has a client in Moscow, ID. The client worked as a cook 
and professional musician. He has a history of colon cancer and needs a 
colostomy bag. He now has bladder cancer (diagnosed while waiting for 
the hearing), in addition to gout in his legs and arthritis in his 
wrists. The client tried to work when he moved to Idaho but could not 
maintain employment due to his impairments and filed for disability 
benefits in August 2004. His claim was denied and he requested a 
hearing in June 2005. The hearing was not held until late March 2007, 
and a favorable decision was received 2 days after the hearing.
    To survive while waiting for his hearing, he was forced to pawn 
almost all of his belongings, including his musical equipment. The lack 
of income, in addition to his health conditions, created a crisis as he 
had no money and no health insurance. He ended up with few clothes, 
living in a subsidized apartment.
    He was able to petition the county for indigent funds to pay for 
his medical care and for supplies to service his colostomy (e.g., bags, 
seals, etc.). These funds are a no interest loan, not a gift. They are 
not provided automatically and a new application must be filed for each 
medical visit. He was also forced to get loans from his father and 
friends. This caused him embarrassment and stress worrying about how he 
would repay these debts for living expenses and medical care, 
especially given the cancer recurrence. He is not able to seek 
consistent and comprehensive medical care for his problems due to the 
lack of health insurance and long delay in deciding his case.
    An attorney in Boise, ID who has represented clients in Social 
Security disability claims for more than 20 years related the 
following:

          Over the past several years I have experienced delays 
        consistently more than 18 months from the time an ALJ hearing 
        is requested until it is held. Many times there are 6 more 
        months before the decision is issued. I have many clients who 
        have sold their homes, spent their life savings and filed 
        bankruptcy as a result of these delays. Most of my clients have 
        no medical insurance, so they are not being treated during this 
        time. To make matters worse, I had hearings this week in which 
        the ALJ informed me I had only 45 minutes to present my case, 
        which was mandated as a way to have more hearings per day to 
        reduce the backlog. You can imagine how frustrated a disabled 
        person would be after waiting 2 years for a ``fair'' hearing 
        only to be cut off by the judge.

    Another attorney represents clients in the north to north-central 
Idaho area. The hearing office in Spokane, WA covers this part of Idaho 
but does not have video hearing capacity for this area. This means that 
clients must wait for an ALJ to travel to Lewiston, ID to hold hearings 
and hearings are not held in Lewiston every month. ``We tell our 
clients at the start that they will have to wait at least 18 months to 
have a hearing.'' For clients without health insurance, there are few 
options and Idaho has no cash grant program. He provided the following 
case examples:

          Mr. A lives in Coeur d'Alene, ID. He obtained legal 
        representation about November 2005 and most of the time since 
        then he has been living in his truck without water and 
        electricity. The summers are hot and the winters are cold. He 
        has a borderline IQ, a traumatic brain injury, and a 
        personality disorder. He filed for benefits in May 2005, was 
        denied, and filed for a hearing in January 2006. In May of 2007 
        he received an on-the-record favorable decision after 
        Congressional inquiries and multiple efforts by his attorney to 
        get the hearing office's attention. During most of this period, 
        he had no income and no medical care.
          Ms. C, Genesee, ID applied for SSI benefits as a child in 
        September 2004. While this application was pending she turned 
        18 years old. Her medical history begins with extreme abuse 
        from her parents and moving from place to place with her 
        family. She finally settled in Genesee and lives with a cousin. 
        She has multiple severe mental health impairments. She 
        requested a hearing in July 2005. The hearing was held in March 
        2007 and she is waiting for a decision. Her Medicaid coverage 
        from TANF ended in September 2004 when she reached age 18. Her 
        financial assistance from Idaho ended at the same time. She 
        lived on the street with no medical or psychiatric care.
          Mrs. D, Pierce, ID worked in the lumber mills of north 
        central Idaho. The mill closed in 2000 and she was unable to 
        find any work. Her husband is also disabled. She had minor 
        children at home. While working, she injured her knees. She 
        experiences chronic severe pain as well as an inability to walk 
        even two blocks. She was not eligible for Medicaid. She 
        initially filed for benefits in March 2001 and was denied. She 
        reapplied in January 2003. Her hearing was held on October 19, 
        2006. She had no medical coverage and no income other than her 
        husband's benefits. At her hearing, the doctor said she was 
        disabled as of the original March 2001 application.
          An attorney in Sandpoint, ID represents clients with hearings 
        in Billings, MT, Kalispell, MT, and Spokane, WA. He notes that 
        the Spokane hearing office is a good office but is very far 
        behind in hearings. This has gotten progressively worse in the 
        past 5 years. One of the greatest frustrations is that there 
        have been several periods when ALJs cannot hold hearings 
        because the case handlers are too far behind and have not 
        pulled cases for hearings. Development by the Idaho DDS is 
        inadequate and ALJs are required to send claimants out for 
        additional development, which adds to the delay.

    Over the past 4 years, this attorney has had four clients commit 
suicide. One client with chronic pain took his life after an Appeals 
Council remand and while waiting months for a new hearing date. The 
attorney went with law enforcement to make positive identification of 
one of his clients. Northern Idaho has some of the poorest of the poor. 
The rough winter conditions increase the problem of not only 
maintaining housing, but heat. The attorney provided a few examples of 
his clients' circumstances:

          Ms. L is 51 years old and is from Priest River, ID. She has a 
        long history of mental health issues. She received SSI 
        beginning in 1991, but it ended when she married in 1995 and no 
        longer met the financial requirements. Her husband was killed 
        in a logging accident. She has no income or other source of 
        help. She filed a new SSI claim and her attorney requested that 
        the case be treated as a priority claim in June 2006. A second 
        request for an expedited claim was made in July 2006. The 
        hearing finally was held in April 2007 but the ALJ could not 
        make a decision and sent her for a consultative examination in 
        May 2007. The client may be homeless soon.
          Ms. B is a 60 year old widow from the Sandpoint, ID area. She 
        lost her husband 1 year before filing for disabled widows 
        benefits and disability benefits. She has arthritis and chronic 
        back and hip problems. She lost her house and had to live with 
        friends and relatives. Repeated requests for an on-the-record 
        decision were denied. Finally, after losing her home and most 
        of her possessions, she was approved after a hearing at 
        Spokane, WA hearing office.

IOWA
    A firm in Des Moines, IA has three attorneys who devote the 
majority of their time to representation of Social Security disability 
claimants. Their clients must expect to wait between 14 and 24 months 
for a decision on their claims, after requesting an ALJ hearing. One of 
the hearing offices where they represent clients is short two ALJs and 
six support staff, causing the backlog to grow significantly, despite 
the implementation of new technology. The impact on their clients is 
devastating:

          [L]ying just below each and every Social Security number 
        included in this mounting backlog is a living and breathing 
        individual, as well as--in the majority of cases--a household . 
        . . Virtually every day, our firm receives a phone call from 
        one or more of our clients who are slowly growing more and more 
        desperate as they grapple with foreclosure notices on their 
        homes, with eviction notices, with utility shut-off notices . . 
        . and . . . the loss of any access to medical care, often 
        coupled with the inability to buy medications and other 
        treatment.

    Several stories from the firm's clients describe how they and their 
families have been affected while waiting for their claims to be 
decided:

          Ms. H from Boone, IA was initially unable to work due to a 
        fractured pelvis and was subsequently diagnosed with 
        degenerative disc disease and osteoarthritis. She is not a good 
        candidate for surgery. She has not been able to work since 
        November 2003. She filed her application for disability 
        benefits in September 2004. She was denied and filed a request 
        for hearing in May 2005, which was held in August 2006. She has 
        not yet received a decision.
          She lives with a friend and gets food stamps. While waiting 
        for a decision on her claim, she has exhausted the money 
        withdrawn from her pension plan at work, in addition to the 
        penalties paid for early withdrawal. She has borrowed money 
        from her family and has taken out a lien on her car, which she 
        had already paid off. She has no medical insurance and has not 
        been able to get adequate medical care. She did apply for a 
        patient assistance program to get cheaper medication, but does 
        not like the idea of people knowing about her dire financial 
        condition. Due to the stress of wondering how she is going to 
        afford to live and take care of her medical needs while waiting 
        to get a decision on her claims, she has been diagnosed with 
        anxiety and depression.
          Mr. A from Altoona, IA had a workplace injury in February 
        2005 and has been unable to work due to chronic shoulder and 
        back pain with numbness. He had surgery in February 2007, but 
        the doctors believe it will not resolve the pain. He also has 
        been diagnosed with depression due to the pain and due to 
        stress about not being able to help meet the needs of his 
        family. He filed for disability benefits in February 2005 and 
        was denied. He filed a request for hearing in November 2005. He 
        received a notice in November 2006 that his case was ready to 
        schedule but no hearing date has been set.
          He lives with his wife and four children. His wife has 
        started to work to support the family but earns only $390 every 
        2 weeks. Due to his pain, he is unable to help care for the 
        younger children. They have had to borrow $6000 in loans from 
        friends to help pay for rent, household items and vehicle 
        repairs. His wife had an injury and was unable to work for a 
        month.
          Another client from Altoona, IA stopped working in October 
        2003. She had back surgery in March 2004 with numbness in her 
        left foot. She also has diabetes, which has caused hernias that 
        have required surgical repair. She has developed multiple 
        complications from the surgeries. Her diabetes is not well 
        controlled and her doctor is now concerned that she may have 
        early signs of kidney failure. She has Medicaid but must spend 
        down $1300 every 2 months before Medicaid will cover the 
        remaining medical costs. Her doctor would like her to go to the 
        University of Iowa Hospital for tests, but she does not have 
        transportation or gas money to go. She has many medical bills 
        and has three judgments against her for unpaid medical bills. 
        Her truck is not working but there is no money to fix it. Her 
        mother helps pay for some medications but this is a loan. One 
        of her medications costs over $150.00 per pill.
          The client applied for disability benefits in March 2005 and 
        was denied. After the reconsideration denial, she filed a 
        request for hearing in November 2005. Her hearing was finally 
        scheduled in April 2007.

      An attorney from Davenport, IA has a client who filed a request 
for hearing in June 2005. In April 2006, the hearing office sent an 
acknowledgment letter that the request had been received, but no 
hearing has been scheduled. She has degenerative disc disease and 
fibromyalgia, causing extreme pain. She has a long work history. The 
attorney received a letter from his client on May 16, 2007, describing 
her current situation:

        . . . I know its [sic] only been around 2 years, but it feels 
        like 10. My hands and my spine are getting really bad. [My 
        doctor] took x-rays and confirmed what I didn't want to hear . 
        . . My pain is getting out of control--My joints are growing, 
        and my fibromyalgia is slamming me with hammers, boots, rocks, 
        and knives. And due to our circumstances we've had to relocate.

KANSAS
    An attorney in Mission, KS has a client who is a veteran with 
diabetes and related neuropathy along with swelling in his ankles and 
toes and blurred vision. He also suffers from bipolar disorder with a 
history of anxiety, panic disorder and at least one suicide attempt. A 
hearing was requested for this client 2 years ago, on May 17, 2005.
    In June 2006, the attorney learned that his client was living in a 
VA transitional program but was 2 months behind in his rent payments. 
As a result, he immediately sent a request for an expedited hearing to 
the Kansas City hearing office. The request was denied because, 
according to the hearing office, the client's situation did not meet 
its requirements for an expedited hearing.
    In March 2007, the attorney learned that the client's transition 
program had been suspended. The attorney again requested that the 
client's hearing be expedited and was advised again that the request 
would be denied and that the case would be processed as a normal 
hearing. Days later, the VA program manager notified the client that as 
of April 1, 2007, he would be homeless due to his inability to pay 
rent. On March 29, 2007, the attorney yet again wrote to the Kansas 
City hearing office requesting an expedited hearing based upon the fact 
that the client was now homeless. As of late May 2007, no reply had 
been received nor has the case been set for a hearing.
    The attorney notes: ``I wish I could say that the above-described 
example was an exception to our experience in obtaining hearings for 
our clients. However, it is routinely taking 18 to 24 months or more 
from the date of a hearing request before these disability hearings are 
being scheduled. Too many of our clients suffer loss of residence and 
deteriorating health conditions while they are awaiting a hearing on 
their disability applications.''
    An attorney is representing a woman from Coffeyville, KS. The 
hearing request was filed in October 2005 and they just received 
notice, dated May 2, 2007, that the file is now ready for review. No 
hearing is scheduled. Since the appeal was filed, the client and her 
husband have had to file for bankruptcy. She just told her attorney 
that the Bankruptcy trustee is renting out their house, forcing them to 
move to a smaller, less expensive rental. They barely make ends meet, 
as she has over $1,300 in prescriptions each month. Fortunately, they 
have some medical insurance, but her co-pay is around $300, which is 
still a significant amount for a single income family.
    The same attorney has another client who has been waiting for a 
hearing since February 2006. He has been without medical insurance 
since being injured at work in 2001. His medical bills have mounted due 
to medications and necessary surgery, and he has to limit doctor calls 
to a bare minimum. He and his wife live on her $8.00 per hour job, and 
with the cost of medications (he is diabetic, in addition to many other 
medical conditions), they barely get by. So far, they have not lost 
their house, but he calls regularly to see if there is a hearing date 
because of their financial circumstances.
    Ms. A, Wichita, KS filed a claim for disability benefits in March 
2004 and filed a hearing request in January 2005. The original hearing 
office was Wichita, KS, but her case was transferred to the Omaha, NE 
office in order to expedite the hearing via video teleconferencing. The 
hearing was held in March 2006 and a supplemental hearing in June 2006. 
The representative's office made monthly status requests to the Omaha 
hearing office and was repeatedly told it was on the ALJ's desk. Then, 
in November 2006, an Omaha hearing office employee contacted the 
representative requesting a copy of the claimant's file because they 
could not find theirs. The representative forwarded a copy of the 
claimant's file the same day. The client finally received a decision, a 
denial of benefits, on April 18, 2007. The claimant waited 11 months 
after the hearing for a decision and is now appealing the ALJ's 
decision. Ms. A has extreme abdominal pain due to irritable bowel 
syndrome, anxiety, insomnia, depression and history of psychiatric 
problems for which she frequently obtains medical treatment. She would 
miss 2 to 5 days a week when working. Her hospital calls the 
representative monthly requesting a status on the client's claim as 
they are trying to collect on her unpaid bill.
    Mr. and Mrs. P are a married couple living in Wichita, KS. Mr. P 
filed for disability benefits on September 27, 2006. He has a 
degenerative disorder of the spine, asthma and mental impairments. He 
has been denied at the initial and reconsideration levels and filed a 
request for hearing earlier this year. Mrs. P filed her claim on August 
8, 2005, and her hearing acknowledgement was received on May 30, 2006. 
A request for an on-the-record decision was submitted on June 9, 2006. 
The request was denied and Mrs. P is waiting for a hearing to be 
scheduled. Mrs. P last worked as a home health care giver in August 
2005. She is diabetic, has neuropathy and nerve damage in her feet and 
legs making it difficult to balance or walk, and is now attending a 
mental health facility for depression. With neither Mr. nor Mrs. P 
working, the couple's utilities were shut off. They have no vehicle. 
And, they lost their home and were forced to move in with Mr. P's 
mother. A dire need request was made to the hearing office on April 13, 
2007. Her representative has asked about the status, but as of this 
date no response has been received. Mrs. P calls her representative 
daily to check on the status.
    The representative notes that individuals lose their State medical 
coverage prior to their hearings. They are allowed only 2 years of 
assistance through the State program and in some cases it takes longer 
than the 2 years to get scheduled for a hearing. They are left with no 
medical assistance for checkups and prescriptions. This also makes it 
extremely difficult to prove and document their disabling conditions.

MAINE
    An attorney has a client from Augusta, ME who has significant 
mental health impairments. The client receives general assistance to 
pay his rent, but has no income to buy gas for his car so that he can 
attend appointments. MaineCare will not pay for some of his 
medications, forcing his doctor to change his prescriptions to other 
medications which are not as effective.
    He is thinking of relocating to Massachusetts to live with family 
as he is really struggling. This concerns him because, in the past, he 
had substance abuse problems (likely related to self-medication due to 
bipolar disorder) and he is afraid he will connect to old friends and 
associates which may not be good for him. In late 2006, the attorney 
received notice that 44 of his cases were being transferred from the 
Portland hearing office to the Boston hearing office. Fourteen of these 
cases had hearing requests filed in mid 2005. So far, only one case has 
been scheduled for a June 2007 hearing date. Before the transfer, he 
filed requests for on-the-record decisions in two of the cases but has 
received no response.
    A Yarmouth, ME attorney has a client with serious, well-documented 
psychiatric impairments. He filed his application in mid 2004 and his 
request for hearing in early 2005. While the hearing was pending, he 
became homeless with his wife and two young children. He was evicted 
and lived with friends and in a shelter. His family could not stay in 
the shelter continuously due to the children. At times, he and his 
family lived in his car. A fully documented request for an on-the-
record decision was made, with an alternative request for an expedited 
hearing. The on-the-record request was rejected by a hearing office 
staff attorney. Months later, a hearing was scheduled--22 months after 
the request for hearing was filed. The ALJ issued a bench decision 
after a short hearing.
    Another client of this attorney is a young woman with a history of 
psychiatric treatment from early childhood. She filed her application 
in fall 2004 and her hearing request in spring 2005. The client had 
very unstable living conditions, and while waiting for a hearing, she 
underwent two psychiatric hospitalizations. The staff at the second 
hospital contacted the attorney, emphasizing the importance of the 
client obtaining benefits so she can have a stable living environment 
and medical coverage. Documentation was obtained and a request made in 
mid 2006 for an on-the-record decision. No response was received and a 
hearing was eventually scheduled 8 months later--and 23 months after 
the hearing request. While waiting, the client lost her Medicaid 
coverage; continued to live in unstable circumstances, moving between 
with friends and relatives; and did not receive adequate treatment. At 
the hearing the ALJ stated that he agreed with the argument made in the 
on-the-record request, but it had not been shown to him.
    Another client of the same attorney has multiple traumatic physical 
injuries due to falls from scaffolding and a roof. He lived in a 
backwoods cabin without running water. He required orthotic devices and 
further surgery but could not obtain them due to lack of resources and 
limited Medicaid coverage. He filed his application in late 2004 and 
his hearing request in fall 2005. While the hearing was pending, he was 
in severe pain, living in primitive circumstances, and unable to obtain 
the medical care he needed. A hearing was finally scheduled in spring 
2007--19 months after his hearing request. The ALJ issued a bench 
decision, allowing him to get the medical care he needed. The client 
remarked that this gave him ``a whole new life.''

MASSACHUSETTS
    A client lives in Pittsfield, MA. The original hearing request was 
filed January 2006 but was only logged in at the Springfield, MA 
hearing office in April 2007, some 15 months later. It appears that it 
was lost and eventually found at the Springfield, MA district office. 
The client's main impairment is depression. She also has been a 
domestic violence victim in the past. These impairments, along with the 
fact that she does not speak English as a first language have all made 
her the ideal candidate to fall through the cracks. The attorney first 
met her in February 2007. When the attorney called the Springfield 
hearing office shortly thereafter to locate the file, he was told that 
it was not yet logged in even though the hearing request was over a 
year old at that point. This is when the search for the file began. He 
began to reconstruct the file but then the original was found.
    The greatest hardship for this client was living in a shelter with 
two young daughters, having been in an unsafe situation. The husband is 
now in jail because of other activity, so she escaped the abuse, but 
also lost his financial support. She was placed in subsidized housing 
in Pittsfield, MA. While it provides shelter, she is very isolated in a 
new community with no family and no supports and virtually no services 
for Spanish speakers, which has meant a lapse in obtaining mental 
health services.
    Another attorney is representing a client from Worcester, MA who is 
currently homeless. The client has past work as a cashier, customer 
service agent, and doing temporary agency jobs. Her hearing was 
requested September 2006, and she is still waiting for a hearing date. 
She has 3 children--the oldest is in United States Air Force, but the 
other two children live with relatives. She has been living outside in 
the woods for the past three years. Recently, she began staying in 
rooming houses and is trying to get housing with a women's shelter. Her 
impairments include bipolar disorder, anxiety and depression, pulmonary 
disease, hepatitis C with sclerosis of the liver, arthritis, knee 
injuries from a past rape, and an enlarged heart. The client's health 
is deteriorating and she still does not have income to afford secure 
and safe housing.

MONTANA
    An attorney from Kalispell, MT, has a client who lost her home. The 
client's doctors have said that she is disabled due to back problems, 
depression and pain syndrome. Her attorney submitted a report from a 
vocational rehabilitation counselor who said that given the client's 
limitations she was not competitively employable. The client filed her 
application in May 2005 and her request for hearing in June 2006. Her 
attorney recently submitted a ``dire need'' affidavit to the hearing 
office, in which the client explains her circumstances:
    I was living in a mold-infested camp trailer for over 1 year 
without running water or a bathroom or cooking facilities. Now I live 
in an 8, x 20, building and I still do not have running water or a 
bathroom. . . . Even if I were somehow able to obtain a modest 
apartment, I wouldn't be able to afford electricity, water, garbage or 
sewer or the basic amenities to maintain an apartment and appease a 
landlord. . . . I have been unable to pay my treating physicians for 
nearly 4 years. . . . I hurt all of the time and I can no longer afford 
my medications. I have accumulated and continue to accumulate medical 
bills. I don't have any way to continue to receive treatment. . . . I 
suffer from depression and it is only getting worse as well. I consider 
suicide an option to fix my problems; I no longer can afford my anti-
depressants. . . . The stresses of having no money and becoming 
homeless are destroying my emotional, mental, and physical health. I 
have reached a breaking point and I am not sure how long I am willing 
to live this way. I will not be able to survive without shelter, money 
and medical treatment.
    An attorney for a non-profit legal organization reports that her 
organization, with several offices in Montana, has a combined caseload 
of over 600 Social Security and SSI disability clients at any given 
time. The organization has an average of 10 clients who die every year 
from conditions related to their disability while they are waiting for 
hearing. They routinely have clients who are living on the streets or 
in their cars while waiting for hearing. Because the state does not 
have general assistance or state medical assistance, many have no 
source of income and no health insurance coverage. The attorney finds 
that it takes on average over 2 years for a case to be processed. The 
organization also reports delays at the initial and reconsideration 
levels. The following stories are a few examples from the 
organization's caseload:
    A 49 year old Native American woman who lives outside of Helena, MT 
has uncontrolled diabetes with neuropathy in her feet and legs, bipolar 
disorder, recurrent pancreatitis, and other conditions. She has a solid 
work history of nearly 30 years and is raising her nephew who graduates 
from high school this month. In the 2 years since she filed for 
benefits, she has lost her car (Helena, MT has very limited public 
transportation and she lives outside of town effectively losing any 
means of transportation). She has been unable to afford her 
medications, including insulin, for several months at a time, thus 
making her medical conditions worse. She came within days of losing the 
property her trailer sits on because she was unable to pay the back 
taxes which were only $500. Her hearing was recently held and her 
attorney asked that the decision be expedited. She is currently waiting 
for her first SSDI check and past due benefits.
    A 49 year old Native American man who has chronic pancreatitis, 
chronic obstructive pulmonary disease, asthma, and other disabling 
conditions was living in his car during the Montana winter where 
temperatures are routinely below zero. He previously had suffered from 
frostbite of both his hands during the winter of 2004 when he was also 
living in his car. He was unable to stay at the local homeless shelter 
because of conflicts with other individuals. He waited for 2 years from 
the time he applied for benefits until he received them.
    A 47 year old woman has degenerative disc disease with herniated 
discs, severe depression and other disabling conditions. During the 
almost two years she has been waiting for benefits, she has lost her 
car, her house, her health insurance and her husband left her. She can 
not afford her medications and has been without them for months at a 
time. The consultative examination performed after her hearing revealed 
that she is actively considering suicide but was waiting until her son 
graduates from high school next month to follow through on her plan. 
The attorney hopes that a favorable ALJ decision will be issued in the 
near future.
    A 49 year old man with severe sleep apnea, cellulitis, coronary 
disease and rheumatoid arthritis has been waiting for benefits for 
almost two years. He has a high school education and has worked at hard 
physical labor jobs his entire life. His wife works but they can not 
afford the drug injections he needs for his rheumatoid arthritis and he 
is getting them through a program with the drug company. They have a 6 
year old child who helps his father as much as he can. This ``big, 
strong, tough'' Montana man broke down in tears during his hearing 
because it shames him so much that he cannot help support his family 
and he needs the government's help at this time in his life. The 
attorney and client are waiting for a favorable decision in his case.
    A 58 year old man diagnosed with paranoid schizophrenia, severely 
abscessed teeth, and other serious medical conditions waited over two 
years to receive his benefits. His dental problems led to infections in 
his blood stream which negatively impacted his mental illness making it 
much more difficult to control. When he did get his SSI past due 
benefits, he immediately had his teeth pulled and had dentures fitted. 
He needed to use his back award to pay for this treatment because no 
dentist will accept Medicaid for dental work in his community.
    A 49 year old survivor of domestic violence waited for over two 
years for her benefits. She suffers from post-traumatic stress disorder 
and also had a motor vehicle accident which resulted in head trauma and 
other injuries. She was living in a series of shelters until she was 
able to get into subsidized housing.
    A 7 year old Native American girl who was exposed to meth and 
alcohol in utero was adopted by a single mother who was unaware of her 
medical conditions. She has severe psychological, neurological and 
physical problems. She waited 2 years to receive SSI childhood 
disability benefits.
    A 7 year old boy, diagnosed with bipolar disorder, has severe 
psychological problems, which result in difficulties at school and at 
home. It was 3 years before he received SSI childhood disability 
benefits.
    A 60 year old registered nurse who has an excellent work history 
could no longer work because of physical and mental health issues. She 
and her husband went through great marital difficulties due to her 
depression and were unable to complete construction on their home 
because of financial problems and her inability to work. It took over 2 
years before she received benefits.
    A 35 year old mother of three had severe neuromuscular injuries 
that left her confined to a wheel chair. It was 2 years before she 
received benefits. During that time, her husband left her. As a result, 
she and her children were forced to move in with her mother until her 
benefits were received and she could get a home health aide to help 
her.
    A 31 year old radiology technician with a college degree suffers 
from a severe seizure disorder, resulting in major cognitive 
difficulties, which no longer allow her to work. She was forced to move 
in with her parents so they could help provide for her. It took over 2 
years for her to receive her benefits.
    A 51 year old woman applied for disability benefits in November 
2004. She lives in the northern part of Montana. She agreed to travel 
to have a hearing in Billings. The hearing was finally scheduled in 
January 2007. There are few ALJs covering all of Montana and they 
rarely travel to the northern part of the state.

NEW MEXICO
    Mr. R is a 36 year old father of four who has been diagnosed with 
Chronic Lymphocytic Leukemia, hypoxemia, depression, hematuria, and 
sleep apnea. He suffers from chronic pain, has been undergoing 
chemotherapy, and is on oxygen 24 hours a day. A former pipeline 
inspector, he has been unable to work since September 2005. He 
initially filed for disability in November 2005, and his request for 
reconsideration was denied on July 6, 2006. That July denial apparently 
did not take into account an on-the-record request filed by his 
attorney on June 27, 2006. He filed his request for hearing on July 17, 
2006, and on July 21, 2006, his attorney filed a renewed request for an 
on-the-record decision. To date, Mr. R has heard nothing about a 
hearing date and has heard nothing on his request for an on-the-record 
decision. He has now had to file for bankruptcy, since his wife's 
income as a bank teller is insufficient to support the family.
    A client who lives in Grants, NM applied for disability benefits in 
December 2005 due to kidney cancer. He was 61 years old at onset. His 
claim was denied and he filed a request for hearing in October 2006. 
His attorney advised the Albuquerque hearing office in February 2007 
that the client's cancer had spread to his lungs and pancreas. There 
was no response. His attorney also sent a proposed Findings of Fact to 
the supervisor of the decision-writers. The client died in May 2007 and 
the hearing office was advised of his death. The client's widow is now 
waiting for a response but there has been none.
    Ms. K suffers from Wegener's granulomatoesis, a disease that causes 
drastic inflammation which has settled in her pulmonary system and has 
affected her heart, kidneys, skin, and immune system. She is on oxygen 
24 hours a day. K is a 48 year old wife and mother. She has not been 
able to work in catering and food service since July 2003. Her disease 
went into remission but not enough to allow a return to work, which she 
had hoped for. As a result, she did not apply for disability benefits 
until July 2006. She did not know that waiting would affect her ability 
to receive Title II disability benefits. Because her disability insured 
status had expired, she could only apply for SSI, which was denied in 
September 2006. She filed her request for reconsideration in November 
2006, and is still waiting for a decision, 6 months later.
    A client who is Native American lives outside of Gallup, NM on a 
Navajo reservation. He filed his applications for disability benefits 
in early 2004 and his request for hearing in December 2004. He suffers 
from multiple impairments, including uncontrolled Type II diabetes, 
degenerative disc disease with chronic back pain, sciatica, and chronic 
renal insufficiency. He takes numerous medications. After many 
telephone calls and a letter to the Albuquerque hearing office, he was 
offered a hearing at the end of May 2007 at 8 a.m. in Albuquerque, 
because the Gallup hearing site was closed. He has difficulty riding in 
a car--Gallup is more than two hours from Albuquerque each way. It also 
is a financial hardship because it will require a hotel stay the night 
before the hearing. His objection to the hearing location was denied 
and he will try to attend, despite the hardships.
    A client who is Native American lives in Gallup, NM. He has a back 
impairment, post-fusion, and he is on numerous medications. He has 
depression and hypertension, which his doctor said may be secondary to 
pain. He is unable to participate in physical therapy because the 
therapist said he could not tolerate positional changes and he was 
unable to lie flat on his back or stomach without complaining of 
extreme pain in his lower back and right leg. His treating doctor wrote 
that the client is ``totally disabled for at least the next 2 years.''
    The request for hearing was filed in December 2005 and his attorney 
requested an on-the-record decision in July 2006, but there has been no 
response. The attorney updated the record with more reports in 
September 2006, to which there has been no response. The client was 
evicted from his apartment in August 2006. The attorney interviewed him 
and took photos of the shack where the client lives. It has a dirt 
floor and his 3 year old son sleeps on a blanket laid over the dirt. 
The attorney reminded the hearing office in March 2007 of the on-the-
record request and sent photos of the living conditions. A fully 
favorable on-the-record decision was received on March 26, 2007. The 
client requested an immediate emergency payment at the Gallup, NM SSA 
district office. They have not processed the request because they 
require proof of any TANF payments and wages. In addition, they want 
all of his bank statements, which he no longer has. The bank charges $2 
per page for copies and he cannot afford to pay that amount.
    A 52 year old man who lives in Portales, NM requested his hearing 
in October 2005 and it was finally held on May 1, 2007. Before becoming 
disabled, he owned his own business. He had to file bankruptcy recently 
and is expecting to receive the foreclosure paperwork shortly. He has 
experienced significant family problems as a result of the financial 
strain. He worries about being homeless and his mental impairments have 
been exacerbated by the delay on his disability claim.
    A client who has a 100% VA disability applied for Title II 
disability benefits. It took 2 years to get a hearing. His case was 
heard by an ALJ in October 2006 and as of May 11, 2007, he still has 
not received a decision.

NEW YORK
    A client in the Buffalo, NY area was 53 years old when she filed 
her claim. She had worked at a credit union for over thirty years, 
eventually becoming a senior loan officer. She suffered a traumatic 
brain injury when young, which began to severely impact on her ability 
to concentrate and she began making mistakes at work. She finally had 
to stop working in early 2005. She also had serious heart problems and 
major depression along with her cognitive problems. The wait at the 
Buffalo, NY hearing office is 2 years. As the waiting process went on, 
she lost her house to foreclosure, used up her entire 401(k), and lost 
the health insurance that she had been obtaining through COBRA. It was 
not until all these things occurred that she was eligible to file for 
``dire need'' at the hearing office. But by then, this middle-class, 
middle-aged woman was reduced to seeking help from social services who 
told her that she would have to move again since her $450 rent 
(including all utilities) was too extravagant. Her attorney sent all of 
this information to the hearing office with a request for an on-the-
record decision. She was approved on-the-record, but by then she had 
lost everything she had worked for her entire life.
    Ms. F lives in Bohemia, Long Island, NY. She has cancer of the 
brain and of the base of her skull and other impairments. She applied 
for disability benefits in July 2005. A hearing was requested in March 
2006. Her attorney has filed several requests for an on-the-record 
decision. All have gone unanswered and there is no date in sight for a 
hearing. She worked as a housekeeper for 25 years. But now she sees 
numerous doctors and the cost of obtaining medical evidence has been 
significant.
    A client requested a hearing in May 2005. The hearing, in the 
Queens, NY hearing office, was held in January 2007. The attorney and 
client were advised that a favorable decision would be issued. However, 
no decision has been received to date, even though the attorney has 
written and visited the hearing office twice about the case. There is a 
minor child who will be eligible for dependents benefits. The client 
has no income now to support the child.

NORTH CAROLINA
    Mr. F is a 47 year-old father of two young girls who has Listing-
level congestive heart failure, as attested to on multiple occasions by 
his treating cardiologist. He lives in Wilmington, NC. He applied for 
disability benefits in February 2004 and had his hearing in March 2006. 
While his wife works some, without his income the family could not pay 
the mortgage on their home. As a result, they were forced to sell their 
house in lieu of foreclosure and now live in a very small apartment. 
Every time Mr. F's attorney meets with his client and Mr. F's wife, he 
can see the toll the wait has taken on their marriage. This is not 
uncommon and can be much more disastrous than more readily identifiable 
hardships. Mr. F lost his COBRA health insurance coverage while waiting 
for his hearing. Now he has no insurance and, of course, cannot obtain 
insurance. His attorney submitted supporting documentation of Mr. F's 
disability to the hearing office and requested an expedited, on-the-
record decision, in order to allow Mr. F to continue his COBRA 
coverage. The request was not approved.
    As documented by echocardiograms, Mr. F's condition is worsening. 
Despite his treating cardiologist's efforts, the ALJ denied Mr. F's 
claim and he has filed an appeal with the Appeals Council. His lack of 
income and health insurance coverage continues.
    Mr. A is 50 years old and applied for disability benefits in 2003. 
He has a documented IQ of 63 and suffers from back issues and HIV. He 
now lives in an abandoned house, with the owner's permission, but has 
no electricity. He is hoping his case will be resolved soon because he 
doubts his ability to continue the hardships of another cold winter.

NORTH DAKOTA
    Ms. G is a 51 year old former cashier who lives in Dickinson, ND. 
She has a number of medical conditions which prevent her from working 
including: cervical and lumbar degenerative disc disease; spinal 
stenosis; coronary artery disease; atherosclerotic heart disease; and 
cardiac dysrhythmias. While waiting for her hearing, Ms. G underwent 
extreme financial difficulties, and was teetering on the edge of 
bankruptcy. She had reached the limit on her credit cards and borrowed 
money from everyone who would lend it to her in an effort to pay her 
rent, buy some food, and most importantly, pay for her medications. Her 
attorney received many desperate calls from Ms. G about her need for 
disability benefits and asking why it was taking so long. Her attorney 
tried to help by referring her to for food stamps and heating 
assistance.
    Ms. G was so desperate to get a hearing date that she called all of 
her Members of Congress to ask for their assistance and wrote a letter 
to SSA about her situation:

          The reason I am writing is I really need help bad. I've been 
        unable to work for 1 year and 2 months now. I've zeroed out my 
        checking account, maxed out 3 credit cards paying bills and 
        purchasing medicine. In July [2006] they finally gave me food 
        stamps help of $152.00 a month thank God for that things are 
        finally looking up for me, and then I had a heart attact (sic) 
        in July 2006 they had to put 3 stints (sic) in my heart. What 
        hurts is the medicine [is] $300.00 every 2 weeks I don't have 
        it, Medicade (sic) won't help me unless my disability goes 
        through. The doctor said I have to take the medicine or I won't 
        make it so I'm asking to please help me by speeding up my 
        appeal hearing. I know from taking (sic) to the Senator, 
        Governor and Congressmen that you are really piled with work 
        but I have no place else to turn to help. I pray to God that I 
        will receive help soon.

    Ms. G is in payment status now because she received a fully 
favorable on-the-record ALJ decision, 9 days before her hearing. 
However, she had to wait nearly 2 months before receiving her first 
check.

OREGON
    An attorney in Portland, OR reports that, in the last 18 months, he 
has had 15 clients die while waiting for a hearing, which averages 
about 2 years in the Portland, OR hearing office. Two of his clients 
were suicides, including one hanging. Two other clients were terminally 
ill and their requests for on-the-record decisions were not acted upon 
before their deaths. In one of those cases, the decision was mailed 2 
days after the client's death. Others in the group were uninsured, had 
no effective medical care, and had medical symptoms that went 
untreated.
    One of this attorney's clients, Mr. A, had worked in construction 
and in a chicken production factory. He died in June 2005 at age 41 of 
hypertensive cardiovascular disease. He also had been diagnosed with 
undifferentiated schizophrenia, recurrent major depression, 
degenerative disc disease, and mild mental retardation. He was 
frequently homeless and moved around between family and friends. He 
requested a hearing in November 2004. A hearing was finally held in 
2007, more than 2 years later and long after his death. If there is a 
favorable decision, his mother will be eligible for the past due 
benefits.
    An attorney in Bend, OR has a client who applied for disability 
benefits in March 2004. She requested a hearing in November 2004. The 
hearing was held 8 months later, but it took 14 months for a favorable 
decision to be issued. The client had to wait 5 more months before she 
began to receive benefits. It took nearly 3 years from the date of 
application until she received her benefits.

TEXAS
    Ms. B filed for disability benefits in June 2001 with cervical and 
lumbar disc disease with chronic pain. She had prior problems with her 
back and neck but the situation became worse in June 2001 after she was 
kicked by a horse. At the time of her accident she was in her late 
thirties. Ms. B has two young children.
    Ms. B's first hearing was held on April 21, 2003; a supplemental 
hearing was held on October 2, 2003. A decision denying Mrs. B benefits 
was issued on November 26, 2003.During the entire period at issue Ms. B 
had difficulty obtaining health care due to the inability to afford 
treatment that her doctors recommended. In August 2004, Ms. B's 
husband, a pilot, divorced her and left her with the children. For a 
brief period she was able to get Medicaid, but then lost that coverage. 
In February 2005 the Appeals Council remanded the case for a new 
hearing. At that point Ms. B had to wait until September 29, 2006 to 
have her remand hearing. After that hearing a favorable decision was 
finally issued in October 25, 2006, nearly 5\1/2\ years after her 
application was filed.
    Ms. X is a 41 year-old former broker with a Master's Degree from 
Dallas, TX. She has chronic fatigue syndrome (CFS) and filed her 
application for disability benefits in November 2002. Her hearing was 
not held until May 2005. She received an unfavorable ALJ decision and 
appealed to the Appeals Council. The Appeals Council remanded her case 
for another hearing on March 17, 2006. One year later, she is still 
waiting to have the second hearing, nearly four and one-half years 
after her application was filed.
    Before her CFS diagnosis, Ms. X was a high wage-earner in the 
$60,000 range. She is single and, after filing for disability benefits 
in 2002, she no longer had any income or health insurance. 
Consequently, she lost her home and has gone through her savings to pay 
for medical care. She began living with a series of friends and now is 
living with her elderly parents. Her symptoms have not improved and are 
steadily worsening. She cannot afford private medical insurance and is 
now relegated to indigent care. She has no home, no car, no saving, no 
income, and no health insurance.

WASHINGTON
    While his appeal was pending, a veteran from the Spokane, WA area 
with multiple physical and mental problems became homeless and was 
living at a local mission. Before becoming disabled, he successfully 
worked selling recreational vehicles and cars. His claim was ultimately 
approved following after a hearing. His attorney relates: ``I still 
remember leaving the hearing with him, driving him to the mission where 
he picked up a paper bag with all of his possessions, and then driving 
him to the local VA hospital where he began in-patient treatment for 
his medical conditions.''
    A woman from Spokane, WA filed her claim for disability benefits in 
October 2004 and requested a hearing in August 2005. While waiting for 
a hearing date, she died in the past year from the impairments that 
formed the basis of her claim. A hearing was held in 2007, with the 
case continuing on behalf of her surviving children.

WEST VIRGINIA
    An attorney in Wheeling, WV represents an individual who has a 
solid work history as a longtime municipal government employee (a 
supervisor of a water treatment plant). This gentleman is having 
serious financial problems. His attorney has forwarded to the ALJ in 
the Morgantown, WV, hearing office eviction notices and detailed 
letters explaining the case for an on-the-record decision. No response 
has been received. Nor has a hearing been scheduled. The attorney 
relates that a great majority of his clients call him often and 
complain of their financial problems, which are worsened by the 
processing delays. The attorney also notes a significant problem with 
the Wheeling, WV SSA district office. Apparently, they do not have a 
full-time person to handle appeals, and cases can sit there for 4 to 6 
months or longer after the appeal documents have been received.

                              ADDENDUM B:
             NOSSCR RECOMMENDATIONS TO ADDRESS THE BACKLOG

    Title II and SSI cash benefits, along with the related Medicaid and 
Medicare benefits, are the means of survival for millions of 
individuals with severe disabilities. They rely on SSA to promptly and 
fairly adjudicate their applications for disability benefits, and to 
handle many other actions critical to their well-being.
    SSA is generally doing a good job with limited resources and has 
improved its technological capacity in ways that will help to 
accomplish its work. However, under the current budget situation, 
people with severe disabilities have experienced increasingly long 
delays and decreased services in accessing these critical benefits. 
Processing times have continued to grow, especially at the hearing 
level where the delays have reached intolerable levels. In some hearing 
offices, our members report that claimants wait more than two years 
just to receive a hearing, which does not count the time for a decision 
to be issued.
    We believe that the main reason for the increase in the disability 
claims backlogs is that SSA has not received adequate funds to provide 
its mandated services. This paper provides some additional short-term 
suggestions for addressing the backlogs.

PROVIDE SSA WITH ADEQUATE RESOURCES TO MEET CURRENT AND FUTURE NEEDS
    To reduce delays, better develop cases, and implement technological 
advances, SSA requires adequate staffing and resources. NOSSCR supports 
commitment of sufficient resources and personnel to resolve the waiting 
times and make the process work better for the benefit of the public. 
To meet this need, NOSSCR has been a strong supporter of efforts to 
ensure that SSA receives adequate funds in its administrative budget 
for fiscal year 2008.

IMPROVE DEVELOPMENT OF EVIDENCE EARLIER IN THE PROCESS
    SSA can improve development of the record at the beginning of the 
claim so that the correct decision can be made at the earliest point 
possible. Claimants should be encouraged to submit evidence as early as 
possible. The benefit is obvious: the earlier a claim is adequately 
developed, the sooner it can be approved. However, critical pieces of 
evidence are missing when claimants first seek representation, usually 
at the hearing level, and it is necessary for representatives to obtain 
this evidence, even though it was available earlier in the process.
    Recommendations to improve the development of evidence include: (1) 
Explaining to the claimant in writing, at the beginning of the process, 
what evidence is important, relevant, and necessary; (2) Ensuring that 
DDSs obtain necessary and relevant evidence, especially from treating 
sources, including non-physician sources (therapists, social workers) 
who see the claimant more frequently than the treating doctor and have 
a more thorough knowledge of the claimant; (3) Improving provider 
response rates to requests for records, including more appropriate 
reimbursement rates for medical records and reports; and (4) Providing 
better explanations to medical providers, in particular treating 
sources, about the disability standard and asking for evidence relevant 
to the standard.

REINSTATE THE SENIOR STAFF ATTORNEY PROGRAM
    In the 1990's, as an initiative to reduce the backlog of cases at 
hearings offices, senior staff attorneys were given the authority to 
issue fully favorable decisions in cases that could be decided without 
a hearing (i.e. ``on-the-record''). This program was well received by 
claimants' representatives because it presented an opportunity to 
present a case and obtain a favorable result efficiently and promptly. 
And, of most importance, thousands of claimants benefited. While the 
Senior Attorney Program existed, it helped to reduce the backlog by 
issuing approximately 200,000 decisions. The initiative was phased out 
in 2000, just about the same time that the backlog began to increase.
    We support reinstating senior attorney authority to issue decisions 
in cases that do not require a hearing and expanding ways that they can 
assist ALJs. For instance, they also can provide a point person for 
representatives to contact for narrowing issues, pointing out 
complicated issues, or holding prehearing conferences.

ALLOW REVIEW OF ``UNPULLED'' CASES AND ALLOW HEARINGS TO BE HELD ON 
        ``UNPULLED'' CASES
    We believe that one of the causes of the dramatic increase in the 
backlog is the lack of ODAR staff to organize or ``pull'' cases. With 
the hiring freezes and inability to replace staff over the past few 
years, many ODAR hearing offices lack sufficient administrative staff 
to perform this critical function. As a result, in many hearing 
offices, ``unpulled'' cases cannot be reviewed for on-the-record 
decisions. Further, many ALJs do not hold hearings on ``unpulled'' 
cases. Clearly authorizing ALJs to review ``unpulled'' cases for on-
the-record decisions, to determine the need for additional development, 
or whether a hearing can be held sooner, will allow some cases to be 
cleared from the backlog.

ALLOW REPRESENTATIVES TO SUBMIT DRAFT FAVORABLE DECISIONS 
    Judges in courts often ask counsel to draft favorable decisions and 
orders. SSA should consider allowing representatives, on a nationwide 
basis, to submit draft favorable decisions to ALJs. Some ALJs have 
asked representatives to draft favorable decisions, which were then 
reviewed, edited, and finalized by the ALJ. This can expedite the 
decision-writing process where delays exist.
    Some hearing offices previously shared a prior decision-drafting 
software program, the Favorable Electronic Decisional Shell (FEDS), 
with experienced representatives in the local community. The newer 
decision writing program, Findings Integrated Template (FIT), could be 
similarly adapted. We believe that expanded use of decision-writing 
software for submission of draft decisions could reduce the time for 
the issuance of on-the-record decisions or between the hearing and 
issuance of the decision, especially since use would be limited to 
favorable decisions.

INCREASE THE TIME FOR PROVIDING NOTICE OF HEARINGS
    The current regulations provide only a 20-day advance notice for 
ALJ hearings. This time period is not adequate for requesting, 
receiving, and submitting the most recent and up-to-date medical 
evidence prior to the hearing. Some hearing offices, but not on a 
nationwide basis, do provide much longer advance notice, some as long 
as 90 days. Under the Disability Service Improvement (DSI) regulations, 
the time was increased to 75 days, with the goal of providing adequate 
time to obtain new evidence (although, there is no requirement that 
evidence be provided in that time period). We strongly support the DSI 
change and would support a similar nationwide change. This increased 
time period would mean that many more cases would be fully developed 
prior to the hearing and could, in fact, lead to more on-the-record 
decisions.

CONTINUE WITH IMPLEMENTATION OF TECHNOLOGICAL INITIATIVES
    We generally support the technological improvements so long as they 
do not infringe on the rights of claimants and beneficiaries. These 
initiatives include the electronic disability folder (eDIB), video 
hearings, and digital recording of hearings. If properly implemented, 
these initiatives will not only reduce delays, but also provide better 
service to the public. The electronic folder reduces delays by 
eliminating lost files, reducing the time that files spend in transit, 
and reducing misfiled evidence.
    With eDIB, representatives should be able to obtain a single CD 
that contains all evidence in the file. Early access to the record will 
allow representatives to determine what additional evidence is needed 
and to promptly try to obtain it. Given the need for access at all 
levels and as early as possible, we hope that SSA will explore allowing 
claimants' representatives to have online access to the files through 
secure sites, such as those used by the federal courts. This would free 
up SSA staff, while also allowing representatives to access the file 
when necessary.
    SSA also should consider expansion of the ``electronic records 
express'' system (ERE), which allows representatives to upload medical 
evidence electronically that directly goes into the electronic folder.

                                 ______
                                 
                        Questions submitted by 
           Chairman McNulty and Mr. Johnson to Mr. Warsinskey

    Question: Are you confident that every available agency employee is 
being used to process claims?

    Answer: As of today our answer would be no. Field Offices are 
losing employees at an alarming rate. This Fiscal Year alone Field 
Offices have lost 1,400 employees. Since the beginning of FY 2006, 
Field Offices have lost 2,500 employees. These losses have occurred at 
a much greater rate than those of other SSA components. In part, this 
is due to the fact that other components have been permitted to replace 
a higher percentage of their losses. Additionally, Field Offices also 
serve as the training ground for most of the other components of SSA. 
Field Office positions provide an understanding of programs, procedures 
and policies that is crucial to performing many other SSA jobs that are 
not direct service positions.
    We recognize the need for, and value of, Field Offices providing 
staff for other parts of SSA. The problem is that we have not been able 
to replace our losses which has a significant negative impact on the 
service we are able to provide the public in frontline positions.
    We would support an in-depth study of all SSA components to 
evaluate component share of losses/replacements and current staffing 
levels in order to evaluate if the public would be better served and 
the agency more effective by shifting future available FTEs back to 
Field Office direct service positions.

    Question: Given the agency's focus on increasing the use of 
telephone and on-line services, do you think the current field office 
structure, both in terms of staffing and office location is positioned 
to meet the service needs of the 21st century?

    Answer: Field Offices have always adapted their service quickly to 
new technologies. Currently we take about 30.0% of our claims by 
telephone. The number of Internet claims continues to rise but 
currently is less than 10.0% in most offices.
    1. Field Offices have also adapted their structure and procedures 
so that more of their staff can handle any inquiry. Field Offices have 
a very flat organization. A high percentage of staff in Field Offices 
are Claims Representatives who are also trained to do the work of 
Service Representatives. Additionally, Claims Representatives are now 
trained to be generalists in order to handle all SSA programs. 
Management is also capable of assisting with the operational work.
    Currently, millions of Americans do not have access to the Internet 
or do not feel comfortable conducting business via the Internet. Many 
Americans do not even have access to a telephone. The only way to 
contact SSA for many people is to walk into an SSA office. Still many 
others prefer to walk into an SSA office to take care of their 
business. (About 850,000 visitors a week come into SSA Field Offices.) 
We provide service to all Americans, rich and poor, educated and 
uneducated.
    While we believe that Internet and telephone service will help 
reduce the demand on Field Offices over time, the public's preferred 
method of contacting SSA (particularly when applying for benefits) is 
through a community based Field Office, and, in many cases, the public 
wants to do business face-to-face. Field Offices receive approximately 
44 million visitors a year and approximately 68 million telephone calls 
a year. People deal with Field Offices because they can handle many 
more types of services than the 800 number can. In addition, 800 number 
agents frequently have to refer callers to their local Field Offices. 
The request for Field Office services is growing not declining.
    People contact us to file claims at transitional and often 
vulnerable points in their lives: when they retire, become disabled, or 
lose a spouse or parent to death. These are typically one time contacts 
where a citizen wants to deal with a person face-to-face at a local, 
community based office.
    Social Security programs are complex, and most post-entitlement 
issues (for example, returning to work, requesting a waiver, or having 
a personal conference) are definitely not intuitive. They require 
extensive knowledge of the programs and skilled explanations tailored 
to the understanding of the person being addressed. Such situations are 
further complicated by the fact that over 50.0% of SSI disability 
beneficiaries and over 40.0% of Title II disability beneficiaries have 
been diagnosed with either a mental illness or a cognitive deficiency 
as their primary impairment. Many other beneficiaries have these 
conditions as a secondary diagnosis. This type of beneficiary cannot be 
served adequately by self-help programs.
    Internet claims are usually not clean, neat, or even complete when 
they come into Field Offices. There is a considerable amount of back 
end work to ensure that the processing and payment of the case are 
correct. Again, the nature of the programs SSA administers, especially 
the disability program, is complex--not simple.
    The process for applying for a Social Security Number (SSN) card 
has, in effect, become a face-to-face process due to the Intelligence 
Reform and Terrorism Protection Act (IRTPA). IRTPA requires that 
citizens seeking a replacement Social Security card submit a picture 
identification card issued by a Federal or state government if they 
have such a document, or can get such a document within ten days. In 
most cases, the document that a person must submit for evidence of 
identity is their driver's license. Our experience is that very few 
people want to send their driver's license to us through the mail. The 
SSN workload accounts for about one-third of all walk-in visitors to 
our Field Offices. It is possible that future requirements on SSN 
enumeration (biometric cards) may require an even more widespread Field 
Office presence.
    While we think that expanded Internet and telephone service are, 
and will continue to be, vital service delivery options, we also know 
that face-to-face service will be necessary and in high demand well 
into the future. We believe we must fund and staff our community based 
offices to meet this demand and to provide the level of service the 
American public has paid for and deserves.
    2. We have about 1,300 Field Offices nationwide. We support placing 
offices in areas that best serve the public. There are offices that are 
relatively close to each other, and in many cases consolidating these 
offices may make good business sense. But, in some cases it may make 
more sense to move the offices closer to where the population is 
moving.
    In many areas of the country where explosive population growth has 
taken place, offices have crowded reception areas and inadequate staff 
to provide effective service. We support building larger facilities or 
creating new offices where rapidly growing areas do not have a nearby 
office.
    Some of our offices are so depleted of staff that maintaining them 
and providing adequate service to the public is no longer possible.
    One of the challenges we are facing is correct location of Field 
Offices. It is presently very timing consuming and bureaucratic to move 
an office or to consolidate offices in locations that are more logical 
and cost effective. Congressional interest in office locations and 
consolidation of offices is usually very high.
    Recent proposed consolidation of Field Offices has generally made 
sense. We agree you have to balance the convenience to the public with 
the overall cost of running Field Offices. Rent costs are growing and 
taking higher percentages of our administrative dollars. Each Field 
Office requires an armed guard. These costs are also rising very 
quickly.
    We believe local Field Offices are very efficient. And we agree the 
public doesn't want to drive an unreasonable distance to a Field 
Office. Moving or consolidating an office can take many years. We 
support streamlining this process so it takes place more quickly.
    3. There are 39 Teleservice Centers (TSCs) in the country. We 
support keeping this number of TSCs rather than moving to larger more 
consolidated ones. Having TSCs throughout the country allows for 
Teleservice representatives to be readily available for promotion into 
more FOs and to provide back-up service assistance in the FOs when the 
TSC call volumes are low.

    Question: As you know, since August, changes to the disability 
determination process are being implemented in the Boston region. Is 
there any update you can provide regarding how implementation is going 
based, on feedback from your colleagues?

    Answer: The news regarding the Disability Service Initiative (DSI) 
being piloted in the Boston Region continues to be mixed. One positive 
outcome of DSI is the Quick Disability Decision process whereby cases 
are flagged for probable approvals, and worked on by dedicated teams of 
examiners in the Disability Determination Services. These cases are 
processed in an average of less than eight days. Another positive of 
DSI is that the cases being reviewed by the newly created Federal 
Reviewing Official (FedRO) are very well documented. So any appeals of 
FedRO cases reviewed by ODAR should be much less time consuming to 
process and require fewer resources. The FedRO is also approving cases 
at nearly double the rate of the Reconsiderations at the DDS level. The 
higher allowance rate, results in fewer cases being passed to ODAR from 
the FedRO.
    On the negative side, cases are already backing up in the FedRO at 
an alarming rate. The number of decisions made by the FedRO has been 
small. It appears more resources will be needed for the FedRO to avoid 
severe delays. The question is: can we afford the additional resources 
that are needed?
    The Social Security Disability Insurance and SSI Disability 
programs pay out about $130.0 billion a year. In today's dollars that 
is $1.3 trillion over a decade. Given that the program dollars for 
these two programs are enormous, it is essential that adequate 
administrative dollars be spent to ensure that those that receive 
benefits are being paid properly.
    For years there has been a significant discrepancy in the approval 
rate at the DDS level compared to the approval rate at the hearings 
level. There have also been major differences in approval rates between 
individual state DDSs and between individual administrative law judges. 
The FedRO was created to help bridge this gap. If the FedRO leads to 
more accurate decisions and payment of disability dollars, then it 
makes sense to spend administrative dollars to support it. Additional 
spending, however, should not come at the cost of shortchanging funding 
for the Field Offices or ODAR.
    Whatever decision is made about the future of the FedRO, the 
variances in allowance and denial rates between the varying state DDSs 
and Administrative Law Judges needs to be addressed.
    We did want to make note that we are in favor of the national 
expansion of the Quick Disability Decision (QDD) pilot. This has 
clearly been a success.

    Question: In his testimony, Mr. Schieber suggests a thorough 
evaluation to find policy improvements to make the program easier to 
administer. What suggestions do you have for ways to simplify how 
Social Security programs are administered?

    Answer: We have spent a considerable amount of time developing and 
debating suggested legislative changes. We have come up with 
approximately 20 suggested changes. These changes are included as an 
addendum to this response.

    Question: Are there other ways to address disability backlogs, 
besides additional resources? 

    Answer: On May 23, 2007 the Commissioner of Social Security 
submitted to the Senate Finance Committee 18 pages of initiatives to 
eliminate the SSA 
hearings backlogs. See: http://finance.senate.gov/hearings/testimony/
2007test/052307testma1.pdf
    We agree that these initiatives all have potential to help 
eliminate the backlogs. There are a few key issues that need to be 
considered regarding the Commissioner's suggested initiatives:

          1. Many will require additional funding to be effectively 
        implemented. This funding will be necessary to provide for 
        increased staff, overtime, additional equipment (such as video 
        hearing equipment), and improved computer systems that support 
        the hearings process. If SSA receives an increased level of 
        appropriated funding for FY 2008 it is likely that a part of 
        those additional resources will be necessary to support the 
        Commissioner's proposed initiatives.
          2. These initiatives were developed at an Executive Staff 
        level in the Central Office of SSA. To effectively and 
        successfully implement any major change, input from staff 
        involved is critical. ODAR hearings offices are represented by 
        three unions. In addition, there are two chapters of the 
        Federal Managers Association that represent management and 
        chief judges. It will require a real effort to bring these 
        groups together. Feedback from the various stakeholders will be 
        needed; SSA traditionally has been most effective in 
        implementing change when it consults and involves the relevant 
        stakeholders.
          3. The proposed initiative to increase the production of 
        underproductive judges could be supplemented with more legal 
        authority added to the Administrative Procedures Act (APA). We 
        recommend Congress consider reviewing and revising or amending 
        the APA.
          4. One of the proposals calls for interregional transfer of 
        cases to even out the backlogs. But the proposal then states 
        this transfer will be limited. We believe there are some 
        hearings that are so backlogged now that immediate transfer of 
        cases to offices that are less backlogged is needed.
          5. Field Offices have numerous formal and informal 
        communication networks to share best practices and procedures. 
        We suggest that ODAR establish such networks to improve their 
        efficiencies.

                                ADDENDUM

                NCSSMA LEGISLATIVE PROPOSALS, JUNE 2007

DISABILITY LEGISLATIVE PROPOSALS:

    <bullet>  Change the close out period for Title II to 60 days to 
conform to the existing Title XVI close out period.

    Comments: The 6 month protective filing period for Title II claims 
is antiquated, based on times with less access to communications and 
transportation. The needs based SSI Program only affords a 60 day 
protective period on close out notices. Administration of the program 
would be easier if the periods were consistent.
Eliminate direct payment of attorney/representative fees.
Alternate proposal: Increase the attorney ``user fee'' to reflect the 
        cost of administering the direct attorney fee provision, 
        eliminating the $77.00 assessment cap.

    Comments: NCSSMA members report the administration of the attorney 
fee provisions are labor intensive and problematic when coupled with 
SSI Windfall Offset Provisions. Elimination of this provision would 
save significant administrative time and effort. As an alternate 
proposal, capping attorney fee assessments at $77.00 does not reflect 
the cost of administering this provision. The original assessment was 
an uncapped 6.3%. We support removing the assessment cap and studying 
if the actual cost to the agency of collecting this assessment should 
be higher.
Eliminate medical Continuing Disability Reviews (CDRs) for all DIB 
        beneficiaries with a permanent impairment, and for all DIB 
        beneficiaries over a certain age. 
Allow DDS to declare SSI Disabled Children Awards as meeting Adult 
        Disability Standards when appropriate, eliminating the Age 18 
        medical redetermination in those cases.

    Comments: NCSSMA supports study of disability reviews to determine 
the age where medical CDRs are no longer cost effective. When this age 
is established, we feel that scarce CDR funds would be better directed 
toward possible recovery cases. Similar savings would be found by 
removing the Age 18 medical redetermination for SSI Disabled with 
permanent disabilities that would be approved at any age. Currently, 
all SSI Disabled Child cases receive a medical review at Age 18 no 
matter how severe the disability. Establishing permanent adult 
disability eligibility could eliminate this unproductive review.
Require attorneys, non-attorney representatives, and for-profit third 
        party disability companies to use the Internet to complete 
        disability forms.

    Federal Courts now require case actions to be filed electronically. 
The representatives listed above should be required to complete and 
submit required disability forms electronically in order to take full 
advantage of Social Security's EDCS system. Failure to do so would 
result in the action being dismissed. This would save SSA 
administrative effort, create an additional control of Disability cases 
at the earliest point, and it would require a higher level of 
involvement by the representatives who are charging our claimants for 
their services.
Reduce the waiting period for Medicare to 18 months.

    Comments: Changing the Medicare waiting period to 18 months 
coincides with the end of COBRA coverage. This is a more natural 
crossover point, and would reduce a 6-month gap in coverage for 
vulnerable individuals.

GENERAL LEGISLATIVE PROPOSALS:

    <bullet>  Reverse Medicare D legislation requiring SSA to make 
available the option of having Part D premiums withheld from Title II 
benefits.

    Comment: This is one of the greatest public relations problems 
local SSA offices face every day. Communication problems between CMS, 
prescription drug providers, pharmacies and beneficiaries place SSA 
offices in an uncomfortable situation of trying to deal with premium 
problems with no power to change the amounts paid on our own benefits. 
Since SSA has little ability to affect the premium amount, we feel the 
prescription drug providers should collect the premiums themselves.

    <bullet>  Require States to verify public records electronically.

    <bullet>  Eliminate collateral verification of domestic birth 
certificates.

    Comment: Electronic Verification of Vital Records is called for in 
the Intelligence Reform and Terrorism Protection Act (IRTPA), but is 
currently stalled in negotiations between SSA and the States. Pursuit 
of this provision would expedite SS-5 and claim verifications, and 
promote ID protections.
    NCSSMA strongly supported the elimination of the collateral 
verification process for domestic birth certificates. The current 
process is time consuming, expensive, and seldom identifies identity 
problems.

    <bullet>  Change the representative payee accounting requirements 
for parents with custody of minor children and spouses with custody of 
adult claimants to a custody check.

    Comments: In the case of parents with custody and spouses with 
custody of adult beneficiaries, the reporting requirement should be 
limited to a custody check. The financial accounting requirements in 
these cases seldom result in a change of payee, and are very difficult 
to develop. When issues are raised in these cases, reporting is 
generally directly reported by the principals involved. The follow up 
on this workload is labor intensive, and produces little in value or 
protection for beneficiaries.

    <bullet>  Raise the administrative tolerance of overpayments to 
$750.00.

    Comments: There is universal support among our NCSSMA Executive 
Committee for some change in this tolerance. Proposals ranged from 
setting the figure to equal the SSI Federal benefit rate (currently 
$623.00) to $1000.00. Some concern was raised that increasing the 
tolerance would hurt enforcement of some regulations. It is also 
possible that legislation is not required in this area, that, in fact, 
the Commissioner of Social Security has the authority to set the 
Administrative Waiver limit.

Title XVI LEGISLATIVE PROPOSALS:

    <bullet>  Simplify Earned Income Provisions:

        <bullet>  Make Title II Disability monthly earnings provisions 
        the same as Title XVI provisions to be counted when paid not 
        earned.

    Comments: The differences in the Title II and Title XVI monthly 
earned income provisions are not understood by claimants and reporting 
employers alike. Changing provisions to counting earnings when paid is 
consistent with the way earnings are reported to other government 
agencies. Under current provisions, adjudicators have discretion to 
average earnings and consider subsidies and Income-Related Work 
Expenses (IRWE) in making Substantial Gainful Activity (SGA) 
determinations. These provisions would still be in place and would 
ensure that workers are not disadvantaged by this change. This change 
would only affect income counted for disability provisions. There would 
be no change in Retirement Test provisions.

    <bullet>  Expand what is acceptable proof of wages for SSI.

    Comments: Such sources include State Department of Labor records. 
These requests are currently used in matching processes, but could save 
substantial Field Office time if used as primary verification. A 
similar provision allowing SSA to use W-2 reports as Annual Earnings 
Test information saved considerable administrative time in Social 
Security Retirement, Survivor and Disability cases several years ago. 
Also, we should accept telephone reports of wages by claimant/worker/
deemor. This process has been piloted in the past with some success. We 
should also be able to accept allegation of termination of employment 
without verification. Backup computer matches already in place would 
serve as a check against erroneous reports.

    <bullet>  Increase the Earned Income Disregard for Title XVI 
Payments to reflect inflation.

    Comments: The $65.00 earned income disregard has not been increased 
since the inception of the program. At that time $65.00 was the 
equivalent of half of the original Federal benefit rate, or FBR, 
($130.00) and approximately 40 times the prevailing minimum wage at the 
time ($1.25 per hour). An increase to even $200.00 would reduce the 
number of work reports needed from sheltered workshops and other 
supported employment programs, while increasing work incentives in the 
program. Social Security is not required to verify wages below the 
earned income disregard amount, so significant administrative costs 
would be saved.

    <bullet>  Eliminate the dedicated Account Provision and 
Installments of the Law.

    Comments: Both provisions are labor intensive, and do not provide 
the savings or improved behavior intended by the sponsors of the 
provisions. Exceptions to both provisions make the rules almost 
meaningless.

    <bullet>  Simplify Burial Fund Exclusion, adopt Medicare Part D 
Extra Help rules.

    Comments: In Medicare Part D Extra Help determinations, 
adjudicators are allowed to accept the allegation of applicants that up 
to $1500.00 of their resources will be used for their burial. Current 
rules in this area are a hodgepodge of developmental practices, often 
changing from State to State. Simplifying this provision will allow 
both administrative savings and also consistency in application among 
applicants. Some NCSSMA members also propose a larger exclusion due to 
increases in burial costs.

    <bullet>  Simplify Living Arrangements.

    Comment: The NCSSMA Title XVI Committee proposal would eliminate 
In-kind support and Maintenance (ISM) and replace it with a 15.0% 
reduction for shared living arrangements. While the details may require 
additional vetting, there would undoubtedly be an administrative 
savings in this proposal, and the new reduction would help make this 
proposal revenue neutral.

    <bullet>  Count All Non-excluded Active Duty Military Pay as Earned 
Income.

    Comment: A workload that affects some areas more than others. While 
there would be a nominal increase in program costs, this provision 
would be supportive of military families. The proposal would save 
administrative costs as all military pay would be covered under the 
same provision.

    <bullet>  Eliminate SSI Retrospective Monthly Accounting (RMA) 
Rules for prisoners released from jail.

    Comment: Currently, RMA rules allow payment of full SSI benefits 
for those reinstated from prisoner suspension for up to 3 months. 
Reinstated Title II payments--if paid the month after SSI reinstatement 
would not be counted until 2 months later. Adoption of this provision 
would eliminate an unintended windfall and double payment.

    <bullet>  Title XVI Windfall Offset Reform_allow payment of 
retroactive benefits of either Title II or SSI payments first in order 
to prevent delay of past due benefits.

    Comment: Currently, retroactive Title II payments are held until 
retroactive Title XVI payments are made in SSI Windfall Offset Cases 
(most often in appeal cases). This policy was developed because that 
payment of SSI in the ``past due'' period was needed in order to 
determine Medicare eligibility. Experience of SSA Field Offices is that 
release of the retroactive Title II is often delayed well beyond the 
Title XVI adjudication date due to workload backlogs and windfall 
offset issues. In order to ensure that retroactive Medicaid eligibility 
is considered, a ``Medicaid Only'' computation could be performed in 
cases where the Title II payment was released first. The retroactive 
Title II payment would be disregarded in this computation, and Medicaid 
eligibility would be decided based on income actually received in the 
affected months. This should be a less complex look back than our 
current offset provisions. The proposal would also expedite Title II 
payments and reduce PSC backlogs. Because offset would still occur, the 
proposal should save administrative funds and be revenue neutral to 
program funds.

                                 <F-dash>

    [Submissions for the Record follow:]

           Statement of James F. Allsup, Belleville, Illinois

    Chairman McNulty, Representative Johnson, and Members of the Social 
Security Subcommittee, thank you for considering my written testimony 
regarding the Social Security Administration's (SSA) disability claim 
backlogs.
    My name is James Allsup, and I am the founder, president and CEO of 
Allsup, Inc., a firm that helps people navigate through the Social 
Security Disability Insurance (SSDI) claims process. I am pleased to 
offer this testimony on behalf of the 84,000 Americans with 
disabilities who have obtained Social Security Disability benefits with 
our assistance. I also offer this testimony on behalf of our 420 
employees who work diligently, day in and day out, to help our 
customers obtain the disability benefits they are entitled to receive.
    I have witnessed the historical evolution of SSA's disability 
problems for nearly 30 years.  From 1977 to 1982, I worked for SSA as a 
claims and field representative in Storm Lake, Iowa and Manhattan, 
Kansas. As an SSA employee, I experienced the helpless feeling of 
attempting to console an obviously qualified individual who did not 
know how she would survive financially while waiting for a claim that 
may or may not be awarded.
Defining the Problem
    Since that time, SSA has experienced a significant and growing 
crisis, which is the result of multiple factors. First, our disabled 
population is growing. The number of disabled workers who draw SSDI has 
more than doubled since 1990, growing by over 3\1/2\ million additional 
persons since that time. As the baby boomer generation continues to age 
into their 60s and 50s, the annual number of individuals with 
disability claims is expected to rise significantly.
    Second, the number of SSA field staff available to assist claimants 
and help develop complete factual records for SSDI determinations is 
plummeting. According to the Social Security Advisory Board, the field 
staff workforce in 2005 was 30 percent smaller than 20 years ago. This 
reduction is due in large part to the resources available to the SSA, 
but in addition, the SSA is losing a significant number of experienced 
employees due to planned retirement. This trend is expected to 
continue.
    Third, the determinations are growing much more complicated. As the 
scope of medical tests and services becomes more sophisticated and 
complex, the challenges in preparing and interpreting a comprehensive 
medical record for each claimant also continues to grow.
    As a result, current claimants are experiencing unacceptable delays 
in obtaining determinations. These problems have been well-documented 
in a number of government studies and reports, and the Social Security 
Administration is implementing a new claims review process that is 
intended to address some of these inadequacies.
Third Party Representatives--A Well-Established Solution
    Fortunately, a proven system exists that can help address the 
unnecessary delays and erroneous rejection of claims that creates 
needless stress and hardship for this extremely vulnerable population. 
Third party organizations, such as my company, Allsup Inc., are well-
tested and available to assist increasing numbers of individuals with 
applying for SSDI claims. In this way, third party representatives can 
ease the process for applicants and remove significant administrative 
burdens for the SSA.
    After leaving SSA, I founded Allsup Inc. in 1984, making it the 
first private nationwide service of its kind. Similar to the way in 
which professional tax preparation services help people complete and 
file their income taxes, Allsup Inc. prepares and submits disability 
claims and appeals to SSA for our clients. Our services assist the 
disability applicant throughout the entire application and appeals 
process as much as possible. In fact, for every ten individuals who 
receive benefits with our assistance, eight are never required to 
travel to make personal appearances or otherwise required to deal 
directly with SSA. For this vulnerable population of individuals with 
significant disabilities, this process removes a significant physical 
and emotional burden. Even for those claims that must be appealed to an 
Administrative Law Judge (ALJ), two-thirds of the awards received by 
our clients from ALJ's are rendered ``on the record''--without the need 
of a personal (and stressful) appearance at an oral hearing.
    Our call centers respond to client inquiries regarding the status 
of their claims and the SSDI claims process, eliminating a significant 
number of inquiries that otherwise would be directed to SSA staff. For 
the disability applicants that we represent, SSA's role primarily is 
limited to that of a decision maker. Allsup submits a complete claim to 
the field office, assists the Disability Determination Service (DDS) as 
needed with medical developments, and submits a brief to the ALJ to 
facilitate ``on the record'' hearing decisions, eliminating the need 
for oral hearings in two-thirds of our cases.
    The SSA recognizes the value of our services and encourages claim 
techniques that Allsup Inc. pioneered, including ``on the record'' 
hearing decisions. SSA also recognizes the value of Allsup's entire 
business model and increasingly relies on us and similar companies for 
a complete, accurate and well-documented claims file that is ready for 
a decision. In the absence of assistance from third party 
representatives, SSA personnel are typically charged with compiling 
these claims files.
Building on the Success of Third Party Representatives
    SSA recently contacted Allsup Inc. and several other third party 
representatives to help determine if a market exists for the electronic 
submission of ``bulk'' claims data from third party organizations. 
Currently, SSA's systems only allow for the electronic submission of 
one claim at a time. Updating SSA's systems to permit bulk data 
transfers, coupled with the necessary administrative changes, would 
expand the market for companies such as Allsup Inc. and provide the 
needed assistance that SSA cannot afford.
    This assistance is free to SSA, as our fees are paid by insurers, 
employers and disability applicants. Just as taxpayers choose to pay 
for assistance with their tax returns, disability applicants, insurers 
and employers currently choose to pay for our assistance with 
disability claims.
    Private participation through third party representatives on a 
larger scale would be of immeasurable benefit to both SSA and to 
disability applicants. Such a system would build on SSA's longstanding 
policies that permit companies to represent individuals with 
disabilities in pursuing SSDI claims. SSA could reallocate and assign 
more staff to the critical task of deciding cases, preventing the 
intolerable backlogs that exist today. In addition, assistance from the 
private sector would ease the pressure on SSA to replace retiring 
employees. Most importantly, disability applicants, the neediest of all 
SSA stakeholders, could focus on their health while the representative 
of their choice handles their claim.
    This model would replicate the Internal Revenue Service's (IRS) 
history with professional tax preparation services, which experienced a 
substantial growth in the mid-1950s when the IRS began closing the 
field offices that provided free tax preparation assistance. Although 
SSA is not closing individual field offices yet, field offices have 
lost 2,000 positions in just the last 17 months. This loss is the 
equivalent of closing 95 field offices that employed an average of 21 
employees each. Under the current trends, the stresses on the SSDI 
process will continue to grow.
Straightforward Steps for Both Short- and Long-Term
    The decision to hire a private company for assistance with a 
disability claim should be a choice--not a requirement. Many people 
hire attorneys and non-attorneys for assistance now, but usually only 
to appeal a denied claim.
    SSA could increase the benefit of using third party representatives 
by ensuring that disability applicants are informed before they 
initially apply for benefits that they have a choice: file the claim 
directly with SSA at no cost, or enlist the assistance of a private 
company that has met eligibility criteria for participation with SSA. 
Similar to tax preparation services, these companies would have systems 
capable of interfacing with and exchanging large volumes of claims data 
with SSA.
    Disability applicants and SSA employees need help immediately. 
Streamlining SSA's process and moving to an all electronic file are the 
right things to do. Although much attention is focused on the looming 
crisis with Social Security retirement benefits, the disability crisis 
is here already. Despite the budgetary and demographic realities, the 
solution to this crisis does not have to be difficult. Relying on the 
private sector is an efficient solution that is real and available for 
use. Such an arrangement will not immediately eliminate the backlogs of 
today, but it is absolutely an important component of an overall 
solution.
    Chairman McNulty, Congressman Johnson, thank you again for the 
opportunity to provide testimony on this important issue. I am 
confident that businesses such as Allsup Inc. are able to assist SSA 
and people with disabilities in processing disability claims. I look 
forward to working with you to address this growing crisis.

                                 <F-dash>

         Statement of Association Of Administrative Law Judges

I. INTRODUCTION
    Thank you for the opportunity to provide this statement regarding 
the backlog of disability cases at the Social Security Administration, 
Office of Disability Adjudication and Review. My name is Ronald G. 
Bernoski. I am an administrative law judge who has been hearing Social 
Security Disability cases in Milwaukee, Wisconsin, for over 25 years.
    I also serve as President of the Association of Administrative Law 
Judges (AALJ), a position I have held for over a decade. Our 
organization represents the administrative law judges employed at the 
Social Security Administration and the Department of Health and Human 
Services. One of the stated purposes of the AALJ is to promote and 
preserve full due process hearings in compliance with the 
Administrative Procedure Act for those individuals who seek 
adjudication of program entitlement disputes within the SSA. The AALJ 
represents about 1100 of the approximately 1400 administrative law 
judges in the entire Federal government.

II. STATEMENT
    The Association of Administrative Law Judges is most grateful for 
the interest expressed by the Subcommittee in its recent hearings. We 
too find it most painful that the American people who are in the 
disability hearing process have been disadvantaged by long delays in 
their cases because of the inadequacy of the Congressional funding 
levels in prior years. On a positive note, however, I am most pleased 
to inform you that individual administrative law judge productivity has 
increased every year over the last decade and is presently at historic 
highs. However, that level of productivity cannot further increase as 
we are producing, on average, over 2 cases per day. In this regard, it 
is of interest to note that in an attempt at reform in the 1990's, 
referred to as Disability Process Reengineering, a time study was 
performed of the entire disability process. The result of that study, 
insofar as administrative law judge performance, revealed that an 
administrative law judge could efficiently and effectively produce 
between 25 to 55 cases each month. If an administrative law judge 
performed at this level, he/she would spend approximately four hours 
total time on each case. This would include time spent by the 
administrative law judge reviewing the file and making notes prior to 
the hearing, time conducting the hearing and time reviewing and editing 
the draft decision. In view of the importance of these cases to the 
American people and the cost to the trust fund (over $200,000 per 
case), we respectfully submit that an average investment of four hours 
per case per judge represents a reasonable cost-benefit limitation on 
administrative law judge productivity.
    As the Subcommittee is aware, the SSA disability process requires, 
for maximum performance, a ratio of staff to administrative law judge 
of 4\1/2\ staff for each administrative law judge. Ideally, the 
complement would include 2\1/2\ attorneys and 2 staff available for 
each administrative law judge. Presently, the staff to administrative 
law judge ratio is in the 3.5 range which means the agency needs to 
hire close to 1000 staff just to maintain the status quo. However, the 
AALJ submits that the American people, whose cases constitute our 
disability back log deserve much better than the status quo. The answer 
is simply greater funding to hire more administrative law judges and 
more staff. The hearing process itself has been refined and while we 
note below certain additional refinements that could be made, the 
present due process hearing system which we employ suffers largely from 
the lack of resources. Indeed, as noted in the testimony of the 
Honorable Sylvester J. Schieber, Chairman, Social Security Advisory 
Board, during the recent hearing, ``The difference between the enacted 
budgets and the agency workforce plan budgets over the period (the last 
seven years) totals over $5 billion.''
    While the Congress has expressed concern in prior years, over 
developing backlogs, budgets were never made available to fully process 
the increasing number of disability claims. However, we believe that 
Congress can not wait any longer to address this problem and 
respectfully submit the following approach.

III. FUNDING
    The backlog of pending disability cases must be processed as 
quickly as possible. We currently have approximately 1140 
administrative law judges at SSA. 300 cases is a reasonable case docket 
for each judge. This docketing will take about 300,000 cases leaving an 
effective backlog of about 417,000 cases. To efficiently process this 
backlog, we believe that funding should be made available to hire at 
least 150 additional administrative law judges and the necessary staff 
to support them. In addition, funding should be provided to bring the 
current staff level up to the 4\1/2\ ratio, as noted above.
    In addition to these hires, funding should be made available to 
employ retired administrative law judges (Senior Judges) and temporary 
staff to assist them. A provision currently exists in OPM regulations 
for the hiring of senior judges. The senior judges will provide SSA 
with a Corps of trained judges with vast experience in hearing and 
deciding Social Security cases. We believe that if Congress would fund 
this program, as they have on a more limited basis in the past, by 
providing the full salary of an administrative law judge and also 
permit them to retain their pension income, we would be able to employ 
at least 100 senior administrative law judges. As these would be 
temporary appointments, their assignments would end with the 
disposition of the backlog. Funding would also be necessary for staff 
for these judges. Attractive candidates for these positions would be 
recently retired hearing office employees who already possess the 
skills and experience necessary to perform efficiently. They too could 
be hired on a temporary basis.
    We are committed to walk hand in hand with Commissioner Astrue to 
ensure that the American people are well served by the timely and 
efficient processing of their disability cases. We will work tirelessly 
with him to achieve this end. We wholeheartedly agree with his hearing 
statement that ``For current beneficiaries, this role means setting 
high standards for management, performance, public service, and program 
integrity, and committing to meeting those standards.'' As noted 
earlier, administrative law judges have performed at historic levels 
and we are committed to continue to work as efficiently and effectively 
as we can. We look forward to discussing with the new Commissioner our 
vision for the future. Over the last decade there have been far too 
many management decisions whose impact has reduced the efficiency of 
the administrative law judge and has had a negative impact on the 
backlog. For example, we are still hampered by management decisions 
which have placed our hearing clerks in decision writing positions. Our 
experience reveals that attorneys perform this critically important 
function far more efficiently and effectively than high school 
graduates. Another example, involves management decisions that prevent 
administrative law judges from working in the hearing offices after 
regular work hours. In our view, administrative law judges should 
always be given access to their offices to work on our critically 
important cases.

IV. ADDITIONAL CHANGES TO IMPROVE THE EFFICIENCY OF THE ADMINISTRATIVE 
        JUDICIARY AT SSA
    As the Subcommittee is patently aware, SSA is in need of additional 
administrative law judges. Pursuant to the Administrative Procedure 
Act, the Office of Personnel Management has the responsibility for 
administrating the administrative law judge program in the Federal 
government. One aspect of this responsibility is to create and 
administer an appointment process which includes a complete evaluation 
of the qualifications of attorney candidates who submit an application. 
OPM reviews the qualifications and administers a written examination. 
Ultimately, the candidate is given a numerical score and placed on a 
register from which SSA and other agencies may hire. For various 
reasons, the register has been closed for over seven years. Thus, 
interested attorneys have been denied the opportunity to have their 
qualifications reviewed for potential appointment as an administrative 
law judge. This system in broken and needs a Congressional fix.
    As you may be aware, a bill was introduced in the 106<SUP>th</SUP> 
Congress to remove the management of the administrative law judge 
function from OPM and place it in a separate Office under the 
management of a Chief United States Administrative Law Judge. This 
change is modeled after the Judicial Conference of the United States 
which administers the Federal courts. This change is badly needed as 
the OPM has demonstrated that it will not manage the administrative law 
judge function in an efficient manner, as required by the 
Administrative Procedure Act. In fact, OPM's unwillingness to manage 
this program and its demonstrated contempt for administrative law 
judges is evidenced by the elimination of its own Office of 
Administrative Law Judges. Also, in prior Congressional testimony, 
representatives from OPM have shown contempt for the Administrative 
Judiciary. We urge this Subcommittee to conduct a hearing on this 
subject as recommended by Representative Pomeroy (D-ND). We also urge 
members of this Subcommittee to support our efforts to enact 
legislation to establish an administrative law judge conference.
    For your further information, we believe there are also things the 
agency can do to address backlog issues. We believe SSA should change 
its policy on ``no show'' dismissal cases. Presently, the Appeals 
Council remands most of these dismissals because of the agency policy. 
This results in additional work for staff to reschedule hearings on 
multiple occasions. We believe that when a claimant neither appears for 
the hearing nor communicates an inability to appear, that case should 
be dismissed, absent a showing of ``good cause''. The claimant's rights 
are preserved since they can file a new application for benefits 
thereafter and seek reopening of the dismissed case.
    In addition, SSA should require the Appeals Council to reverse 
cases, when appropriate, rather than remanding case to administrative 
law judges for hearing. This change would provide quicker decisions for 
the claimant and would reduce our backlog of cases waiting to be heard.
    SSA should also adopt comprehensive procedural rules designed to 
promote efficiency in the hearing process. At our urging, the agency 
has adopted some procedural rules with the implementation of Disability 
Service Improvement, a plan implemented by the previous Commissioner. 
However, we believe that additional procedural rules are necessary, 
except for pro se claimants, to maximize our efficiency. Those rules 
were previously recommended to Commissioner Barnhart by a Joint Rules 
Committee, but were not implemented. The Rules should place more 
responsibility for the conduct of the hearing on claimant 
representatives. The representative should be responsible for preparing 
a pre-hearing brief which declares the specific impairments upon which 
the claim for disability benefits is based, describes the theory of the 
case, the law and the evidence upon which the claim is based. These 
requirements are within the accepted duties of an attorney as an 
``officer of the court'' and are part of the services provided to the 
claimant for which attorney fees are paid.
    Finally, we believe that SSA should reorganize its Regional hearing 
offices and devote the personnel in these offices to direct case 
processing. We believe that the role of the Office of the Chief Judge 
should be enhanced and that Regional functions be centralized and 
placed under the direct responsibility of the Chief Judge. With the 
advent of technology and electronic communications, central management 
authority is, in our view, a far more efficient and effective method of 
managing the hearing function.
    We pledge Commissioner Astrue our full support in addressing the 
disability backlog issues and we look forward to meeting with him to 
further discuss our ideas, concerns and recommendations. We also look 
forward to working with the Subcommittee in any way we can be of 
service.

                                 <F-dash>

      Statement of National Association of Disability Examiners, 
                        Oklahoma City, Oklahoma

    Chairman Michael R. McNulty and members of the Committee, as you 
consider new approaches for addressing the backlogs for the Social 
Security Disability Program, the National Association of Disability 
Examiners (NADE) wishes to present our views on the on-going challenges 
facing the disability program.
    NADE is a professional association whose purpose is to promote the 
art and science of disability evaluation. The majority of our members 
work in the state Disability Determination Service (DDS) agencies 
adjudicating claims for Social Security and/or Supplemental Security 
Income (SSI) disability benefits. In addition, our membership also 
includes SSA Central Office personnel, attorneys, physicians, and 
claimant advocates. It is the diversity of our membership, combined 
with our extensive program knowledge and ``hands on'' experience, which 
enables NADE to offer a perspective on disability issues that is both 
unique and which reflects a programmatic realism.
    NADE members--throughout the state DDSs, Regional Office(s), SSA 
Headquarters, OHA offices and the private sector--are deeply concerned 
about the integrity and efficiency of both the Social Security and the 
SSI disability programs. Simply stated, we believe that those who are 
entitled to disability benefits under the law should receive them; 
those who are not, should not. We also believe decisions should be 
reached in a timely, efficient and equitable manner.
    Significant challenges facing SSA in the disability program include 
dealing with inadequate resources, managing the backlogs, the 
Continuing Disability Review (CDR) program, on-going management of the 
implementation of the electronic disability process (eDib), and the 
continuing hardships imposed on disability beneficiaries by the Five 
Month Waiting Period and the 24 month Medicare Waiting Period. The 
disability program has become increasingly more complex as new advances 
in medicine and treatment have allowed individuals with disabilities to 
live longer and more productive lives. The complexity of the program, 
the changing nature of the program and the sheer volume of claims, 
coupled with diminishing resources, has brought a significant amount of 
stress to an already over-burdened system.
Resources
    There is no doubt that backlogs in the disability program have 
increased. This is a direct result of the hard choices that needed to 
be made by SSA over the past few years to deal with the realities of 
inadequate budgeting and staffing. NADE feels that if SSA continues to 
be burdened with inadequate resources, the resulting backlogs and 
staffing problems will only multiply. For the past five years, the SSA 
budget has not been what the previous Commissioner of Social Security 
or the President requested from Congress. The prior Commissioner 
reported to Congress several times that if the President's proposed 
budgets for SSA this past five years had been granted, SSA would have 
been able to eliminate its disability backlogs.
    The complexity of the Social Security Disability Program, coupled 
with the need to produce a huge volume of work, justifies even more the 
need for adequate resources in order to provide the service that the 
American public has come to expect and deserves from SSA. It takes at 
least two years for a disability examiner to be fully trained and 
function independently to make timely and high quality disability 
decisions. It is critical the DDSs be provided with the resources 
needed to hire and train staff that can perform these duties. Low 
salaries, hiring restrictions and the stress of the job contribute to 
high turn-over in some DDSs. Given the hiring restrictions and 
inadequate resources placed on the SSA and DDSs, it is amazing that the 
disability backlogs are not even higher than they are currently and 
that the number of claims processed has continued to increase despite 
inadequate funding and resources.
    SSA over the past decade has attempted to redesign the disability 
claims process in an effort to create new processes that will result in 
more timely and consistent disability decisions. Results of numerous 
tests undertaken by SSA to improve the disability process have not 
produced the results expected. In fact they have only slowed the 
processing of claims while employees adjusted to the constant changes. 
The impact of these changes has also contributed to the inability to 
manage the high workloads experienced during this time and decreased 
efficiency of operations as DDSs have struggled to incorporate these 
changes into their daily case processing.
Backlogs
    Addressing disability backlogs is a high priority for NADE. 
However, we think it is important to remember that while there are a 
large number of cases pending at some DDSs, the most significant delays 
in the process still occur at the Office of Hearings and Appeals (OHA) 
where an average claim takes over 400 days, compared to the 89 day 
average at the DDS. NADE agrees that many people suffer needlessly as a 
result of these types of backlogs and that individual conditions can 
worsen or lead to death during this waiting time. It is critical that 
adequate resources be provided to all levels of SSA involved with 
disability case processing.
    As a result of the reduced SSA budget for 2006, SSA mandated that 
initial level disability claims be given top priority. This 
necessitated other claims, such as reconsiderations and continuing 
disability reviews (CDRs), not receiving the attention they deserved 
and backlogs resulting of these types of claims at the DDSs.
    NADE strongly believes that the Single Decision Maker (SDM) process 
can help to alleviate some of the backlogs at the initial level of case 
processing. This part of the prototype effort has proven to be 
successful in producing high quality decisions and a time saver when 
processing claims. NADE believes that SSA should expand the SDM 
initiative to all regions to not only reduce initial backlogs, but to 
lower processing times at the initial level.
Continuing Disability Reviews (CDRs)
    Limited resources have forced SSA to reduce the number of CDRs 
performed. Of utmost concern to NADE is the past history of these types 
of actions and the resultant impact as the agency falls behind in these 
critical reviews. When we experienced a backlog of CDRs previously it 
took a great deal of effort by all components of SSA to reach a point 
where CDR reviews were being conducted as scheduled. It took a 
significant number of years of dedicated funding solely for the purpose 
of conducting CDRs before SSA was current with CDR reviews. With 
decreasing the number of CDR reviews done in the past few years, there 
is now a real danger that we will once again find ourselves in the 
position of having backlogs of overdue CDRs.
    While there are increased administrative costs (including the 
purchase of medical evidence, claimant transportation costs and 
increased utilization of contract medical consultants) with the 
performance of CDRs, there is a potential for significant savings in 
program costs with the elimination of benefits paid to beneficiaries 
who are found to be no longer eligible for disability benefits due to 
no longer meeting the SSA Disability program requirements. The estimate 
is that for every $1 in administrative cost spent on conducting CDRs, 
$10 of program funds is saved. While NADE agrees that it was necessary 
to decrease the number of CDRs done over the last couple of years given 
the current budget situation, this decision has repeatedly been 
described by many, including the former SSA commissioner and members of 
this committee, as ``penny-wise and pound-foolish''. We agree. It is 
essential to program integrity that CDR reviews be conducted in a 
timely manner to ensure that only those who continue to be eligible are 
receiving disability benefits. NADE's experience has been that the only 
way to ensure the necessary funds for CDRs don't get transferred to 
process other SSA workloads is for Congress to provide ``dedicated 
funding'' for CDRs. Dedicated funding has shown to be the best means of 
staying current with the CDR workload. NADE encourages this committee 
to recommend appropriating dedicated funding for CDRs to ensure that 
this workload gets the attention it deserves.
Electronic Disability Process (eDib)
    eDib is still a work in progress and requires ongoing refinements, 
upgrades and improvements frequently needed to make the system work as 
efficiently and effectively as possible. The impact on the electronic 
system as a whole when these changes are made is unpredictable, and 
currently results in systems slowness or inability to work at all.
    Since Disability Determination Services (DDSs) process over 2.5 
million cases on an annual basis, any shut down or slow down of the 
case processing system equates to a significant loss of production 
capacity.
    Continued attention to eDib is needed to insure that the proper 
financial support is given to make it successful. eDib at its full 
implementation may result in a significant reduction in processing time 
at all levels of adjudication without the need for significant changes 
to the adjudicative process.
5 Month Cash Benefit Waiting Period and 24 Month Medicare Waiting 
        Period
    It is important to note that in Title II disability claims, persons 
found disabled under the Social Security Disability program must 
complete a full five month waiting period before they can receive cash 
benefits. So, a disability allowance decision, even when it is 
processed quickly, will not resolve the issue of having to wait five 
full calendar months before the claimant will be able to receive any 
cash benefits. NADE believes that requiring some individuals (Title II 
claimants) to serve a waiting period before becoming eligible to 
receive disability cash benefits while not requiring others (Title XVI 
claimants) to serve the same waiting period is a gross inequity to 
American citizens with disabilities.
    We are also deeply concerned about the hardship the 24 month 
Medicare waiting period creates for these disabled individuals, and 
their families, at one of the most vulnerable periods of their lives. 
Most Social Security disability beneficiaries have serious health 
problems, low incomes and limited access to health insurance. Many 
cannot afford private health insurance due to the high cost secondary 
to their pre-existing health conditions.
    It has been proven time and time again that earlier medical 
intervention could help disabled individuals return to the workforce. 
Therefore, NADE supports the elimination of, at the very least a 
reduction, of the Five Month Cash Benefits and 24 Month Medicare 
Waiting Periods.
Summary
        <bullet>  Inadequate resources along with increased workloads 
        has not only caused backlogs, but has allowed existing backlogs 
        to increase
        <bullet>  Disability backlogs are affected by inexperienced 
        staff, hiring restrictions, and implementation of constant 
        program changes
        <bullet>  Dedicated funding is necessary in order to avoid the 
        costly possibility of having a backlog of overdue CDRs.
        <bullet>  Resources should not be diverted from eDib to 
        implement disability service improvement changes until the eDib 
        system is fully operational. It is critical that necessary 
        refinements be made to the system in order for it to produce 
        the anticipated and desired efficiencies.
        <bullet>  The five month cash benefit and 24 month Medicare 
        waiting periods for Social Security disability beneficiaries 
        should be eliminated or reduced.

                                 <F-dash>

              Statement of National Council on Disability

Introduction
    The National Council on Disability (NCD) is an independent federal 
agency, composed of 15 members appointed by the President and confirmed 
by the U.S. Senate. NCD's overall purpose is to promote policies and 
practices that guarantee equal opportunity for all individuals with 
disabilities, regardless of the nature or severity of the disability; 
and to empower individuals with disabilities to achieve economic self-
sufficiency, independent living, and integration into all aspects of 
society. In furtherance of NCD's statutory mandate to advise the 
Administration and Congress on issues that affect people with 
disabilities, I would like to share the following information and 
recommendations from NCD's report, The Social Security Administration's 
Efforts to Promote Employment for People with Disabilities: New
Solutions for Old Problems (http://www.ncd.gov/newsroom/publications/
2005/ssa-promoteemployment.htm), regarding the Social Security 
Administration's (SSA) disability backlogs.

The Disability Determination Process
    NCD's Social Security report noted that the disability 
determination process is upsetting, adversarial, and extremely 
inconsistent. Both the timeliness and the uniformity of the SSA's 
disability determination process leave much to be desired. Decisions 
often take an extremely long time to process, and individuals who 
appeal after initially being denied benefits often have to wait nearly 
another full year before a final hearing decision is reached. 
Furthermore, there are often significant discrepancies between the 
initial decisions and those made at the hearings level.
    NCD also noted that the other determination, that of disability 
status, is made by contracted state agencies. The disability 
determination process is complex and lengthy. There is inconsistency 
from state agency to state agency, and determinations that an 
individual is not disabled are often appealed, leading to lengthy waits 
before final resolution. For example, a table from the SSA Annual 
Statistical Report for 2003 offers data on the outcomes of applications 
filed between 1992 and 2003. According to that data, 22,062 
applications from 2000 were still pending in mid-2003.
    Further, for a number of years, SSA has been reducing staffing 
levels in its local offices. At the same time, the number of 
individuals applying for and receiving benefits has steadily increased. 
The result is an overworked SSA workforce that must deal with an 
overwhelming and growing workload. Insufficient staffing has often led 
to long lines and poor service. The processing of appeals and back-to-
work issues is not performed in a timely manner. Misinformation is 
frequent, and mistrust is common.
    Beneficiaries often report that SSA needs to improve customer 
service. Frequently reported problems include offices and meeting 
spaces that are too noisy for individuals with hearing loss, lack of 
information in accessible formats for individuals with vision loss, and 
misunderstandings about how work incentives might relate to specific 
impairments. Long waits for service in field offices are common, as is 
the frequent loss of essential paperwork sent to SSA. In some field 
offices, it is not uncommon for the main telephone numbers to be busy 
for extremely long periods of time. Trying to access specific staff 
members is often quite difficult, and it is frequently reported that 
staff do not return messages left by beneficiaries or their advocates 
in a timely manner.
    For additional information and recommendations, please see the 
Executive Summary from NCD's Social Security report, included below. 
Again, the full report 
is available at: http://www.ncd.gov/newsroom/publications/2005/ssa-
promoteemploy
ment.htm.

Executive Summary
    Americans with disabilities remain underemployed, despite the fact 
that many are willing and able to work. Although the Social Security 
Administration (SSA) has instituted a number of incentives to reduce 
the numerous obstacles to employment faced by its Supplemental Security 
Income (SSI) and Social Security Disability Insurance (DI) 
beneficiaries, such efforts have had little impact because few 
beneficiaries are aware of these incentives and how they affect 
benefits and access to health care.

Introduction to the Problem
    Social Security beneficiaries with disabilities must spend months 
or even years convincing SSA that they are unable to work as a 
condition of eligibility. Yet, upon their receipt of benefits, SSA 
begins to communicate to beneficiaries that work is an expectation for 
them. Congress and SSA have developed a variety of work incentives and 
special programs designed to encourage beneficiaries to attempt to 
obtain and sustain employment. Yet SSA's efforts to eliminate work 
disincentives have often added to the complexity of the entire program, 
confusing beneficiaries and making them leery of any actions that might 
unknowingly jeopardize their benefits.
    Current SSA benefit amounts are quite small and merely allow 
beneficiaries to live at a basic subsistence level. SSI resource limits 
make it very difficult to accumulate the financial resources necessary 
to move toward economic self-sufficiency. Tying eligibility for 
Medicaid or Medicare to eligibility for SSA benefits forces individuals 
with high-cost medical needs who could otherwise work to choose between 
pursuing a career and retaining the medical insurance that sustains 
their very lives.
    The fear of losing benefits and medical insurance through an 
unsuccessful employment attempt starts well before adulthood with SSI 
beneficiaries. Many SSI recipients first apply for benefits as children 
while enrolled in public schools. These individuals often remain on the 
rolls well into adulthood, with very few transitioning from high school 
into substantial employment after graduation. Failure to focus on 
Social Security and other public benefits during transition is not only 
a missed opportunity, but harm may be caused when students and family 
members are not educated or prepared for the effect of earnings on cash 
benefits and medical insurance.
    There is also the problem with poor educational attainment of DI 
beneficiaries who enter the disability system later in life. Efforts to 
help this population return to work are stymied by their lack of 
education and marketable job skills--particularly in today's highly 
competitive information economy. It is now more important than ever 
that people of all ages have access to higher education and the 
financial means with which to pay for training and education.

Response of Congress and the Social Security Administration to the 
        Problem
    Well aware of the enormity and seeming intractability of this 
problem, Congress and SSA have initiated multiple efforts to promote 
employment and return to work among SSA beneficiaries. In recent years, 
a number of work incentives for SSI and DI beneficiaries have been 
implemented, allowing individuals to keep more of their earnings while 
retaining their benefits. Work incentives are aimed at reducing the 
risks and costs associated with the loss of benefit support and medical 
services as a result of returning to work. Some of the most commonly 
used incentives are Section 1619(a) and (b) provisions; impairment-
related work expenses (IRWE); trial work period (TWP); Plan for 
Achieving Self-Support (PASS); extended period of eligibility (EPE); 
and continued payment under a vocational rehabilitation program.
    However, despite efforts by SSA and the Federal Government that 
have led to more favorable conditions for returning to work, most SSI 
and DI beneficiaries continue to stay on the disability rolls. The work 
incentives offered by SSA remain largely underutilized; in March 2000, 
of the total number of eligible working beneficiaries, only 0.3 percent 
were using PASS, 2.8 percent were using IRWEs, 7.5 percent were 
receiving Section 1619(a) cash benefits, and 20.4 percent were 
receiving Section 1619(b) extended Medicare coverage (SSA, 2000). The 
major reasons cited for the extreme underutilization of these work 
incentives by beneficiaries were (1) few beneficiaries knew that the 
work incentives existed, and (2) those who were aware of the incentives 
thought they were complex, difficult to understand, and of limited use 
when entering low-paying employment (GAO, 1999).
    The Office of Program Development and Research (OPDR) and the 
Office of Employment Support Programs (OESP) under the Deputy 
Commissioner for Disability and Income Security Programs are primarily 
responsible for the implementation of multiple components of the Ticket 
to Work and Work Incentives Improvement Act of 1999 (TWWIIA). The 
TWWIIA provides a number of new program opportunities and work 
incentives for both SSI and DI beneficiaries, including the Ticket to 
Work (TTW) and Self-Sufficiency Program; development of a work-
incentives support plan through the creation of national network of 
Benefits Planning, Assistance, and Outreach (BPAO) programs; and new 
work incentives, including expedited reinstatement (EXR) of benefits 
and postponement of continuing disability reviews.

The National Council on Disability's Study of the Problem
    It is not known whether the new TWWIIA programs will have any more 
success than past attempts by SSA to impact the employment rate and 
earnings of beneficiaries. What is clear is that there has not been, in 
recent times, a comprehensive, research-based examination of the 
practices that are most likely to support the employment of SSI and DI 
beneficiaries. This study has been undertaken in response to the need 
for such a comprehensive analysis. The study was designed to address 
four research questions:

        1.  What are the evidence-based practices that promote the 
        return to work of working-age beneficiaries of DI and SSI 
        programs?
        2.  What policy changes are needed, given recent trends in 
        program participation and employment?
        3.  Are there proven and documented practices that work better 
        for some populations of people with disabilities and not 
        others?
        4.  Which factors ensure that documented and evidence-based 
        practices could be adapted/ adopted by SSA and other entities 
        that seek to ensure the employment of people with disabilities? 
        Which factors prevent adaptation/adoption?

    A four-step approach was taken to implement the study. First, a 
comprehensive literature synthesis was completed through a review of 
published and unpublished literature. Second, detailed structured 
interviews were conducted with key stakeholders, including SSA 
beneficiaries, federal SSA officials, representatives of other federal 
agencies, consumer and advocacy organizations, service organizations, 
community service providers, and business representatives. Third, a 
preliminary list of findings, evidence-based practices, and 
recommendations based on the literature review and structured 
interviews was used to develop seven topic papers. These papers were 
used to facilitate discussion and obtain reaction from participants who 
were invited to a consensus-building conference at the end of January 
2005. Individuals with disabilities (including current and former SSI 
and DI beneficiaries), advocacy organizations, service providers, and 
policymakers who attended the conference had the opportunity to further 
develop the recommendations that appear throughout the report.
Major Findings of the Study
Purpose and Mission of SSA's Disability Benefit Programs
    Our nation's current disability benefit programs are based on a 
policy principle that assumes that the presence of a significant 
disability and lack of substantial earnings equates to a complete 
inability to work. The current SSA eligibility determination process 
thwarts return-to-work efforts, because applicants are required to 
demonstrate a complete inability to engage in substantial gainful 
activity (SGA) in order to qualify for benefits. The definition fails 
to recognize that, for many consumers, disability is a dynamic 
condition. The length of the application process in our current 
programs actually contributes to the ineffectiveness of our return-to-
work efforts and our inability to intervene early in the disability 
process.
    For DI individuals, lack of a gradual reduction in benefits as 
earnings increase and lack of attachment to the DI and Medicare 
programs after an individual has maintained employment for an extended 
period of time make return to work unfeasible. For SSI beneficiaries, 
the program's stringent asset limitations thwart efforts toward asset 
development and economic self-sufficiency. Inconsistencies in program 
provisions lead to confusion and inequities for beneficiaries of both 
programs.
Beneficiary Perspective and Self-Direction
    To receive benefits, applicants must characterize their situation 
as an inability to work long-term. They must demonstrate that they are 
unable to work in any significant way. Once they are determined to be 
eligible for disability benefits, beneficiaries face a host of complex 
program rules and policies related to continuing eligibility for cash 
benefits and access to health care. Many beneficiaries are confused or 
uninformed about the impact of return to work on their life situation 
and have shied away from opportunities to become self-sufficient 
through work.
    Beneficiaries report that their experience with SSA is often 
unfavorable. Insufficient staffing has led to long lines and poor 
services. Misinformation is frequent, and mistrust common. Local SSA 
field office staff members are overburdened with accurate and timely 
processing of post-entitlement earnings reporting, which often leads to 
overpayments to beneficiaries. Beneficiaries do not trust SSA to make 
appropriate and timely decisions. There is prevalent fear that work 
attempts would result in either a determination that the disability had 
ended or the need to repay benefits.
    SSA has implemented many legislative changes, program 
modifications, training initiatives, and automation efforts in the past 
15 years to improve its customer service. Although efforts to 
streamline processing and improve customer service should be lauded, 
they have not significantly improved beneficiaries' ability to direct 
and control their own careers.
Inocme Issues and Incentives
    A multitude of rules regarding employment income, continued 
eligibility for disability benefits, waiting periods, earnings 
reporting, management of benefit payments, and management of assets 
(among many others) come into play once an individual is determined to 
be eligible for DI or SSI. SSA rules regarding employment and income 
are such that many beneficiaries will actually be worse off financially 
if they work full time. Disincentives to employment in the current 
benefits programs include a sudden loss of cash benefits as a result of 
earnings above the SGA level for DI beneficiaries. Despite a number of 
programs that are designed to encourage asset building among SSI 
beneficiaries, it remains very difficult for beneficiaries to save and 
accumulate resources under SSI, which contributes to long-term 
impoverishment and dependence on public benefits.
    Over the past decade, SSA has devoted considerable resources to 
promoting employment and return to work among SSI and DI beneficiaries. 
The agency has aggressively implemented a number of new initiatives 
authorized under the TWWIIA, such as the Ticket to Work and Self-
Sufficiency Program, the BPAO program, area work incentive 
coordinators, and Protection and Advocacy for Beneficiaries of Social 
Security. It has modified program rules to provide increased work 
incentives to beneficiaries, such as the EXR and protection from 
continuing disability review provisions of TWWIIA, indexing the SGA 
threshold, and increasing the level of earnings allowed during the 
Trial Work Period (TWP). The agency has also launched or is planning to 
initiate a number of demonstrations that will test the efficacy of new 
modifications to work incentives within the DI program and services 
targeted toward youth with disabilities. Yet, while SSA has taken steps 
to improve its return-to-work services through the provision of work 
incentives, these efforts are hampered by the underlying program rules 
that were designed for individuals assumed to be permanently retired 
from the workforce and individuals who were viewed as unable or 
unlikely to work in the future.
Coordination and Collaboration Among Systems
    Expansion of the disability programs and the poor employment rates 
of adults with disabilities have become major concerns for SSA and 
disability policymakers across the country. Too often, the alarming 
growth of the Social Security disability rolls has been represented and 
perceived as SSA's problem to solve in isolation, when in fact it is a 
larger societal problem with myriad complex causes. Receipt of Social 
Security disability benefits is merely the last stop on a long journey 
that many people with disabilities make from the point of disability 
onset to the point at which disability is so severe that work is not 
possible. All along this journey, individuals encounter the policies 
and practices of the other systems involved in disability and 
employment issues. When these systems fail to stem the progression of 
disability or work at cross-purposes with one another to prevent 
successful employment retention or return to work, it is the Social 
Security disability system that bears the eventual brunt of this 
failure. Any meaningful effort to slow down or reverse this relentless 
march toward federal disability benefits will require significant and 
sustained collaboration and coordination among SSA and the other 
federal agencies with a stake in developing disability and employment 
policy.
    The complex obstacles to employment faced by SSA beneficiaries 
require a comprehensive set of solutions. New approaches must be 
identified that emphasize beneficiary control of career planning and 
the ability to access self-selected services and supports. Public and 
private health care providers must develop new collaborations and new 
approaches to combining coverage from multiple sources to improve 
program efficiencies. SSA must continue to work with the Rehabilitation 
Services Administration (RSA) and the Department of Labor (DOL) to 
improve implementation of the TTW program and identify new approaches 
that will overcome the traditional inability of SSA beneficiaries to 
benefit from services provided by the nation's employment and training 
programs. Secondary and postsecondary educational institutions must 
emphasize benefits counseling and financial management training as the 
foundation for beneficiary self-direction and economic self-
sufficiency. Federal agencies and the business community must realize 
that collaborative approaches to incorporating beneficiaries into the 
workforce are needed as a way to reduce dependence on federal benefits 
while simultaneously enhancing the productivity and competitiveness of 
large and small business.
Recommendations
    A total of 38 specific recommendations have been developed in the 
areas of Beneficiary Perspective and Self-Direction, Income Issues and 
Incentives, and Coordination and Collaboration Among Multiple Public 
and Private Systems. The recommendations are presented and justified in 
Chapters III, IV, and V of the report, and a complete list is provided 
in Chapter VI. The key recommendations resulting from the study are 
summarized below.
Beneficiary Perspective and Self-Direction
    Customer Services--SSA should take immediate steps to improve the 
services provided to beneficiaries by improving the accessibility of 
SSA field offices and Web sites; redesigning field office personnel 
roles, staffing patterns and work assignments; continuing efforts to 
automate work reporting procedures; and enhancing outreach efforts to 
beneficiaries.

    Ticket to Work Program--Congress and SSA should address current 
shortcomings in the TTW program by (1) expanding Ticket eligibility to 
include beneficiaries whose conditions are expected to improve and who 
have not had at least one continuing disability review (CDR), childhood 
SSI beneficiaries who have attained age 18 but who have not had a 
redetermination under the adult disability standard, and beneficiaries 
who have not attained age 18; (2) modifying the TTW regulations to 
ensure that Ticket assignment practices do not violate the voluntary 
nature of the program and beneficiary rights to grant informed consent; 
and (3) implementing a strong national marketing program to inform 
beneficiaries about TTW and other SSA programs.

    Facilitate Beneficiary Choice--Congress should authorize and direct 
SSA, the Rehabilitation Services Administration (RSA), the Centers for 
Medicare and Medicaid Services (CMS), the Department of Housing and 
Urban Development (HUD), and the Department of Labor Employment and 
Training Administration (DOLETA) to develop and implement an integrated 
benefits planning and assistance program that coordinates resources and 
oversight across several agencies that enables beneficiaries to access 
benefit planning services within multiple federal systems. Congress 
should also authorize and direct these agencies to consider changes to 
the existing BPAO initiative to improve the accuracy and quality of 
services provided to individual beneficiaries.

    Reduce SSA Overpayments to Beneficiaries--Congress and SSA should 
implement a series of procedural reforms to reduce overpayment to 
beneficiaries by increasing the use of electronic quarterly earnings 
data and automated improvements to expedite the processing of work 
activity and earnings; piloting the creation of centralized work CDR 
processing in cadres similar to PASS and Special Disability Workload 
Cadres; and enhancing efforts to educate beneficiaries on reporting 
requirements, the impact of wages on benefits, and available work 
incentives.

    Eliminate the Marriage Penalty--Congress and SSA should undertake a 
complete review of the SSI program and make program modifications that 
eliminate the financial disincentive to marriage inherent in the 
present program, including amending the current Title XVI disability 
legislation to modify the manner in which 1619(b) eligibility is 
applied to eligible couples.
Income Issues and Incentives
    Ease the SGA Cash Cliff for DI Beneificiaries--Congress should 
modify the current Title II disability legislation to eliminate SGA as 
a post-entitlement consideration for continued eligibility for Title II 
disability benefits and provide for a gradual reduction in DI cash 
benefits based on increases in earned income.

    Reduce Restrictions on Assets for SSI Beneficiaries--Congress 
should direct SSA to (1) develop and test program additions and 
regulatory modifications that will enable SSI beneficiaries to 
accumulate assets beyond existing limits through protected accounts and 
other savings programs, and (2) change current program rules and work 
with other federal agencies to modify and expand the value of 
individual development account (IDA) programs to SSA beneficiaries.

    Decrease the Complexity of the DI/SSI Program Rules Governing 
Income and Resources--Congress should direct SSA to (1) simplify 
regulatory earnings definitions and wage verification processes so that 
they are consistent across the SSI and DI programs, and (2) direct SSA 
to modify regulations related to the treatment of earnings in the DI 
program by applying the same rules currently applied in the SSI 
program.
Coordination and Collaboration Among Multiple Public and Private 
        Systems
    Health Care Systems--Centers for Medicare and Medicaid Services 
(CMS) and SSA should work together closely to (1) modify existing 
program regulations in order to uncouple Medicare and Medicaid coverage 
from DI/SSI cash payments; (2) identify and eliminate the many 
employment disincentives currently built into the Medicaid waiver, 
Medicaid buy-in, and Health Insurance Premium Payment (HIPP) programs; 
(3) expand benefits counseling services to include the full range of 
financial education and advisement services; and (4) work 
collaboratively with public and private insurance providers and 
business representatives to design public-private insurance 
partnerships that will expand access to health care for individuals 
with disabilities.

    Vocational Rehabilitation (VR) System--SSA should modify TTW 
program regulations to allow the SSA's traditional VR cost 
reimbursement program to carry on as a parallel program to the 
Employment Network (EN) outcome or outcome-milestone payment 
mechanisms, and ensure that an EN is able to accept Ticket assignment 
from a beneficiary, refer that individual to the VR agency for needed 
services, and not be required to reimburse the VR agency for those 
services.

    Federal Employment and Training System--Congress, SSA, and the 
Department of Labor should undertake an analysis of the impact of 
allowing DOL One-Stop Career Centers to receive cost reimbursement 
payments for successfully serving beneficiaries under the TTW program, 
evaluate the impact of the Workforce Investment Act (WIA) performance 
standards on beneficiary participation in WIA programs, and design and 
test a set of waivers that will assist beneficiaries in accessing and 
benefiting from WIA core and intensive services, as well as individual 
training accounts.

    Educational System--Congress should direct SSA to work with the 
Department of Education (ED) to (1) ensure that benefits planning and 
financial management services are available to the transition-aged 
population; (2) expand the current student earned income exclusion 
(SEIE) and the Plan for Achieving Self-Support (PASS) to encourage 
involvement of SSA beneficiaries in postsecondary education and 
training; and (3) implement a policy change that would disregard all 
earned income and asset accumulation limits for beneficiaries who are 
transitioning from secondary education to postsecondary education or 
employment for at least one year after education or training is 
completed.

    Employers, Business Community, and Private Insurance Industry--
Congress should direct SSA and the Department of the Treasury to (1) 
evaluate the possible effects of a disabled person tax credit as a 
means of increasing the use of disability management programs in 
business to prevent progression of injured and disabled workers onto 
the public disability rolls, and (2) collaborate with Department of 
Labor's Employment and Training Administration (DOLETA), the Small 
Business Administration (SBA), and the Rehabilitation Services 
Administration (RSA) to develop and implement an employer outreach 
program targeted toward small and mid-size businesses.
    NCD is available to provide you with advice and assistance 
pertaining to issues of importance to people with disabilities and 
welcomes any inquiries. Please contact NCD's Congressional Liaison, 
Mark Seifarth, or reach NCD by telephone.

                                 <F-dash>

 Statement of Social Security Disability Coalition, Rochester, New York
    I am dedicating the following testimony in memory of Dane Edwards, 
who applied for Social Security Disability benefits in October 2006, 
because of terminal lung and brain cancer. When he would call to check 
on the status of his claim he was told that he must wait like everyone 
else, and that he should stop calling to inquire about the status. He 
obviously did not have the luxury of time. Dane will no longer be 
calling and he never received his benefits. He died on February 13, 
2007--his SSDI disability claim still waiting for approval at the NYS 
(DDS) ODTA.
    My name is Linda Fullerton, I am permanently disabled and currently 
receive Social Security Disability Insurance/SSDI and Medicare. I am 
one who was personally affected by the problem of disability backlogs, 
which this hearing is supposed to be addressing today. I must say right 
from the start, that I firmly believe (while nobody from the SSA or 
Congress will ever admit this), the Social Security Disability program 
is structured to be very complicated, confusing, and with as many 
obstacles as possible, in order to discourage and suck the life out of 
claimants, hoping that they ``give up or die'' trying to get their 
benefits! This is how the government systematically robs you of your 
money in order to use it for other purposes. This program which was 
originally set up to help the disabled is currently failing miserably 
at this task, and in fact, in many cases it is causing devastating, 
irreversible harm to both their health and financial wellbeing.
    I am also President/Co-Founder of the Social Security Disability 
Coalition, which is made up of thousands of Social Security Disability 
claimants and recipients from all over the nation. Our group and 
experiences, are a very accurate reflection and microcosm of what is 
happening to millions of Social Security Disability applicants all over 
this nation. As a person who has gone through the Social Security 
Disability claims process myself, I know first hand about the pain, 
financial, physical and emotional devastation that the current 
problematic SSDI process can cause, and I will never be able to recover 
from it, since I can no longer work.
    I find it disturbing that at this latest hearing and at past 
hearings, that glaringly absent from your panel is representation from 
other disability organizations such as mine. You continually choose the 
same panelists from the legal, disability advocate community when there 
is any representation at all. I ask again as I have in the past, that 
in future Congressional hearings on these matters, that I be allowed to 
actively participate instead of being forced to always submit testimony 
in writing, after the main hearing takes place. I often question 
whether anybody even bothers to read the written testimony that is 
submitted when I see the results of hearings that were held in the 
past. I am more than willing to testify via video/phone teleconference 
before Congress, since I could never afford to travel, and I should be 
permitted to do so. I want a major role in the Social Security 
Disability reformation process, since any changes that occur have a 
direct major impact on my own wellbeing and that of our members. Who 
better to give feedback at these hearings than those who are actually 
disabled themselves, and directly affected by the program's 
inadequacies! A more concerted effort needs to be utilized when 
scheduling future hearings, factoring in enough time to allow panelists 
that better represent a wider cross section of disabled Americans, to 
testify in person. It seems to me if this is not done, that you are not 
getting a total reflection of the population affected, and are making 
decisions on inaccurate information, which can be very detrimental to 
those whom you have been elected to serve. I propose that Congress 
immediately set up a task force made up of claimants who have actually 
gone through the SSDI system, that has major input and influence on the 
decision making process before any final decisions/changes/laws are 
instituted by the SSA Commissioner or members of Congress. This is 
absolutely necessary, since nobody knows better about the flaws in the 
system and possible solutions to those problems, then those who are 
forced to go through it and deal with the consequences when it does not 
function properly.

    If you visit the Social Security Disability Coalition website, or 
the Social Security Disability Reform petition website:

        Social Security Disability Coalition--offering FREE knowledge 
        and support with a focus on SSD reform:

                http://groups.msn.com/SocialSecurityDisabilityCoalition

        Sign the Social Security Disability Reform Petition--read the 
        horror stories from all over the nation:

                http://www.petitiononline.com/SSDC/petition.html

    You will read over four years worth of documented horror stories 
and see thousands of signatures of disabled Americans whose lives have 
been harmed by the Social Security Disability program. You cannot leave 
without seeing the excruciating pain and suffering that these people 
have been put through, just because they happened to become disabled, 
and went to their government to file a claim for disability insurance 
that they worked so very hard to pay for.
    My organization fills a void that is greatly lacking in the SSA 
claims process. I must take this opportunity to tell you how very proud 
I am of all our members, many like myself, whose own lives have been 
devastated by a system that was set up to help them. In spite of that, 
they are using what very little time and energy they can muster due to 
their own disabilities, to try and help other disabled Americans 
survive the nightmare of applying for Social Security Disability 
benefits. There is no better example of the American spirit than these 
extraordinary people! While we never represent claimants in their 
individual cases, we are still able to provide claimants with much 
needed support and resources to guide them through the nebulous maze 
that is put in front of them when applying for SSDI/SSI benefits. In 
spite of the fact that the current system is not conducive to case 
worker, client interaction other than the initial claims intake, we 
continue to encourage claimants to communicate as much as possible with 
the SSA in order to speed up the claims process, making it easier on 
both the SSA caseworkers and the claimants themselves. As a result we 
are seeing claimants getting their cases approved on their own without 
the need for paid attorneys, and when additional assistance is needed 
we connect them with FREE resources to represent them should their 
cases advance to the hearing phase. We also provide them with 
information on how to access available assistance to help them cope 
with every aspect of their lives, that may be affected by the enormous 
wait time that it currently takes to process an SSDI/SSI claim. This 
includes how get Medicaid and other State/Federal programs, free/low 
cost healthcare, medicine, food, housing, financial assistance and too 
many other things to mention here. We educate them in the policies and 
regulations which govern the SSDI/SSI process and connect them to the 
answers for the many questions they have about how to access their 
disability benefits in a timely manner, relying heavily on the SSA 
website to provide this help. If we as disabled Americans, who are not 
able to work because we are so sick ourselves, can come together, using 
absolutely no money and with very little time or effort can accomplish 
these things, how is it that the SSA which is funded by our taxpayer 
dollars fails so miserably at this task?
    Now I will relate my own personal horror story, to give you a first 
hand look at the havoc, these backlogs can wreak on a disabled person's 
life. On January 14th 1997, due to medical negligence and complications 
from a simple bump on the head back on November 3rd 1996, I had major 
brain surgery (Occipital Craniotomy) due to 2 forms of strep/1 form of 
staph infection, which ate their way through my skull and formed 
abscess in my cerebellum. As a result of this Osteomyelitis of skull, I 
had to have the base of my skull surgically removed where the brain 
stem meets my spinal chord. A few months after the surgery I developed 
a huge inoperable blood clot in my brain in the left internal jugular 
vein. I managed to go back to work for a few years but as a result of 
the infections in my brain, and my body's inability to see that they 
were gone, I developed several incurable autoimmune disorders 
(Scleroderma, Raynaud's Disease, Rheumatoid Arthritis, Fibromyalgia, 
Hashimoto's Thyroiditis, Esophageal Reflux Disease, Calcinosis, 
Telangiectasia) which got progressively worse over time. By December 
6th 2001, I could no longer work and filed a claim for Social Security 
Disability benefits. I brought in a stack of medical records almost 2'' 
thick when I filed my claim at the local office to prove my disabling 
conditions, in hopes that it would speed up the process. I was sorely 
mistaken, as it took 4 months (March 2002) to process my initial claims 
denial. I couldn't understand how it was possible that anyone could 
read about all the medical problems I have, and it not be totally 
transparent that I should qualify for benefits, and that I never 
should've been denied in the first place!
    I live in NY State, one of the ten test states where the 
Reconsideration phase has been removed. Needless to say I was still 
disabled and I immediately filed for an appeal, had to go through an 
even more complicated process and was told it would be at least August 
of 2003 before I got my hearing if I didn't die first! On 9/13/02, when 
I called the Office of Hearings and Appeals in Buffalo NY to check on 
my claim the receptionist told me, that my file was still in the un-
worked status, meaning that nobody was assigned to my claim yet, or 
even looked at the file at all since March, when I originally filed my 
appeal. I expressed my disgust that after six months in their 
possession that it had not even been touched yet! I called them again 
on 1/23/03 and they told me that STILL nobody had been assigned to my 
case and it would be a MINIMUM of five months more or longer since they 
were just starting to work on cases that were filed in November of 
2001! The receptionist expressed her sympathy for my cause, and 
literally begged me to let others know (especially the government and 
media) about how much of a problem they are having. Imagine my surprise 
when I was calling them for help and they were begging me--a disabled 
person, to get them help! That just proves even further how poorly run 
the SSD program is. I was told that there were only 50 employees 
handling hundreds of thousands of cases.
    I also contacted the Social Security Office of Public Inquiries and 
the Inspector General's office in MD on the problems I was dealing 
with, and contacted all my elected officials. In March 2003 I called 
the hearings and appeals office and again they said it would be at 
least August 2003 before someone would look at my case. I then did some 
research and found out that I could request copies of my file (Freedom 
of Information/Privacy Act) including the reports of the SSD IME doctor 
I was sent to, and the notes of the original DDS claim examiner that 
denied me, and when I received them, my worst allegations were then 
confirmed. Even though I have no real neurological problems they sent 
me to a neurologist to examine me, so of course he would find nothing 
wrong with me, and say that I did not qualify as disabled. I should 
have instead, been sent to a Rheumatologist since most of my problems 
are caused by autoimmune disorders. I also discovered that the DDS 
examiner purposely manipulated my medical information in order to deny 
my claim. Even though I filed my disability claim based on all the 
physical problems I have, as a PRIMARY diagnosis for disability, the 
DDS examiner purposely wrote depression as a primary diagnosis instead 
of as secondary one, so of course I would be denied based on that as 
well. This was after I had already submitted tons of documents to prove 
my PHYSICAL disability--reports/documents that he chose to ignore. I 
also filed a formal willful misconduct complaint to the Office of the 
Inspector General in Washington DC against the DDS office. In April 
2003, I requested an immediate pre-hearing review of my case on the 
grounds of misconduct and additional physical evidence. In order to get 
that process going I had to fax the OHA copies of their own 
regulations, since the person I spoke with there had no clue what I was 
talking about. Once they got all my paperwork to request the review, a 
senior staff attorney, and then a hearing and appeals judge granted my 
request and my case was then sent back to the DDS office that 
originally denied my claim. Finally it was seen by a different DDS 
person who actually knew how to do their job. In two weeks my case was 
approved at the DDS level and then was selected randomly by computer (7 
out of every 10 cases get chosen) for Federal review. It then took 
another three weeks to be processed there. By this time, I had wiped 
out my life savings and lived off my pension from a previous employer 
which is totally gone now, due to the enormous wait. One month before 
becoming totally bankrupt, homeless, losing my health insurance, and 
everything else I had worked for the last 30 years of my life, all the 
retro pay just showed up in my bank account and I finally won my case 
by myself, with no lawyer representing me, exactly 1\1/2\ years to the 
day from when I originally filed my claim. I actually received my 
official approval letter on May 26th 2003.
    All the SSD retro pay I received was spent almost immediately--used 
to pay off debts incurred while waiting for approval of my benefits, 
which are nowhere near enough to live on for the rest of my life. Plus 
there is always the stress of having to deal with the SS Continuing 
Disability Review Process every few years, where the threat of having 
your benefits suddenly cut off constantly hangs over your head. This is 
a total waste of taxpayer money since there are no cures for anything I 
have, and in fact my health has gotten progressively worse. In addition 
to what I originally filed for disability on, I now also have: 
Gastritis, Hiatal Hernia, Diverticulosis, Colitis, Irritable Bowel, 
severe Anemia, Food Allergies (Celiac Disease Symptoms) and enough 
other conditions to fill two 8x10 pages (single spaced 10pt font). I 
can understand the SSA wanting to verify that I am still alive and my 
contact info, but anymore than that at this point is a total waste of 
SSA resources which could be used to process new claims.
    Since current Medicare eligibility requirements discriminate 
against disabled Americans by making them wait for 24 months after 
their disability date of entitlement, I didn't become eligible for 
Medicare until June 2004, having to spend over half of my SSD check 
each month on health insurance premiums and prescriptions, not 
including the additional co-pays fees on top of it. I still continually 
deal with enormous stress and face the continued looming threat of 
bankruptcy and homelessness, due to the cost of my Medicare, HMO 
healthcare, co-pays and basic living expenses, not qualifying for any 
public assistance programs.
    The American dream has now become the American nightmare for me, 
since day to day I don't know how I'm going to survive without some 
miracle like winning the lottery. I'm now doomed to spend what's left 
of my days here on earth, living in poverty, in addition to all my 
medical concerns since I'm no longer able to work. Despite what you may 
hear, Social Security Disability benefits rarely cover the basic 
necessities of life. Stress is the worst thing for anyone who is 
already ill to have to deal with. Since my health has deteriorated so 
rapidly since this experience, I now see doctors several times a month, 
and my medical records fill a huge filing cabinet. If one does not 
suffer from severe depression before filing for SS Disability benefits, 
chances are highly likely that as a result of the current process, they 
will be able to add that to their list of qualifying disabilities. I 
also know for a fact that many people contemplate suicide because of 
the destruction and humiliation they are subjected to. I did not ask 
for this fate and would trade places with a healthy person in a minute. 
In spite of everything, I am not asking for pity or sympathy for what 
has happened in my life. I just don't want anyone else to have to live 
like this, which is why I share my story with you today, since you in 
Congress have the ability to prevent horror stories like mine from 
happening. Nobody ever thinks it can happen to them. I am proof that it 
can and anyone reading this, including you, could be one step away from 
walking in my shoes at any moment! More of my personal horror story can 
be found here:
    A Bump On The Head

                http://www.frontiernet.net/lindaf1/bump.html

    Keep in mind a country is only as strong as the citizens that live 
there, yet as you can now see, the Social Security Disability process 
preys on the weak, and decimates the disabled population even further. 
While the majority of Americans were shocked at the reaction of the 
Federal government in the aftermath of hurricane Katrina, I wasn't 
surprised at all. Nowhere is this more evident, yet rarely mentioned, 
than in the way the Social Security Administration has been 
systematically destroying disabled Americans for decades. Americans saw 
when hurricane Katrina struck, how the poor and disabled were left to 
die in the streets when they needed help the most. I shudder to think 
of how many more lives will be further ruined or lost, when the 
mentally and physically disabled victims of Katrina, other natural 
disasters, 9/11 victims who survived that day, but are now disabled and 
facing a similar fate, and the other disabled Americans in general, 
encounter their next experience with the Federal government as they 
apply for their SSDI/SSI benefits. Also nothing is heard about the 
Veterans who are injured in the line of duty and have to go through 
this same scenario to get their benefits too. There are cases of 
Veterans rated 100% disabled by the VA who get denied their Social 
Security Disability benefits and end up living in poverty on the 
streets. Horrible treatment for those who protect and serve our 
country.
    Social Security Disability/SSDI is a disability INSURANCE plan, yet 
the disabled are often treated like criminals when they have to apply 
for it. The general feeling is that we are all frauds trying to scam 
the system and the SSA must ``weed out'' the frauds by making it as 
hard as possible for a claimant to get benefits. In fact the percentage 
of claims that in the end, are not legitimate are very miniscule. 
Nobody in their right mind would want to go through this process and 
live in poverty on top of their illnesses if they could in fact work. 
In our country you are required to have auto insurance in order to 
drive a car, you pay for health insurance, life insurance etc. If you 
filed a claim against any of these policies, after making your 
payments, and the company tried to deny you coverage when you had a 
legitimate claim, you would be doing whatever it took, even suing, to 
make them honor your policy, Yet the government is denying Americans 
their legitimate Social Security Disability Insurance claims everyday, 
and it is no wonder why claimants are outraged!

    According to the report: A Disability System for the 21st Century--
Social Security Advisory Board--September 2006:

        ``The process itself tends to make an individual who might have 
        been able to work at an earlier point in time less and less 
        capable of doing so.''

    Now to the hearing backlogs. As you can see from what happened in 
my case, and in the thousands of others still pending, the state DDS 
office made a bad decision on the initial claim, and the claimant must 
now file an appeal to get the proper decision. The first problem that 
must be addressed, and major cause for the huge backlog of disability 
hearing claims, is the overwhelming denial rate at the initial DDS 
level of the claims process. If claims were processed properly at this 
stage of the process there would be no need for the claimant to appeal 
to the ALJ hearing phase in the first place.
    The SSDI/SSI process is bogged down with tons of paperwork for both 
claimants and their treating physicians, and very little information is 
supplied by Social Security, as to the proper documentation needed to 
process a claim properly and swiftly. When you file a claim for 
benefits, you are not told that your illness must meet standards under 
the Disability Evaluation Under Social Security ``Blue Book'' listing 
of medical impairments, or about the Residual Functional Capacity 
standards that are used to determine how your disability prevents you 
from doing any sort of work in the national economy, or daily 
activities, when deciding whether or not you are disabled. In other 
words since the process is so nebulous from beginning to end, the deck 
is purposely stacked against a claimant from the very start. Many times 
when medical records are supplied by the claimant, they are lost or 
ignored. The proper weight is not given to their treating physicians 
when evaluating claims and precious time and money is wasted on 
fraudulent IME exams. Claimants are forced to see doctors who are not 
even specialists in the diseases for which they are sent to be 
evaluated. These doctors see you once for a few minutes, and yet their 
opinion is given greater authority than a claimant's own treating 
physician who sees them in a much greater capacity? Something is way 
out of line with that reasoning, yet it happens every day.
States Of Denial
    Since Social Security is widely known as a Federal program, where 
you live should not affect your ability to obtain benefits. Sadly this 
is not the case. What most don't realize is that after you file your 
initial disability claim at your local Social Security Office or 
online, that information goes to a state DDS/Disability Determination 
Services facility in the state where you live to be processed. There, 
the most crucial part of your disability claim, the medical portion, is 
reviewed by a caseworker/adjudicator and medical doctor on their staff 
who never sees you, and in most cases never even communicates with you 
at all. Then they decide whether or not they feel you are disabled 
based on the information that you and your doctors have provided.
    Since both Congressman McNulty and myself are from NY State I will 
use our state as an example here.

    The following is from NYS ODTA/Office of Temporary and Disability 
Assistance Website (2006)

        http://www.otda.state.ny.us/otda%20internet%20search/ddd/
        resources/ddd_resources_nysserv.htm

        ``This year the New York Division of Disability Determinations 
        is expecting to process 275,000 Federal disability claims under 
        Social Security and Supplemental Security Income criteria. It 
        generally takes approximately three months for the disability 
        team to gather all of the medical and vocational information, 
        evaluate the impact on daily activities, make a determination 
        and process it through the Federal system. Claimants usually 
        receive notification of the decision within 15 days after a 
        determination is made.''

    For example the following is a compilation of the DDS allowance 
percentage rates in NYS and how they compare to the national average of 
allowances vs denials:



                                                               T2 Initial        T16 Initial       Concurrent
                                                                 (SSDI)             (SSI)        Initial  (SSDI/
                                                                                                      SSI)

                                                             Allow     Deny    Allow     Deny    Allow     Deny

NATIONAL AVERAGE                                              44.2     55.8     36.4     63.6     25.3     74.7

New York Region                                               51.4     48.6     42.8     57.2     33       67

Buffalo, NY                                                   47       53       33.8     66.2     23       77


Source: Statement by Witold Skwierczynski--President Representing the National Council of SSA Field Operation
  Locals--AFGE, AFL-CIO--Congressional Testimony Before the House Ways and Means Subcommittee on Social Security
  on Social Security Disability Service ``Improvement'' on June 15, 2006--National and NYS Data--Office of
  Hearings & Appeals--ALJ Favorable/Unfavorable Decision Rates--SSA Program Totals--Number of cases that were
  originally denied at the state level and were appealed to the Federal level, and where DDS decisions were
  either overturned, upheld or dismissed.

    At an overall average 60% denial rate out of 275,000 applicants, 
165,000 people were denied their SSDI/SSI benefits in NYS at the 
initial level in 2006. What happened to the 165,000 people who were 
denied their SSDI/SSI benefits last year, not including those who have 
filed appeals from previous years and are still waiting to get their 
cases heard?
Social Security Disability Program Problems--Contributing Burden Factor 
        on Medicaid/Social Service Programs For States
    A majority of SSDI claimants are forced to file for welfare, food 
stamps and Medicaid, another horrendous process, after they have lost 
everything due to the inadequacies in the Social Security Disability 
offices and huge claims processing backlog. If a healthy person files 
for Social Service programs and then gets a job, they do not have to 
reimburse the state once they find a job, for the funds they were given 
while looking for work--why are disabled people being discriminated 
against? Claimants who file for Social Service programs while waiting 
to get SSDI benefits, in many states have to pay back the state out of 
their meager SSDI benefits once approved, which in most cases keeps 
them below the poverty level and forces them to continue to use state 
funded services. They are almost never able to better themselves and 
now have to rely on two funded programs instead of just one. This 
practice should be eliminated. In all states there should be immediate 
approval for social services (food stamps, cash assistance, medical 
assistance, etc) benefits for SSDI claimants that don't have to be paid 
back out of their SSDI benefits once approved.
From SSA website ssa.gov dated 6/3/04:

        ``In the New York region, there are 14 offices of hearings and 
        appeal, with a total staff of 560, including administrative law 
        judges, staff attorneys, decision writers, paralegal and 
        clerical staff.''



                                                              Total
                      Yearly Totals                        Depositions    Favorable    Unfavorable   Dismissals

9/28/02-9/30/05                                            110,950        65,637        25,307        20,006


Source: Social Security Administration


    According to the figures above, that is 65,637 mistakes, and lives 
that were most likely devastated by the faulty decisions made by the 
NYS DDS office in the past four years. That does not take into account 
the percentage of people again, who are still waiting for hearings, 
those that have given up and rely totally on NYS support, when they may 
in fact still be entitled to benefits but were too weak to appeal, and 
worse yet those who may have died while waiting.

    Excerpt from the report: Disability Decision Making: Data And 
Materials--Social Security Advisory Board--January 2001:

        ``In the last two decades, the percentage of claims adjudicated 
        at the ALJ level that are allowed has been considerably higher 
        than the percentage allowed by the DDS's at the initial 
        level.''

    Here are some of the factors that the Social Security Advisory 
Board (SSAB) listed in 2001, that affect the discrepancies of 
disability decisions between the State and Federal levels of the 
disability determinations process.
    During the initial claims process at the State level, most claims 
are decided based on a paper review of case evidence. There is very 
little, to no communication whatsoever between the claimant and the 
adjudicator who makes the first decision on a claim. There is no face 
to face contact with an adjudicator until a claimant has an ALJ 
hearing.

    Differences in training given to ALJ's and state examiners

    Lack of clear and unified policy guidance from SSA

    The involvement of attorneys and other claimant representatives at 
the ALJ hearing

    Excerpts from GAO Report GAO-04-656--SSA Disability Decisions: More 
Effort Needed To Assess Consistency of Disability Decision--
Washington--July 2004 which can be found at:

        http://www.gao.gov/new.items/d04656.pdf

        ``Each year, about 2.5 million people file claims with SSA for 
        disability benefits . . . About one-third of disability claims 
        denied at the state level were appealed to the hearings level; 
        of these, SSA's ALJ's have allowed over one-half, with annual 
        allowance rates fluctuating between 58 percent and 72 percent 
        since 1985. While it is appropriate that some appealed claims, 
        such as those in which a claimant's impairment has worsened and 
        prohibits work, be allowed benefits, representatives from SSA, 
        the Congress, and interest groups have long been concerned that 
        the high rate of claims allowed at the hearing level may 
        indicate that the decision makers at the two levels are 
        interpreting and applying SSA's criteria differently. If this 
        is the case, adjudicators at the two levels may be making 
        inconsistent decisions that result in similar cases receiving 
        dissimilar decisions.''

        ``Inconsistency in decisions may create several problems. . . . 
        SSA rulings are binding only on SSA adjudicators and do not 
        have to be followed by the courts. . . . Adjudicators currently 
        follow a detailed set of policy and procedural guidelines, 
        whereas ALJ's rely directly on statutes, regulations, and 
        rulings for guidance in making disability decisions. . . . If 
        deserving claimants must appeal to the hearings level for 
        benefits, this situation increases the burden on claimants, who 
        must wait on average, almost a year for a hearing decision and 
        frequently incur extra costs to pay for legal representation. . 
        . . SSA has good cause to focus on the consistency of decisions 
        between adjudication levels. Incorrect denials at the initial 
        level that are appealed increase both the time claimants must 
        wait for decision and the cost of deciding cases. Incorrect 
        denials that are not appealed may leave needy individuals 
        without a financial or medical safety net. . . . An appeal adds 
        significantly to costs associated with making a decision. 
        According to SSA's Performance and Accountability Report for 
        fiscal year 2001, the average cost per claim for an initial DDS 
        disability decision was about $583, while the average cost per 
        claim of an ALJ decision was estimated at $2,157. . . . An 
        appeal also significantly increases the time required to reach 
        a decision. According to SSA's Performance and Accountability 
        Report for fiscal year 2003, the average number of days that 
        claimants waited for an initial decision was 97 days, while the 
        number of days they waited for an appealed decision was 344 
        days. . . . In addition, claimant lawsuits against three state 
        DDS's have alleged that DDS adjudicators were not following 
        SSA's rulings or other decision making guidance. . . . However, 
        according to DDS stakeholder groups, SSA has not ensured that 
        states have sufficient resources to meet ruling requirements, 
        which they believe may lead to inconsistency in decisions among 
        states. Furthermore, SSA's quality assurance process does not 
        help ensure compliance because reviewers of DDS decisions are 
        not required to identify and return to the DDS's cases that are 
        not fully documented in accordance with the rulings. SSA 
        procedures require only that the reviewers return cases that 
        have a deficiency that could result in an incorrect decision. . 
        . . Early on, SSA also provided extensive cross-training of DDS 
        and ALJ adjudicators, although the scope of its efforts has 
        since diminished. . . . While SSA initially made progress 
        carrying out efforts to improve policies and training to better 
        ensure the consistency of decisions, the agency has not 
        continued to actively pursue these efforts. . . . Although SSA 
        has tried to address these problems, its inability to resolve 
        them has contributed to our decision to include federal 
        disability programs on our list of high risk government 
        programs.''

    Excerpts from Office Of The Inspector General--Social Security 
Administration--The Effects Of Staffing On Hearing Office Performance--
March 2005--A-12-04-14098

        http://www.ssa.gov/oig/ADOBEPDF/audittxt/A-12-04-14098.htm

        HEARING OFFICE DISPOSITIONS, TIMELINESS, AND STAFFING

        ``Over the last 5 years hearing office receipts have outpaced 
        total dispositions every year resulting in a large increase in 
        pending claims (up nearly 104 percent) and a worsening of 
        average processing time (up nearly 24 percent).''.

        ``OHA might improve its productivity if it based its staffing 
        allocations on hearing office staffing ratios, defined as the 
        number of support staff per ALJ . . . If SSA would define 
        performance standards for hearing office employees, SSA could 
        determine an ideal staffing ratio for OHA's hearing offices.''

        TRENDS IN STAFFING, PRODUCTIVITY AND TIMELINESS

        ``The number of hearing office employees on duty has increased 
        over 10 percent since FY 1999 (see Figure 2). The number of 
        ALJs on duty at the end of FY 2004 was up more than 2 percent 
        from FY 1999 levels.''

        ``However, even with increased staffing levels, average 
        processing time worsened. Average processing time increased by 
        over 24 percent since FY 1999, increasing from 316 days during 
        FY 1999 to 391 days during FY 2004. Average processing time has 
        been impacted by many factors. Some of the factors influencing 
        timeliness that are not under OHA's control are the number of 
        new hearing receipts (close to 21 percent higher than FY 1999 
        levels, see Figure 1) and restrictions on ALJ hiring.''

        ``Hearing offices with lower staffing ratios had, on average, 
        worse hearing office disposition rates.''

        ``Staffing ratios may be a good indicator for hearing office 
        timeliness.''

        ``Fluctuating staffing levels make it difficult for OHA to 
        balance staffing ratios in hearing offices. OHA must wait for a 
        hearing office with a higher-than-average support staff ratio 
        to lose an employee before another employee can be hired in a 
        hearing office that needs more support staff. OHA would be 
        better able to manage hearing office staffing if it had an 
        ideal staffing ratio for its hearing offices.''

        ``To determine an ideal staffing ratio for OHA hearing offices, 
        SSA would need to conduct national performance standards on the 
        work performed by hearing office support staff.''

CONCLUSION AND RECOMMENDATIONS
    Hearing office staffing levels rose more than 10 percent since FY 
1999 and OHA achieved a record national disposition rate in FY 2004. 
However, increased staffing levels have not been as effective in 
decreasing national average processing time. Staffing ratios may be a 
good indicator for hearing office disposition rates and timeliness, 
especially in hearing offices with low staffing rations. In most 
hearing offices with below average staffing ratios, disposition rates 
were below national averages and average processing times were above 
national averages. National performance standards for the work 
performed by hearing office support staff could help OHA management 
determine an ideal staffing ratio. Furthermore, it does not appear OHA 
awarded file assembly contracts based on any of the hearings key 
workload indicators, nor could we find any evidence OHA determined the 
effect that the additional human resources (file assembly contractors) 
have had on staffing ratios, disposition rates or average processing 
time for hearing offices that had received file assembly contracts.
    To improve overall staffing at the hearing offices and assist OHA 
in meeting its performance goals, we recommend SSA:

          Consider developing an ideal national staffing ratio to 
        assist OHA in allocating staff to hearing offices; and

          Consider prioritizing file assembly assistance for those 
        hearing offices that have staffing ratios below the national 
        staffing ratio.

    Early Case Screening and Analysis by Administrative Law Judge--In 
Early Case Screening, ALJs examine unassembled cases from the Master 
Docket and may issue immediate on-the-record favorable decisions. 
Screening helps eliminate standard delays and additional expense 
associated with holding a hearing. Screening also helps identify cases 
that need further development which helps move the cases along at an 
earlier stage. In FY 2003, ALJs screened about 66,000 cases and issued 
favorable decisions to approximately 21,600 claimants, and screened 
70,781 cases resulting in over 25,000 on-the-record decisions in FY 
2004.

    Short Form Software for Fully Favorable Decisions--OHA's hearing 
offices use standardized software to allow ALJs to create fully 
favorable decisions. In FY 2003, ALJs wrote over 23,600 decisions and 
18,750 decisions in FY 2004 using the Short Form Software for Fully 
Favorable Decisions, which reduced handoffs and further delays.

    Bench Decisions--In Bench Decisions, an ALJ issues a decision as 
soon as the hearing is over. ALJs issued over 1,100 favorable decisions 
from the bench in FY 2003, and issued 3,350 decisions in FY 2004.

    Expanding Video Hearings--Video Hearings enhances OHA's ability to 
expeditiously schedule hearings in remote sites. In FY 2003, OHA 
prepared and published final regulatory changes, which permit OHA to 
schedule video hearings without obtaining advance consent from the 
claimant. At the end of FY 2003, OHA had video hearing equipment in 35 
sites. The total number of fully operational video hearing sites was 
162 at the end of FY 2004.

    Dragon Naturally Speaking, Speech Recognition Software--Dragon 
Naturally Speaking, Speech Recognition Software assists ALJs and 
support staff with drafting decisions. In FY 2003, OHA distributed the 
software to more than 1,000 decision writers and ALJs.

    Digitally Recording Hearings--Digitally Recording Hearings is a new 
method of recording hearings that replaces OHA's aging audiocassette 
recorders with notebook computers. The notebooks have state-of-the-art 
software to record hearing proceedings in a digital file that can be 
stored on a hard drive, a local server and in the electronic folder. 
The entire digital recording rollout is expected to be completed early 
in 2006.

    Case Processing and Management System--OHA implemented the Case 
Processing and Management System (CPMS) in all 10 Regions in FY 2004. 
CPMS is OHA's new case tracking system and a critical component of the 
Agency's Electronic Disability Project (eDib). CPMS provides users in 
OHA hearing offices with a system to control, process and produce 
management information on disability hearings. CPMS includes the 
following functions: initiative appeals, case receipt, case 
development, ALJ review, scheduling features, information about 
hearings, case closing and management information.

    Centralized Screening Unit--At the beginning of the third quarter 
of FY 2004, OHA established an early case screening program at OHA 
Headquarters, which was authorized by the Commissioner during the 
second quarter of FY 2004. Employees in the Centralized Screening Unit 
screened cases from across the country for on-the-record decisions, 
with priority consideration given to hearing offices with receipts and 
pending levels above the national average and support staff levels 
below the national average. The objective of the Unit is to expedite 
the decision-making process and reduce the pending levels in the 
hearing offices. Through the end of the third quarter of FY 2004, the 
Centralized Screening Unit received over 2,500 cases and screened 
approximately 1,484 cases. Of the cases screened, 463 (29 percent) 
received fully favorable decisions.

    The following are recommendations by the Social Security Disability 
Coalition for Congressional legislation and SSA regulations. We believe 
that these improvements to the initial phase of the disability claims 
process, will help to alleviate the hearing backlog problem, since 
there will be less need for appeals to the hearing stage, if claims are 
handled properly from the onset.
    All money that is taken out of American's paychecks for Social 
Security should not be allowed to be used for anything else other than 
to administer the program and pay out benefits to the American people. 
Increase staffing levels and training throughout the SSA instead of 
cutting back staff which is currently being proposed at a time when the 
population's need for these services due to disability/age is 
increasing.
    Currently we call for a thorough investigation of the state DDS/
Offices of Temporary Disability Assistance, as to the large number of 
questionable denials of claims, which are then overturned at the 
Federal level, their enormous backlogs and processing times. Lack of 
staff and proper training can lead to a ``rubber stamping'' of claim 
denials. We recommend the increase of staffing levels, proper training 
of all staff at the state level and the creation of an independent 
oversight panel for these offices to maintain quality service.
    Create independent oversight panel (possibly the GAO) to 
investigate the problems including major backlogs at all levels of the 
SSDI/SSI claims process.
Consolidation/Coordination--The Disability Common Sense Approach
    For the future, the most ideal customer service scenario would be 
to have ALL phases of the disability claims process be handled directly 
out of the SSA field offices. Since SSDI/SSI are Federal benefits why 
has a State DDS level been added to this process at all? We must 
question why this common sense solution is not being instituted as part 
of the DSI. We ask that SSA, Congress and the GAO look into reforming 
this program in such a way that ALL who handle benefit claims are 
Federal employees and consolidate ALL phases of the SSDI/SSI process 
into the individual SSA field offices throughout the nation. More 
Federal funding is necessary to continue to create a universal network 
between all outlets that handle SSDI/SSI cases so that claimant's info 
is easily available to caseworkers handling claims no matter what 
level/stage they are at in the system. Since eDib is not fully 
functional at this time, and even when it is, keeping as much of the 
disability process as possible in the SSA field offices would 
dramatically cut down on transfer of files and the number of missing 
file incidences, result in better tracking of claims status, and allow 
for greater ease in submitting ongoing updated medical evidence in 
order to prove a claim. In addition, all SSA forms and reports should 
be made available online for claimants, medical professionals, SSD 
caseworkers and attorneys, and be uniform throughout the system. One 
universal form should be used by claimants, doctors, attorneys and SSD 
caseworkers, which will save time, create ease in tracking status, 
updating info and reduce duplication of paperwork. Forms should be 
revised to be more comprehensive for evaluating a claimant's disability 
and better coordinated with the SS Doctor's Bluebook Listing of 
Impairments.

    Strict enforcement of, and fines to be instituted for, violation of 
Federal Regulation CFR20 404.1642 Processing Time Standards to be 
monitored by the GAO.

        http://www.ssa.gov/OP_Home/cfr20/404/404-1642.htm

    (a) General.  Title II processing time refers to the average number 
of days, including Saturdays, Sundays, and holidays, it takes a State 
agency to process an initial disability claim from the day the case 
folder is received in the State agency until the day it is released to 
us by the State agency. Title XVI processing time refers to the average 
number of days, including Saturdays, Sundays, and holidays, from the 
day of receipt of the initial disability claim in the State agency 
until systems input of a presumptive disability decision or the day the 
case folder is released to us by the State agency, whichever is 
earlier.

    (b) Target levels.  The processing time target levels are:

        (1) 37 days for Title II initial claims.
        (2) 43 days for Title XVI initial claims.

    (c) Threshold levels.  The processing time threshold levels are:

        (1) 49.5 days for Title II initial claims.
        (2) 57.9 days for Title XVI initial claims.

        [46 FR 29204, May 29, 1981, as amended at 56 FR 11020, Mar. 14, 
1991]

    For every day over the threshold for Title II & Title XVI claims 
under Federal Regulation CFR20 404.1642 Processing Time Standards, 
daily compounded prime bank interest is to be paid by the SSA to 
claimant as compensation.

    Strict monitoring and enforcement of Federal Regulation CFR20 
404.1643 Performance Accuracy Standard by the (GAO) Government 
Accounting Office and not the SSA

        http://www.ssa.gov/OP_Home/cfr20/404/404-1643.htm

    (a) General.  Performance accuracy refers to the percentage of 
cases that do not have to be returned to State agencies for further 
development or correction of decisions based on evidence in the files 
and as such represents the reliability of State agency adjudication. 
The definition of performance accuracy includes the measurement of 
factors that have a potential for affecting a decision, as well as the 
correctness of the decision. For example, if a particular item of 
medical evidence should have been in the file but was not included, 
even though its inclusion does not change the result in the case, that 
is a performance error. Performance accuracy, therefore, is a higher 
standard than decisional accuracy. As a result, the percentage of 
correct decisions is significantly higher than what is reflected in the 
error rate established by SSA's quality assurance system.
    (b) Target level.  The State agency initial performance accuracy 
target level for combined Title II and Title XVI cases is 97 percent 
with a corresponding decision accuracy rate of 99 percent.
    (c) Intermediate Goals.  These goals will be established annually 
by SSA's regional commissioner after negotiation with the State and 
should be used as stepping stones to progress towards our targeted 
level of performance.
    (d) Threshold levels.  The State agency initial performance 
accuracy threshold level for combined Title II and Title XVI cases is 
90.6 percent.
    If the state offices cannot abide by the Federal standards as 
stated above, we recommend that these duties be removed from the states 
and turned back over to the Federal government for good.
    Also a new regulation needs to be legislated for case processing 
standards for Title II & Title XVI claims for hearings by ALJ and 
Federal Appeals courts.
    For ALJ hearings, the hearing must be completed, decision made and 
processed within 3 months of initial denial at DDS level. For every day 
over the 3 month deadline for processing, compounded prime bank 
interest is to be paid to claimant as compensation.
    For Federal Appeals court hearings, the hearing must be completed, 
decision made and processed within 3 months of initial denial at the 
ALJ level. For every day over the 3 month deadline for processing, 
compounded prime bank interest is to be paid to claimant as 
compensation. Again these regulations would be strictly enforced and 
monitored by the GAO.
    Expand use of Federal Reviewing Official position to all 50 states 
as soon as possible.
    Expand Emergency Advance Payments (EAP), Presumptive Disability 
(PD), and Presumptive Blindness (PB) Provisions to include those 
applying for Title II (SSDI) benefits. We also ask Congress legislate 
for these benefits to take effect for ALL disability claims immediately 
upon a claimants request for an appeal, after the initial denial at the 
DDS level, until a satisfactory decision is reached, or all levels of 
appeal are exhausted on that disability claim. In addition these 
benefits would not have to be paid back by the claimant no matter what 
the outcome of their claim is.
    Disability benefits determinations should be based solely on the 
physical or mental disability of the applicant. Neither age, education, 
work experience should ever be used when evaluating whether or not a 
person is disabled, as long as they meet the non-medical requirements 
for receiving benefits. If a person cannot work due to their medical 
conditions--they CAN'T work no matter what their age, or how many jobs 
or educational degrees they had.
    Too much weight at the initial time of filing, is put on the 
independent medical examiner's and DDS/OTDA caseworker's opinion of a 
claim. The independent medical examiner only sees you for a few minutes 
and has no idea how a patient's medical problems affect their lives 
after only a brief visit with them. The caseworker at the DDS/OTDA 
office never sees a claimant. There needs to be more oversight that 
disability decisions be based with controlling weight given to the 
claimant's own treating physicians opinions and medical records in 
accordance with (DI 24515.004) SSR 96-2p: Policy Interpretation Ruling 
Titles II And XVI: Giving Controlling Weight To Treating Source Medical 
Opinions. Even though this policy ruling is in place, this is very 
often not happening.
    All doctors who are licensed to practice medicine should be trained 
and required to fill out Social Security Disability forms for their 
patients who need them. FREE copies of medical records to be provided 
to all people with disabilities (unless it could be proven that it is 
detrimental to their health) upon request. This is crucial information 
to ensure that claimants are receiving proper healthcare and a major 
factor when a person applies for Social Security Disability.
    In cases where SS required medical exams are necessary, they should 
only be performed by board certified independent doctors who are 
specialists in the disabling condition that a claimant has (example--
Rheumatologists for autoimmune disorders, Psychologists and 
Psychiatrists for mental disorders). These exams must only be required 
to be performed by doctors who are located within a 15 mile radius of a 
claimants residence. If that is not possible--any transportation or 
travel expenses incurred for this travel by the claimant, must be 
reimbursed or provided by the agency requiring the exam. Audio and/or 
videotaping of all IME exams to avoid improper conduct by doctors. Copy 
of IME doctors findings must be sent to claimant free of charge within 
one week of exam unless deemed detrimental to a patient's health at 
which point it would be sent to their treating physician instead.
    More communication between caseworkers and claimants throughout all 
phases of the disability process. Review of records by claimant should 
be available at any time during all stages of the disability 
determination process. Before a denial is issued at any stage, the 
applicant should be contacted as to ALL the sources being used to make 
the judgment. It must be accompanied by a detailed report as to why a 
denial might be imminent, who made the determination and a phone number 
or address where they could be contacted. In case info is missing or 
they were given inaccurate information the applicant can provide the 
corrected or missing information before a determination at any level is 
made. This would eliminate many cases from having to advance to the 
hearing or appeals phase.
    Remove regulation that requires SSDI recipients pay back the State 
for any assistance they receive while waiting for their Federal 
Benefits to be processed. They should require any payback from the 
Federal Government itself NOT the disability claimants retro benefits.
    The SSA ``Bluebook'' listing of diseases that qualify a person for 
disability should be updated more frequently to include newly 
discovered crippling diseases such as the many autoimmune disorders 
that are ravaging our citizens. SSD's current 3 year earnings window 
calculation method fails to recognize slowly progressive conditions 
which force people to gradually work/earn less for periods longer than 
3 years, thus those with such conditions never receive their `healthy' 
earnings peak rate.
    The need of lawyers/reps to file claims and navigate the system 
adds another cost burden to the claimant. The automatic percentage for 
payment of representative's fee, and current high cap on that fee out 
of a claimant's retro pay is proving to be a disincentive to 
expeditious claim processing, since purposely delaying the claims 
process will cause the cap to max out--more money to the lawyer/rep for 
``dragging their feet'' thus not properly representing the claimant. In 
cases where claimant uses a paid representative, and is found in fact 
to be disabled, any/all expenses incurred for the representation of 
that claimant should be paid by the SSA. Also the SSA should provide 
claimants with a listing in every state, of FREE Social Security 
Disability advocates/reps when a claim is originally filed as well.

    Institute a lost records fine--if Social Security loses a claimants 
records or files, an immediate fine (TBD) must be paid to claimant, 
since lost records will cause a major delay in claims processing, which 
can be major detriment to claimant's health and financial wellbeing.
    When a veteran has a disability that is 100% service connected, 
receives VA benefits approval for that rating, and it is deemed by the 
VA that they can no longer work, that veteran should automatically be 
approved for their Social Security Disability, as long as they also 
meet the Non-Medical requirements for SSDI/SSI benefits. In addition 
all VA doctors should be trained and required to fill out Social 
Security Disability forms for their patients, whose VA disability 
rating is less than 100%, but may still be unable to work due to their 
disabilities and require SSDI/SSI benefits. This will eliminate many 
applicants from the hearing/appeals phase of the program.
    More Federal funding is necessary to create a universal network 
between Social Security, and all outlets that handle SSD/SSI cases so 
that claimant's info is easily available to caseworkers handling claims 
no matter what level/stage they are at in the system. All SSA forms and 
reports should be made available online for claimants, medical 
professionals, SSD caseworkers and attorneys, and be uniform throughout 
the system. One universal form should be used by claimants, doctors, 
attorneys and SSD caseworkers, which will save time, create ease in 
tracking status, updating info and reduce duplication of paperwork. 
Forms should be revised to be more comprehensive for evaluating a 
claimant's disability and better coordinated with the SS Bluebook 
Listing of Impairments.
    Currently the SSA forces the disabled to go through years of abuse 
trying to prove that they can no longer work ANY job in the national 
economy due to the severity of their illnesses in order to be approved 
for benefits. The resulting devastation on their lives, often totally 
eliminates the possibility of them ever getting well enough to ever 
return to the workforce, even on a part time basis. Then, sometimes 
weeks after they are finally approved for SSD/SSI benefits, they 
receive a ``Ticket To Work'' packet in the mail. A cruel joke to say 
the least and it is no wonder that the disabled fear continuing 
disability reviews, utilization of the Ticket to Work Program, and 
distrust the Federal Government! Yet ironically once they are approved 
they are allowed to earn up to $900 and still receive benefits. 
Confusing to say the least. The Ticket to Work Program is often viewed 
as a carrot and stick it to the disabled approach. We recommend in 
addition to the current Ticket to Work Program, the creation of an 
Interim (transitional) SSDI disability program for those who are 
chronically ill, but still may be able to work a few hours a week/
month. Say a claimant would be eligible for $1000 disability benefit if 
approved for full SSDI benefits. They would apply for interim 
disability to start and for every month they could not work they would 
get a full check. For those months that they could work they would be 
paid the difference or nothing based on the percentage of the $1000 
benefit they would earn by working that month. They would be eligible 
for full Medicare benefits from the onset. When their illnesses 
progressed to a point that working is no longer an option, full SSDI 
benefits would automatically kick in.
We also urge Congress to pass the following legislation:

          Waiting period for initial payment of benefits should be 
        removed instead of the current five month waiting period from 
        disability date of eligibility. The withholding of five months 
        of benefits greatly adds to the financial burden of a claimant, 
        and compromises their financial status to a point, that most 
        can never recover from due to their inability to work. Until 
        this is instituted, prime rate bank interest should be paid on 
        all retro payments due to claimants, as they are losing this as 
        well while waiting for their benefits to be approved. It should 
        be kept in mind that many Americans do not even have health 
        insurance let alone private disability plans. Then factor in, 
        that once you are unable to work for an extended length of 
        time, and are either terminated by your employer, or make the 
        agonizing decision to never return to work again for the rest 
        of your life, those employer sponsored benefits often expire 
        and you are left with nothing--no employer sponsored health or 
        disability insurance! Studies have shown that most in this 
        country have about two weeks worth of financial resources to 
        live off of, and that is assuming that they are healthy, yet 
        currently it is expected that a population who can no longer 
        work, go without five months of pay and wait several months to 
        several years to have their disability claims processed.
          Immediate eligibility for Medicare/Medicaid upon disability 
        approval with NO waiting period instead of the current 2 years. 
        The current two year waiting period causes even further harm to 
        an applicant's already compromised health and even greater 
        financial burden on a population who can least afford it, since 
        they cannot work. This also forces many to have to file for 
        Medicaid/Social Service programs who otherwise may not have 
        needed these services if Medicare was provided immediately upon 
        approval of disability benefits.

    Both of these current regulations are a major contributing factor 
to the lasting poverty that claimants have to deal with as part of the 
aftermath of filing for Social Security Disability benefits. Changes in 
these regulations would greatly enhance the quality of life for 
disabled Americans.
    I am well aware as I write this, that there are some who have 
abused the system and that is a shame, because it casts a bad light on 
those who really need this help. Yet, there are ways to ``weed them 
out'', without causing harm to legitimate claimants. It is time that 
the government fixes the problems, so that the people who really need 
this help can access it as soon as possible, instead of being treated 
as frauds, and criminals on trial, when they need to file a claim for 
benefits. Social Security, SSDI, SSI and Medicare are great programs 
when they function properly, and have helped millions of Americans who 
may never have survived without them.
    Most of us were once hard working, tax paying citizens with hopes 
and ``American dreams'' but due to an unfortunate accident or illness, 
have become disabled to a point where we can no longer work. Since we 
can no longer work due to our disabilities, we are often considered 
``disposable'' people by general and government standards. In addition 
our cries and screams are often ignored, many preferring that we just 
shut up or die. Does that mean we are not valuable to our country, or 
give the government/society the right to ignore or even abuse us? We 
are your mothers, fathers, sisters, brothers, children, friends and 
acquaintances and remember that disease and tragedy do not discriminate 
on the basis of age, race or sex. Wake up America! If you think this 
couldn't happen to you--you could be DEAD wrong!
    I ask that you please act urgently on these items, as millions of 
American's lives depend on you. Thanks very much for your time and 
consideration.

                                 <F-dash>

           Statement of Michael A. Steinberg, Tampa, Florida
    I am an attorney who has been practicing in the area of Social 
Security Disability law for over 24 years. I have written articles for 
periodicals and have lectured at National Social Security Disability 
Law Conferences. I have handled thousands of cases at all levels of the 
administrative and appeals process. Although my office is located in 
Tampa, Florida, I have handled cases for claimants throughout the 
country.
    Last year, I submitted testimony to this subcommittee about the 
backlog of cases pending a hearing before an Administrative Law Judge, 
and the need to pass legislation to give claimants some relief from 
these delays. I advised that several times per year one of my clients 
would die waiting for his or her hearing. Just this past Monday, 
February 5, 2007, another client died before she could get her hearing 
scheduled. She was without medical coverage, and perhaps she would 
still be alive had she had her hearing scheduled earlier and already 
received a decision. I have permission from her family to disclose her 
name. It is Mary Welch, and I'd be happy to provide details of her case 
upon request.
    Every year or so this subcommittee holds a hearing about the 
backlog of disability cases before Social Security. A representative 
from Social Security will testify about how many more cases they are 
handling compared to the previous year. The Commissioners have touted 
new plans to improve the hearing process. Yet every year the backlog 
grows and your subcommittee introduces no legislation to effectuate 
changes.
    I know each of the members of Congress receives hundreds of calls 
from Social Security claimants every year complaining about the waiting 
time to get a hearing. Everyone knows that the cause of the delays is 
that Congress will not appropriate enough money to the Social Security 
Administration, so that they can do their job timely and efficiently. 
It is time that the members of this subcommittee take action.
    There is a measure that can be passed that would force a resolution 
to this problem. As I have suggested before, if 42 U.S.C. Sec. 423 were 
amended to provide for interim benefits to claimants who have not 
received a hearing and decision within a certain period of time from 
the date they filed a request for hearing (provided they were without 
fault in causing the delay), Social Security would have to provide 
quicker hearings and decisions, or pay many claimants who otherwise 
would not qualify for these benefits. Since it is unacceptable to pay 
in large numbers those who do not qualify, additional money would then 
have to be appropriated to be able to get hearing decisions out before 
the deadline.
    Claimants for Social Security Disability Insurance Benefits 
contributed to the disability part of the Social Security Trust Fund, 
out of every paycheck, when they were working. They were promised that 
if they became disabled they would receive disability benefits. It is 
not fair to make these people, most of whom are eventually approved, 
wait three years or longer to receive a hearing and decision.
    Since this is a new Congress, perhaps some of you are not aware of 
how long this problem has existed and how many times we who are 
involved in this program have heard the same excuses and the same 
promises. Please don't make the same mistake of relying on assurances 
by representatives of the Social Security Administration that measures 
such as electronic files and a different evaluation process will fix 
the problem. Without penalties for failure to meet timeliness 
standards, the backlog will continue to grow.

                                 <F-dash>

       Statement of Walter Walkenhorst, Jenkintown, Pennsylvania
    As an attorney who practices full time in the Social Security 
disability field, I write in support of greater funding for the Social 
Security Administration's hearing offices. On a daily basis my staff 
and I hear stories of clients who are suffering needlessly because of 
delays in having their cases decided. Justice delayed is justice 
denied. Given the current hearing delays, justice is being denied on a 
daily basis.
    The problem with Social Security's service delivery is primarily 
one of numbers. The hearing offices have become increasingly 
understaffed. Although the number of cases is growing each year, there 
are fewer judges and support staff to handle this increasing volume. 
Technology alone cannot solve this problem. Only more human resources 
can.
    The disabled are our most vulnerable citizens. If the government 
won't help them, no one will. How a nation treats its disabled says 
much about it. Our country must not continue to ignore the disabled. 
When my clients are losing their homes or cars or going without 
essential medical treatment because their valid disability claims are 
languishing, what do I tell them? I tell them that only Congress can 
solve the problem, and that Congress either doesn't know about their 
plight or doesn't care about it.
    I am writing to help in the education process. If you heard the 
stories my staff and I hear, I am certain you would approve the 
necessary funding. The format for this submission does not allow for 
scanned attachments. If it did, I would attach the full letter I am 
about to quote. The letter moved me and I hope and pray it will move 
you as well.
    The letter is from a current client of mine. She is 56 years old. 
She lives in Willow Grove, PA, a suburb of Philadelphia. She suffers 
from schizophrenia, yet managed to work for many years. Her work 
history report shows that she worked in five different jobs from 
January, 2005 until March, 2006, when she last worked. None of those 
jobs lasted more than a few months. Her first psychiatric admission was 
in 1979. The most recent was in April, 2006. Despite mental health 
treatment and medication, she still hears voices. Her initial 
application, like most, was denied by the state agency. The reviewer 
found she was capable of making ``simple decisions'' and would not 
require ``special supervision.'' She is now waiting for a hearing at a 
hearing office with a backlog of over 5,000 cases. Her wait could 
easily be another year, as the hearing request was filed in October, 
2006. This is what she wrote in long hand on four pages of lined paper:

                                 ______
                                 
    12/13/07

        To whom it may concern:

        I currently have a disability case pending and I was hoping 
        that maybe someone could help move up the hearing date ASAP. I 
        tried every day to find a job but no one is calling me back. . 
        . . I have tried the free training on computers at Career 
        Links, night school and the agencies, but it is just too 
        stressful for me. I just can't pick it up. I am bi-polar and 
        have depression. I am taking medication and they have been 
        giving me so many bad side effects I just don't know if I can 
        even accept any jobs anyway. . . . Each day is getting harder 
        and harder. My unemployment ran out last year. My husband makes 
        very little. He wanted to get a second job but I said ``NO.'' 
        He is a very hard worker. He worries so much about me. Now he 
        has some medical problems as a result of all this. He has been 
        my biggest supporter next to God. Thank goodness we have God in 
        our lives. We tried to get a cheaper apartment but it would 
        cost us $2,400 to move. . . . Our heat is included in the rent 
        where we live which is nice because I am always freezing with 
        these meds and I have turned it up to 80 degrees most of the 
        time. My husband doesn't like the heat but he never complains. 
        I have developed osteoporosis, high blood pressure, hyper and 
        hypo thyroidism. I have a long list of side effects (serious) 
        from my meds. I sleep in the afternoon sometimes and usually 
        from 7-10:00 pm. I had to turn down a job because it involved 
        driving a van for a nursing facility. I didn't want the 
        responsibility of those patients if I fell asleep at the wheel. 
        . . . Maybe if I wasn't mentally ill I could probably take any 
        position, but the ones I applied for are too stressful, too 
        much responsibility, too much concentration or too many hours. 
        I called Medicaid and couldn't get through so I left a message. 
        I haven't heard anything yet. We have depleted our savings and 
        two other small savings accounts. My husband now has to take 
        out his IRA's and CD's which isn't much. And what do we do when 
        that runs out? It's only a temporary solution. Sometimes on 
        weekends we go to New Jersey to visit my mother-in-law, just to 
        get away from it all. She is on a fixed income and she still 
        manages to give us $100 each month toward our car payment. She 
        pays for every meal every time we go. What would we do without 
        her. We feel so guilty but what can we ever do to pay her back. 
        She is 86 and the sweetest lady. Now when I talk to her on the 
        phone she sounds depressed because she worries so much about 
        us. She eats like a bird and doesn't sleep. . . . I am getting 
        upset writing this so I will stop now. We would appreciate any 
        help you can to speed up the hearing. Thank you. (signature)

                                 ______
                                 
    This is just one story. We have heard many others that are just as 
compelling. We literally hear them daily. You have the ability to help 
this woman and tens of thousands like her. Please approve the 
Commissioner's requested funding for Social Security's hearing offices. 
Please search your hearts and do the right thing for these, the 
forgotten of our society.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
